Department of Homeland Security
   Ofﬁce of Inspector General

             Information Technology Management
              Letter for the FY 2010 DHS Financial
                         Statement Audit

                          (Redacted)




OIG-11-103                                           August 2011
                                                                                Office of Inspector General

                                                                     u.s. Department ofHOllleland Security
                                                                                    Washington, DC 25028




                                                                      Homeland
                                                                      Security
                                        AUG 18 2011

                                             Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2010 DHS
financial statement audit as of September 30,2010. It contains observations and
recommendations related to information technology internal control that were summarized
within the Independent Auditors' Report, dated November 12, 2010 and represents the separate
restricted distribution report mentioned in that report. The independent accounting firm KPMG
LLP (KPMG) performed the audit ofthe DHS' FY 2010 financial statements and prepared this
IT management letter. KPMG is responsible for the attached IT management letter dated April
26,2011; and the conclusions expressed in it. We do not express opinions on DHS' financial
statements or internal control or conclusion in compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Assistant Inspector General
                                     Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




April 26, 2011

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Department of Homeland Security

Chief Financial Officer
U.S. Department of Homeland Security
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2010, and the related statement of custodial activity for the year
then ended (referred to herein as “financial statements”). We were also engaged to examine the
Department’s internal control over financial reporting of the balance sheet as of September 30, 2010,
and statement of custodial activity for the year then ended. In connection with our audit engagement,
we also considered DHS’ compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the balance sheet as of
September 30, 2010 and the related statement of custodial activity for the year end. We were not
engaged to audit the accompanying statements of net cost, changes in net position, and budgetary
resources, for the years ended September 30, 2010 (referred to herein as “other fiscal year (FY) 2010
financial statements”), or to examine internal control over financial reporting over the other FY 2010
financial statements. Because of matters discussed in our Independent Auditors’ Report, dated
November 12, 2010, the scope of our work was not sufficient to enable us to express, and we did not
express, an opinion on the financial statements.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect and
correct misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control over financial reporting that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control over financial reporting, such that
there is a reasonable possibility that a material misstatement of the entity’s financial statements will
not be prevented, or detected and corrected on a timely basis.

During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, security management, contingency planning, and segregation of duties with respect to
DHS’ financial systems Information Technology (IT) general controls which we believe contribute to a
DHS-level significant deficiency that is considered a material weakness in IT controls and financial
system functionality. We also noted that in some cases, financial system functionality is inhibiting
DHS’ ability to implement and maintain internal controls, notably IT applications controls supporting
financial data processing and reporting. These matters are described in the IT General Control and
Financial System Functionality Findings section of this letter.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 12, 2010. This letter represents the separate limited distribution report mentioned in that
report.



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Although not considered to be a material weakness, we also noted certain other items during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control and Financial System Functionality Findings section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you.
We have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key DHS financial systems and IT infrastructure within the scope of the FY 2010 DHS
financial statement audit engagement in Appendix A; a description of each internal control finding in
Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments related to
financial management and reporting internal controls have been presented in a separate letter to the
Office of Inspector General and the DHS Chief Financial Officer dated February 1, 2011.

DHS’s written response to our comments and recommendations has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General, U.S. Office of Management and Budget, U.S. Government Accountability Office,
and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


Very truly yours,
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

             INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                       TABLE OF CONTENTS

                                                                                                     Page

Objective, Scope and Approach                                                                         1

Summary of Findings and Recommendations                                                               2

IT General Control Findings and Recommendations                                                       3

       Access Controls                                                                                3

       Configuration Management                                                                       4

       Security Management                                                                            4

       Contingency Planning                                                                           5

       Segregation of Duties                                                                          5

Financial System Functionality                                                                        5

Management Comments and OIG Response                                                                  6

                                           APPENDICES

Appendix                                           Subject                                           Page
   A        Description of Key DHS Financial Systems and IT Infrastructure within the Scope of the    7
            FY 2010 DHS Financial Statement Audit

   B        FY 2010 Notices of IT Findings and Recommendations at DHS                                 19

                �    Notice of Findings and Recommendations (NFR)– Definition of                      20
                     Severity Ratings
   C        Status of Prior Year Notices of Findings and Recommendations and Comparison to           147
            Current Year Notices of Findings and Recommendations at DHS
   D        Management Comments                                                                      153

   E        Report Distribution                                                                      155
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

                          OBJECTIVE, SCOPE AND APPROACH
During our engagement to perform an integrated audit of Department of Homeland Security (DHS),
we evaluated the effectiveness of IT general controls of DHS’ financial processing environment and
related IT infrastructure as necessary to support the engagement. The Federal Information System
Controls Audit Manual (FISCAM), issued by the Government Accountability Office (GAO),
formed the basis of our audit as it relates to IT general controls assessments at DHS. The scope of
the DHS IT general controls assessment is described in Appendix A.
FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of
the financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following five control functions to be
essential to the effective operation of the general IT controls environment.
�   Security Management (SM) – Controls that provide a framework and continuing cycle of
    activity for managing risk, developing security policies, assigning responsibilities, and
    monitoring the adequacy of computer-related security controls.
�   Access Control (AC) – Controls that limit or detect access to computer resources (data,
    programs, equipment, and facilities) and protect against unauthorized modification, loss, and
    disclosure.
�   Configuration Management (CM) – Controls that help to prevent unauthorized changes to
    information system resources (software programs and hardware configurations) and provides
    reasonable assurance that systems are configured and operating securely and as intended.
�   Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
    structure to manage who can control key aspects of computer-related operations.
�   Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
    without interruption, or with prompt resumption, when unexpected events occur.
To complement our general IT controls audit procedures, we also performed technical security
testing for key network and system devices, as well as testing over key financial application
controls in the DHS environment. The technical security testing was performed both over the
Internet and from within select DHS facilities, and focused on test, development, and production
devices that directly support key general support systems.
In addition to testing DHS’ general control environment, we performed application control tests on
a limited number of DHS’ financial systems and applications. The application control testing was
performed to assess the input, processing, and output of financial data and transactions that support
the financial systems’ internal controls. Application controls are the structure, policies, and
procedures that apply to separate, individual application systems, such as accounts payable,
inventory, or payroll.
During FY 2010, we also considered the effects of financial system functionality while testing IT
general and application controls and other internal controls over financial reporting. Many of the
financial systems in use at DHS components were inherited from the legacy agencies and have not
been substantially updated since the department’s inception. As a result, financial system
functionality may be inhibiting DHS’ ability to implement and maintain internal controls, notably
IT applications controls supporting financial data processing and reporting at some components.



Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 1
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

               SUMMARY OF FINDINGS AND RECOMMENDATIONS
During our FY 2010 assessment of IT general and application controls and financial system
functionality, we noted that the DHS made some progress in remediation of IT findings we reported
in FY 2009. We have closed approximately 30 percent of our prior year IT findings. In FY 2010
we identified approximately 161 findings, of which approximately 65 percent are repeated from last
year. Nearly one-third of our repeat findings were for IT deficiencies that management represented
were corrected during FY 2010. Disagreements with management’s self assessment occurred
almost entirely at the Federal Emergency Management Agency (FEMA).
The most significant weaknesses from a financial statement audit perspective include: 1) excessive
unauthorized access to key DHS financial applications; 2) configuration management controls that
are not fully defined, followed, or effective; 3) security management deficiencies in the area of the
certification and accreditation process and the lack of adhering to or developing policies and
procedures , 4) contingency planning that lacked current, tested, contingency plans developed to
protect DHS resources and financial applications, and 5) lack of proper segregation of duties for
roles and responsibilities within financial systems.
Collectively, the IT control deficiencies limited DHS’ ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these deficiencies negatively impacted the internal controls over DHS’
financial reporting and its operation and we consider them to collectively represent a material
weakness for DHS under standards established by the American Institute of Certified Public
Accountants (AICPA) and GAO. The IT findings were combined into one material weakness
regarding IT Controls and Financial Systems Functionality for the FY 2010 audit of the DHS
consolidated financial statements. As reported last year, both FEMA and Immigration and Customs
Enforcement’s (ICE) control deficiencies were found to have a more significant impact on the
Department. FEMA continues to have a high number of significant IT general controls findings
that repeat each fiscal year. These weaknesses affect our ability to fully audit its financial
application controls. In addition, ICE has significant weaknesses in its key financial system which
has resulted in duplicate payments, and poor configuration and patch management.




Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 2
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010


           IT GENERAL CONTROL FINDINGS AND RECOMMENDATIONS
Conditions: In FY 2010, a number of IT and financial system functionality deficiencies were
identified at DHS. Approximately 162 findings were identified of which approximately 65 percent
are repeated from last year. The findings identified below are a cross-representation of the nature of
IT general control deficiencies identified throughout the department’s components which contribute
to a material weakness for financial system security as part of the FY 2010 DHS financial statement
audit.

Related to IT controls:
1. Access Controls - At the following DHS components: United States Coast Guard (USCG),
   Customs and Border Protection (CBP), Federal Law Enforcement Training Center (FLETC),
   FEMA, ICE, DHS Headquarters, Transportation Security Administration (TSA), and United
   States Citizenship and Immigration Services (USCIS) we noted:
   �   Deficiencies in management of application and/or database accounts, network, and remote
       user accounts:
       -    System administrator root access to financial applications was not properly restricted,
            logged, and monitored;
       -    Strong password requirements were not enforced;
       -    User account lists were not periodically reviewed for appropriateness, inappropriate
            authorizations and excessive user access privileges were allowed at some DHS
            components, and users were not disabled or removed promptly upon personnel
            termination;
       -    Emergency and temporary access was not properly authorized, and contractor
            development personnel were granted conflicting access to implement database changes;
       -    Initial and modified access granted to application and/or database, network, and remote
            users was not properly documented and authorized; and
       -    The process for authorizing and managing remote virtual private network (VPN) access
            to external state emergency management agencies, and component contractors, did not
            comply with DHS and component requirements.
   �   Ineffective safeguards over logical and physical access to sensitive facilities and resources:
       -    While performing after-hours physical access testing, we identified the following
            unsecured items: Government credit cards; financial system user IDs and passwords;
            computer laptops; and server names and IP addresses; and
       -    While performing social engineering testing, we identified instances where DHS
            employees provided their system user names and passwords to an auditor posing as a
            help desk employee.
   �   Ineffective or insufficient use of available audit logs:
       -    Logs of auditable events are not being reviewed to identify potential incidents, or were
            reviewed by those with conflicting roles;


Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 3
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

       -   Logging of application and/or database events required to be recorded was not enabled;
       -   Documented procedures for audit log follow-up do not meet DHS requirements; and
       -   Evidence of audit log reviews was not retained.
2. Configuration Management: At the following DHS components: USCG, CBP, FLETC, FEMA,
   ICE, USCIS, and TSA we noted:
   �   Lack of documented policies and procedures:
       -   To prevent users from having concurrent access to the development, test, and production
           environments of the system at four DHS components; and
       -   Configuration, vulnerability, and patch management plans have not been established and
           implemented, or did not comply with DHS policy;
   �   Vulnerabilities were identified during periodic internal scans and related corrective actions
       were not reported and tracked in accordance with DHS policy; and
   �   Security patch management and configuration deficiencies were identified during the
       vulnerability assessment on hosts supporting the key financial applications and general
       support systems.
3. Security Management - At the following DHS components: USCG, CBP, DHS Headquarters,
   TSA, FLETC, FEMA, USCIS, and ICE we noted:
   �   Systems certification and accreditation:
       -   Several component financial and associated feeder systems as well as general support
           systems, were not properly certified and accredited, in compliance with DHS policy;
       -   Compliance with the Federal Desktop Core Configuration (FDCC) security
           configurations is in progress, but has not been completed; and
       -   An instance where Interconnection Security agreements were not documented.
   �   Roles and responsibilities have not been clearly defined:
       -   Instances of security roles and responsibilities are not adequately defined for financial
           applications and general support systems; and
       -   System boundaries have not been adequately and completely defined within the System
           Security Plan.
   �   Lack of policies and procedures:
       -   One instance of incomplete or inadequate policies and procedures associated with
           computer incident response capabilities;
       -   Procedures for exit processing of transferred/terminated personnel, including
           contractors, had not been established; and
       -   Lack of component policies and procedures for IT-based specialized security training.
   �   Lack of compliance with existing policies:




Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 4
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2010

         -   Several instances where background investigations of federal employees and contractors
             employed to operate, manage and provide security over IT systems were not being
             properly conducted;
         -   Lack of compliance with DHS computer security awareness training requirements;
         -   Non-disclosure agreements were not completed at one DHS component; and
         -   A complete and accurate listing of workstations could not be provided at one DHS
             component and as a result anti-virus protection is not installed on all workstations.
4.   Contingency Planning - At the following DHS components: CBP and FEMA, we noted:
     �   Instances where incomplete or outdated business continuity plans and systems with
         incomplete or outdated disaster recovery plans. Some plans did not contain current system
         information, emergency processing priorities, procedures for backup and storage, or other
         critical information;
     �   Service continuity plans were not consistently and/or adequately tested, and individuals did
         not receive training on how to respond to emergency situations;
     �   An alternate processing site has not been established for high risk systems; and
     �   Appropriate authorization to access backup media was not made available.
5. Segregation of Duties: At the following DHS components: USCG, CBP, FEMA, ICE, and
   USCIS we noted:
     �   Financial system users had conflicting access rights as the Originator, Funds Certification
         Official, and the Approving Official;
     �   Lack of evidence to show that least privilege and segregation of duties controls exist; and
     �   Policy and procedures to define and implement segregation of duties were not properly
         developed and/or implemented.
These control findings, including other significant deficiencies are described in greater detail in a
separate Limited Official Use component-specific Information Technology Management letter
provided to DHS component management.

FINANCIAL SYSTEM FUNCTIONALITY
We noted that in some cases, financial system functionality is inhibiting DHS’ ability to implement
and maintain internal controls, notably IT applications controls supporting financial data processing
and reporting. Financial system functionality limitations also contributes to other control
deficiencies reported in our report dated November 12, 2010, and can make compliance with the
Federal Financial Management Improvement Act (FFMIA) and the Office of Management and
Budget (OMB) Circular A-127 more difficult. At the following DHS components: USCG, CBP,
FLETC, ICE, USCIS, and TSA we noted financial system functionality conditions to include:
     �   Inability to modify IT system core software, and install controls to prevent duplicate
         payments. One component identified two instances where duplicate payments were made in
         FY 2009 and FY 2010, and the funds needed to be recovered;
     �   System limitations lead to extensive manual and redundant procedures to process
         transactions, to verify the accuracy of data, and to prepare financial statements;

Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 5
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

   �   The financial systems in one component cannot be configured to:
       -   Prevent, detect, and correct excessive refunds;
       -   Provide summary information of the total unpaid assessments for duties, taxes, and fees
           by individual importer; and
       -   Report information on outstanding receivables, the age of receivables, or other data
           necessary for management to fully monitor collection actions; and
   �   Two inventory tracking systems are not fully integrated with the financial system of record;
       and
   �   Several financial systems do not have the necessary functionality to enforce DHS-required
       system security requirements. For example, one system does not have the functionality to
       enforce policy requirements related to password complexity, account lockout, and profile
       changes. In addition, a system does not have the functionality to track new users or user
       profile changes.
Recommendations: We recommend that the DHS Office of Chief Information Officer (OCIO), in
coordination with the Office of Chief Financial Officer (OCFO), the DHS component OCIOs,
OCFOs, and other appropriate component management review each individual IT NFR
appropriately to ensure that the DHS components enter the recommendations as Plan of Action and
Milestones in Trusted Agent FISMA, and work with the respective components to develop
corrective action plans to address the root cause and condition of each NFR.
Financial System Functionality Recommendation: We recommend that the DHS OCIO, in
coordination with the OCFO, the DHS component OCIOs, OCFOs, and other appropriate
component management address the IT system aspects associated with the financial system
functionality issues listed above, or develop compensating/mitigating controls in order to eliminate
or reduce the associated risk.


MANAGEMENT COMMENTS AND OIG RESPONSE
The OIG obtained written comments on a draft of this report from the DHS CIO, DHS Acting CFO,
and DHS CISO. Generally, DHS management agreed with all of our findings and
recommendations. DHS management has developed a remediation plan to address these findings
and recommendations. A copy of the comments is included in Appendix D.
OIG Response
We agree with the steps that DHS management is taking to satisfy these recommendations.




Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 6
                                                                          Appendix A
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2010




                                  Appendix A


       Description of Key DHS Financial Systems and IT
 Infrastructure within the Scope of the FY 2010 DHS Financial
                        Statement Audit




Information Technology Management Letter for the FY 2010 DHS Financial Statement Audit
                                       Page 7
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

Below is a description of significant financial management systems and supporting IT infrastructure
included in the scope of the engagement to perform the financial statement audit.
United States Coast Guard (USCG)
Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial
statements for the Coast Guard. CAS is hosted at the Coast Guard’s Finance Center (FINCEN), in
Chesapeake, Virginia (VA). The FINCEN is the Coast Guard’s primary data center. CAS interfaces
with two other systems located at the FINCEN, the Workflow Imaging Network System (WINS)
and the Financial and Procurement Desktop (FPD).
�   CAS Version 4.1
�   CAS Oracle Database 9.2.0.8.0 – 47 GB 16x750mhz RISC Processor; cgofprod.world
�   CAS Operating System – HP Unix 11.11; ARGUS Server

Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows
users to enter funding, create purchase requests, issue procurement documents, perform system
administration responsibilities, and reconcile weekly program element status reports. FPD is
interconnected with the CAS system and is located at the FINCEN in Chesapeake, VA.
�   FPD Oracle 9.2.0.8.0 Database – 28 GB 12x750mhz RISC Processor; LUFS.world
�   FPD Operating System – HP UNIX 11.11; Dart Server

Workflow Imaging Network System (WINS)
WINS is the document image processing system, which is integrated with an Oracle
Developer/2000 relational database. WINS allows electronic data and scanned paper documents to
be imaged and processed for data verification, reconciliation and payment. WINS utilizes
MarkView software to scan documents and to view the images of scanned documents and to render
images of electronic data received. WINS is interconnected with the CAS and FPD systems and is
located at the FINCEN in Chesapeake, VA.
�   WINS Oracle 10.2.0.3 Database - 48 GB 12x750mhz RISC Processor; PROD1.world
�   WINS Operating System – HP Unix 11.11; Vigilant Server

Joint Uniform Military Pay System (JUMPS)
JUMPS is a mainframe application used for paying USCG active and reserve payroll. JUMPS is
located at the Pay and Personnel Center (PPC) in Topeka, Kansas.
�   IBM Mainframe - z890
�   JUMPS Operating System z/OS 1.8 Base

Direct Access
Direct Access is the system of record and all functionality, data entry, and processing of payroll
events is conducted exclusively in Direct Access. Direct Access is maintained by IBM Application
On Demand (IBM AOD) in the iStructure data center facility at Tempe, AZ with a hotsite located in
a Qwest data center in Sterling, VA.

    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                        Page 8
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

�   Hardware - 1 Sunfire 4800, 2 Sunfire 880, 1 Sunfire 4500, 1 Sunfire v240, 2 Sunfire V440, 2
    F5Big-IP, 1IBM 3650
�   Software – PeopleTools v8.4, PeopleSoft HCM v8.0, WebLogic v8, Tuxedo v8, MicroFocus
    Cobol v4, Oracle DB v9, ImageNow v5.4.1, WebNow v3.4.1

Global Pay (Direct Access II)
Global Pay provides retiree and annuitant support services. Global Pay is maintained by IBM AOD
in the iStructure data center facility at Tempe, AZ with a hotsite located in a Qwest data center in
Sterling, VA.
�   Hardware – 2 Database Servers IBM P550, 1 Web/App Server IBM P520, 1 Web/App Server
    IBM P550, 1 W2K Server IBM x Series 336, 2 F5 BIGIP Load Balancer, 1 Database/App
    Server IBM P550, 2 Web Server IBM P520, 1 App Server IBM P550, 1 Proxy Server SunFire
    v240
�   Software – 2 PeopleSoft HRMS v 9.0, 2 PeopleTools v 8.46.05, PeopleSoft Enterprise Portal v
    8.0, 2 WebLogic v 8.1 sp3, 2 Tuxedo v 8.1 r3, 2 Oracle RDMS v 10.x, 1McAfee Entercept v 5.1
    – IDS, 1 Checkpoint NG with Application Intelligence (R55) 105 – Firewall, 1 Legato v 7.x

Shore Asset Management (SAM)
SAM is hosted at the Coast Guard’s Operation System Center (OSC), in Martinsburg, WV. SAM
provides core information about the USCG shore facility assets and facility engineering. The
application tracks activities and assist in the management of the Civil Engineering (CE) Program
and the Facility Engineering (FE) Program. SAM data contributes to the shore facility assets full
life cycle Program management, facility engineering full life cycle Program management and
rationale to adjust the USCG mission needs through planning, budgeting, and project funding.
SAM also provides real property inventory and management of all shore facilities, in addition to the
ability to manage and track the facilities engineering equipment and maintenance of that equipment.
�   Hardware platform:-Intel MP BladeServer SBXD132, 2x Xeon Dual Core 2.66Ghz, EMT64,
    4GB Ram (8GB DB Servers), Mirrored 72GB SAS, 2x 1GB Network Interface
�   Operating - Software: Windows 2003 Server Standard 5.2.3790 Service Pack 2 build 3790
�   Security Software - McAfee Virus Scan Enterprise 8.0.0
�   Database - Oracle 9i, 32 bit

Naval and Electronics Supply Support System (NESSS)
NESSS is one of four automated information systems that comprise the family of Coast Guard
logistics systems. NESSS is a fully integrated system linking the functions of provisioning and
cataloging, unit configuration, supply and inventory control, procurement, depot-level maintenance
and property accountability, and a full financial ledger.
�   Hardware platform:-1 HP A7137A, 1 Dell PowerEdge 6450, 2 Dell Power Edge 6650, 2 HP
    A3639A
�   Software - Software: Oracle Application Server Forms and Report Services 10.1.2.02, Xventory
    Baseline, File Replication Pro, Windows 2003 Server Enterprise Edition, PDF Pagemaster

Aviation Logistics Management Information System (ALMIS)


    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                        Page 9
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

ALMIS provides Coast Guard Aviation logistics management support in the areas of operations,
configuration management, maintenance, supply, procurement, financial, and business intelligence.
Additionally, ALMIS covers the following types of information: Financial, Budget, Planning,
Aircraft & Crew Status, Training & Readiness, and Logistics & Supply. The Aviation Maintenance
Management Information System (AMMIS), a subcomponent of ALMIS, functions as the inventory
management/fiscal accounting component of the ALMIS application. The Aircraft Repair &
Supply Center (ARSC) Information Systems Division (ISD) in Elizabeth City, North Carolina hosts
the ALMIS application.
�   Linux AS 4.0 (OS for Oracle Databases)
�   HPUX 11i (OS for Ingres Databases)
�   Oracle 10g (Database Services)
�   Ingress 2.6 (Database Services)
�   Windows 2000 Advanced Server (Web Server)

CG Treasury Information Executive Repository (CG Tier)
CG TIER is a financial data warehouse containing summarized and consolidated financial data
relating USCG operations. It is one of several supporting applications within CAS Suite designed to
support the core financial services provided by FINCEN. CG TIER provides monthly submissions
to DHS Consolidated TIER.
�   Database- Oracle v 8.1.7.4 (Tiers)
�   Operating System- HP-UNIX; v 11.11

Customs and Border Protection (CBP)
SAP Enterprise Central Component (SAP ECC 6.0)
SAP is a client/server-based financial management system and includes the Funds Management,
Budget Control System, General Ledger, Real Estate, Property, Internal Orders, Sales and
Distribution, Special Purpose Ledger, and Accounts Payable modules. These modules are used by
CBP to manage assets (e.g., budget, logistics, procurement, and related policy), revenue (e.g.,
accounting and commercial operations: trade, tariff, and law enforcement), and to provide
information for strategic decision making. The SAP ECC 6.0 financial management system is
included in full scope in the FY 2010 financial statement audit. The SAP ECC 6.0 system is located
in Newington, VA.
Automated Commercial System (ACS)
ACS is a collection of mainframe-based business process systems used to track, control, and
process commercial goods and conveyances entering the United States territory, for the purpose of
collecting import duties, fees, and taxes owed the Federal government. ACS collects duties at ports,
collaborates with financial institutions to process duty and tax payments, provides automated duty
filing for trade clients, and shares information with the Federal Trade Commission on trade
violations and illegal imports. The ACS system is included in full scope in the FY 2010 financial
statement audit. The ACS system is located in Newington, VA.
Automated Commercial Environment (ACE)
ACE is the commercial trade processing system being developed by CBP to facilitate trade while
strengthening border security. It is CBP’s plan that the ACE replaced ACS when ACE is fully

    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 10
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

implemented. The mission of ACE is to implement a secure, integrated, government-wide system
for the electronic collection, use, and dissemination of international trade and transportation data
essential to federal agencies. ACE is being deployed in phases, with no set final full deployment
date due to funding setbacks. As ACE is partially implemented now and processes a significant
amount of revenue for CBP, ACE was included in full scope in the FY 2010 financial statement
audit. The ACE system is located in Newington, VA.

Federal Law Enforcement and Training Center (FLETC)
Financial Accounting and Budgeting System (FABS)
Processing Location: FLETC Headquarters in Glynco, GA
The FLETC FABS application is an all-in-one financial processing system. It functions as the
computerized accounting and budgeting system for FLETC. The FABS system exists to provide all
of the financial and budgeting transactions in which FLETC is involved. The FABS environment
primarily consists of the latest version of the Momentum version 6.1 COTS software, an Oracle 10g
database and its companion Oracle 10.2 Database Management System (DBMS). An application
called “Tuxedo,” also resides on a separate server. The Tuxedo middleware holds 67 executable
files. These files are scripts that process daily information and are not directly accessible by users.
The FABS application and servers reside on the FLETC LAN in a Hybrid physical network
topology and are accessible from four sites: Glynco, GA, Washington D.C., Artesia, New Mexico,
and Cheltenham, MD.
�   Hardware: Hewlett Packard ProLiant BL465c Blade Servers (web and application) and Hewlett
    Packard ProLiant BL685c Blade Servers (database)
�   Operating System: Microsoft Windows 2003 Server running on virtual machines on top of
    VMware Infrastructure 3.5 Enterprise hypervisor on the web and application servers
�   Database: Red Hat Enterprise Linux
�   Security Software: FABS system does not currently have a firewall scheme and resides on
    FLETC LAN that has a firewall in place
Interfaces:
�   National Finance Center (NFC) Payroll System
�   Student Information System (SIS)
�   TIER
�   US Coast Guard Interface
�   Kansas City Financial Center (KFC)


Glynco Administrative Network
Processing Location: FLETC Headquarters in Glynco, GA
The purpose of the Glynco Administrative Network (GLYADLAN) is to provide access to IT
network applications and services to include voice to authorized FLETC personnel, contractors and
partner organizations located at the Glynco, Georgia facility. It provides authorized users access to
email, internet services, required applications such as Financial Management Systems (FMS),
Procurement systems, Property management systems, Video conference, and other network services
and shared resources.


    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 11
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

�   Hardware: Cisco ACS TACAS Server, Avaya 8700 Media Servers, Dell Poweredge servers
    1750, 1850, 1950, 2650, 2850, 2950, and 6650.
�   Operating System: Windows XP SP2 (Desktop)
�   Database: Redhat Linux 4 Enterprise edition
�   Security Software: ASA 5500 series firewall and static IP addresses
Interfaces:
�   FMS
�   DHS HQ

Federal Emergency Management Agency (FEMA)
Core Integrated Financial Management Information System (IFMIS) (Operational through
February 22, 2010
Processing Location: Mount Weather Emergency Operations Center in Bluemont, VA
Core IFMIS was the key financial reporting system, and had several feeder subsystems (budget,
procurement, accounting, and other administrative processes and reporting). The application was a
Commercial Off-The Shelf (COTS) software package developed and maintained by Digital Systems
Group (DSG) Incorporated.
�   Hardware: Two (2) HP 9000 servers (operational and standby)
�   Operating System: HP-UX (Unix) version 11.11
�   Database: Oracle 9i Enterprise Edition
        � Security Software: Servers are protected by a CISCO PIX Firewall
Interfaces:
�   NEMIS
�   Credit Card Transaction Management System (CCTMS)
�   Fire Grants
�   Mitigation Grants
�   eGrants
�   ProTrac
�   Payroll
�   Department of Treasury
�   Smartlink
�   TIER
Grants and Training (G&T) IFMIS (Operational through February 22, 2010)
Processing Location: Mount Weather Emergency Operations Center in Bluemont, VA
In April 2007, the Office of Grants and Training (G&T) that was previously under the Department
of Justice was transferred over to FEMA. Due to the short amount of time given to FEMA to take
over the financial management role for G&T in FY 2007, a separate instance of IFMIS was
inherited from the Department of Justice, resulting in two separate IFMIS instances at FEMA.
G&T IFMIS, held all former G&T financial information. The application is a COTS software
package developed and maintained by DSG Incorporated.
�   Hardware: HP 9000 server


    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 12
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

�   Operating System: HP-UX (Unix) version 11.11
�   Database: Oracle 9i Enterprise Edition
�   Security Software: Servers are protected by a CISCO PIX Firewall
Interfaces:
�   PARS
IFMIS-Merger (Operational as of February 23, 2010)
Processing Location: Mount Weather Emergency Operations Center in Bluemont, VA
IFMIS-Merger is the official accounting system of FEMA and maintains all financial data for
internal and external reporting. IFMIS-Merger is comprised of five subsystems: Funding, Cost
Posting, Disbursements, Accounts Receivable, and General Ledger. The application is a COTS
software package developed and maintained by DSG Incorporated.
�   Hardware: Two (2) HP 9000 servers
�   Operating System: HP-UX (Unix) version 11.11
�   Database: Oracle 9i Enterprise Edition
�   Security Software: Servers are protected by a CISCO PIX Firewall
Interfaces:
�   Payment and Reporting System (PARS)
�   ProTrac
�   Smartlink (Department of Health and Human Services)
�   TIER (Department of Treasury)
�   Secure Payment System (SPS) (Department of Treasury)
�   Grants Management System (Department of Justice)
�   National Emergency Management Information System (NEMIS)
�   US Coast Guard Credit Card System
�   CCTMS
�   Fire Grants
�   eGrants
�   Enterprise Data Warehouse (EDW)
�   Payroll (National Finance Center)

Payment and Reporting System (PARS)
Processing Location: Mount Weather Emergency Operations Center in Bluemont, VA
PARS is a standalone web-based application. The PARS database resides on the IFMIS-Merger
UNIX server. Prior to the merger of Core IFMIS and G&T IFMIS, PARS resided on the core
IFMIS server. Through its web interface, PARS collects Standard Form 269 information from
grantees and stores the information in its Oracle 9i database. Automated chron jobs are run daily to
update and interface grant and obligation information between PARS and IFMIS-Merger. All
payments to grantees are made through IFMIS-Merger. Prior to the IFMIS-Merger instance in
February 2010, the PARS application interfaced with G&T IFMIS.
�   Hardware: HP 9000 server
�   Operating System: HP-UX (Unix) version 11.11

    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 13
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

�   Database: Oracle 9i Enterprise Edition
�   Security Software: Servers are protected by a CISCO PIX Firewall
Interfaces:
�   G&T IFMIS (prior to February 23, 2010)
�   IFMIS-Merger (as of February 23, 2010)
National Emergency Management Information System (NEMIS)
Processing Location: Mount Weather Emergency Operations Center in Bluemont, VA
NEMIS is a FEMA-wide system of hardware, software, telecommunications, services, and
applications. NEMIS consists of many integrated subsystems distributed over hundreds of
separate servers accessed by thousands of client workstations.
NEMIS is an integrated system to provide FEMA, the states, and other federal agencies with
automation to perform disaster related operations. NEMIS supports all phases of emergency
management and provides financial related data to IFMIS via an automated interface.
�   Hardware: Numerous HP ProLiant DL series servers
�   Operating System: Linux, Microsoft NT and Microsoft 2000
�   Database: Replicated Oracle 10g, 9i, and 8i databases
�   Security Software: Servers are protected by a PIX Firewall Symantec Anti-Virus corporate
    edition version 10.1.4.4000
Interfaces:
�   IFMIS
�   US Coast Guard Credit Card System
�   Small Business Administration
Traverse
Processing Location: Lanham, MD (until July 31, 2010), Landover, MD (after August 1, 2010).
Traverse is the general ledger application currently used by the Nation Flood Insurance Program
(NFIP) Bureau and Statistical Agent to generate the NFIP financial statements. Traverse is a client-
server application that runs on the NFIP Local Area Network (LAN) Windows server environment
in Landover, MD. The Traverse client is installed on the desktop computers of the NFIP Bureau of
Financial Statistical Control group members.
�   Hardware: Hewlett Packard ML530, Dual Xeon 2.8 Processors, 2 GB RAM, Redundant Array
    of Independent Disks (RAID) Storage
�   Operating System: Microsoft Windows Server 2003
�   Database: Microsoft Structured Query Language (SQL)
�   Security Software: CheckPoint firewall
Interfaces:
No known system interfaces
Transaction Recording and Reporting Processing (TRRP)
Processing Location: Norwich, CT


    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 14
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

The TRRP application acts as a central repository of all data submitted by the Write Your Own
(WYO) companies for the NFIP. TRRP also supports the WYO program, primarily by ensuring the
quality of financial data submitted by the WYO companies to TRRP. TRRP is a mainframe-based
application that runs on the NFIP mainframe logical partition in Norwich, CT.
�   Hardware: IBM 2086-220 Mainframe with two central processing units
�   Operating System: IBM z/OS 1.9
�   Database: WebFocus
Interfaces:
No known system interfaces

Immigration and Customs Enforcement (ICE)
Federal Financial Management System (FFMS)
The FFMS is a CFO designated financial system and certified software application that conforms to
OMB Circular A-127 and implements the use of a Standard General Ledger for the accounting of
agency financial transactions. It is used to create and maintain a record of each allocation,
commitment, obligation, travel advance and accounts receivable issued. It is the system of record
for the agency and supports all internal and external reporting requirements. FFMS is a commercial
off-the-shelf financial reporting system and is built on Oracle 9i Relational Database Management
System running off an IBM 9672 Mainframe with ZOS 1.4 platform. The FFMS operating system
operates off an IBM ZOS, Version 1.4 Mainframe Server and Microsoft Windows 2000 report
servers protected by firewalls. It includes the core system used by accountants, FFMS Desktop that
is used by average users, and an NFC payroll interface. As of July 2010, the FFMS mainframe
component and two network servers are hosted at the DHS DC2 facility located in Clarksville,
Virginia. Prior to July, the system was housed at the Department of Commerce in Springfield, VA.
FFMS currently interfaces with the following systems:
�   Direct Connect for transmission of DHS payments to Treasury
�   Fed Travel
�   The Biweekly Examination Analysis Reporting (BEAR) and Controlling Accounting Data
    Inquiry (CADI), for the purpose of processing NFC user account and payroll information.
�   The Debt Collection System (DCOS)
�   Bond Management Information System (BMIS) Web
ICE Network
The ICE Network, also known as the Active Directory/Exchange (ADEX) E-mail System, is a
major application for ICE and other DHS components, such as the USCIS. The ADEX servers and
infrastructure for the headquarters and National Capital Area are located on the third floor of the
Potomac Center North Tower in Washington, DC. The ICE Network utilizes a hybrid mesh/hub
and mesh network design to maximize redundancy throughout the network. ICE operates off of
Dell PowerEdge 2950, HP ProLiant DL 385 Server, HP ProLiant BL45p Server Blade, HP BL 25P
Blade Server, and EMC Symmetrix DM. ADEX has implemented Microsoft Windows 2003
Enterprise Server operating system to provide directory, domain control, and network services to
clients. For security purposes, ADEX has implemented firewalls and a logical Layer-3 encrypted
overlay network through the use of Generic Routing Encapsulation (GRE) and IPSec tunneling.
ADEX currently interfaces with the following systems:


    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 15
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

�   Diplomatic Telecommunications Service Program Office (DTSPO) ICENet Infrastructure

Office of Financial Management (OFM)/Consolidated Component
DHS Treasury Information Executive Repository (DHSTIER)
DHSTIER is the system of record for the DHS consolidated financial statements and is used to
track, process, and perform validation and edit checks against monthly financial data uploaded from
each of the DHS bureaus’ core financial management systems. DHSTIER is administered jointly by
the OCFO Resource Management Transformation Office (RMTO) and the OCFO Office of
Financial Management (OFM) and is hosted on the DHS OneNet at the Stennis Data Center in
Mississippi.
�   Database: Oracle DB 10g v10.3
�   Operating System: Microsoft Windows 2003
�   Hardware: HP ProLiant BL460c G1 server
Chief Financial Office VISION (CFO Vision)
CFO Vision is a subsystem of DHSTIER used for the consolidation of the financial data and the
preparation of the DHS financial statements. CFO Vision is also administered by RMTO and OFM
and is hosted on the DHS OneNet at the Stennis Data Center in Mississippi.
�   COTS Software - SAS Financial Management Solutions version 4.3 (FM 4.3) with its own
    internal SAS database
�   Operating System: Microsoft Windows 2003 Hardware: HP ProLiant BL460c G1 server

Transportation Security Administration (TSA)
Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial
statements for the United States Coast Guard. CAS is hosted at the Coast Guard’s FINCEN in
Chesapeake, VA and is managed by the United States Coast Guard. The FINCEN is the Coast
Guard’s primary financial system data center. CAS interfaces with other systems located at the
FINCEN, including FPD.
�   CAS Version 4.1
�   CAS Oracle Database 9.2.0.8.0 – 47 GB 16x750mhz RISC Processor; cgofprod.world
�   CAS Operating System – HP Unix 11.11; ARGUS Server
Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows
users to enter funding, create purchase requests, issue procurement documents, perform system
administration responsibilities, and reconcile weekly program element status reports. FPD is
interconnected with the CAS system and is hosted at the FINCEN in Chesapeake, VA and is and
managed by the United States Coast Guard.
�   FPD Oracle 9.2.0.8.0 Database – 28 GB 12x750mhz RISC Processor; LUFS.world
�   FPD Operating System – HP UNIX 11.11; Dart Server
Sunflower


    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 16
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

Sunflower is a customized third party COTS product used for TSA and Federal Air Marshals
(FAMS) property management. Sunflower interacts directly with the Office of Finance Fixed Assets
module in CAS. Additionally, Sunflower is interconnected to the FPD system and is hosted at the
FINCEN in Chesapeake, VA and is managed by the United States Coast Guard.
�   Sunflower Oracle Database – 10.2.0.3 - 2 x 3.06 GB Xeon Processor – 72 GB
�   Sunflower Operating System – Red Hat Linux 4.0AS
�   Sunflower Third Party Software – IBMJava 2.-131RC2
MarkView
MarkView is an imaging and workflow software used to manage invoices in CAS. Each invoice is
stored electronically and associated to a business transaction so that users are able to see the image
of the invoice. MarkView is interconnected with the CAS system and is located at the FINCEN in
Chesapeake, VA and is managed by the United States Coast Guard.
�   CAS Oracle Database 9.2.0.8.0 – 47 GB 16x750mhz RISC Processor
�   CAS Operating System – HP Unix 11.11; ARGUS Server

United States Citizenship and Immigration Services (USCIS)
CLAIMS 3 LAN
CLAIMS 3 LAN provides USCIS with a decentralized, geographically dispersed LAN based
mission support case management system, with participation in the centralized CLAIMS 3
Mainframe data repository. CLAIMS 3 LAN supports the requirements of the Direct Mail Phase I
and II, Immigration Act of 1990 (IMMACT 90) and USCIS forms improvement projects. The
CLAIMS 3 LAN is located at the following service centers and district offices: Nebraska,
California, Texas, Vermont, Baltimore District Office, and Administrative Appeals Office.
CLAIMS 3 executes on Dell 220 S (EMC), RAID Controller, Disk Storage servers protected by
firewalls, and Windows 2003, MS Sp2 as the operating system and Pervasive database software and
is used to enter and track immigration applications. CLAIMS 3 LAN interfaces with the following
systems:
�   Citizenship and Immigration Services Centralized Oracle Repository (CISCOR)
�   CLAIMS 3 Mainframe
�   Integrated Card Production System (ICPS)
�   CLAIMS 4
�   E-filing
�   Benefits Biometric Support System (BBSS)
�   Refugee, Asylum, and Parole System (RAPS)
�   National File Tracking System (NFTS)
�   Integrated Card Production System (ICPS)
�   Customer Relationship Interface System (CRIS)
�   USCIS Enterprise Service Bus (ESB)
CLAIMS 4
The purpose of CLAIMS 4 is to track and manage naturalization applications. Claims 4 is a
client/server application. CLAIMS 4 runs off of Sunfire 890, 490, Solaris 9, and Oracle 9iR2
servers with Oracle 9i, Windows NT, and Windows 2000 Server operating systems and are

    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 17
                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2010

protected by firewalls. The central Oracle Database that runs off Oracle Enterprise 9i is located in
Washington, DC while application servers and client components are located throughout USCIS
service centers and district offices. CLAIMS 4 interfaces with the following systems:
�   Central Index System (CIS)
�   Reengineered Naturalization Automated Casework System (RNACS)
�   CLAIMS 3 LAN and Mainframe
�   Refugee, Asylum, and Parole System (RAPS)
�   Enterprise Performance Analysis System (ePAS)
�   National File Tracking System (NFTS)
�   Asylum Pre-Screening System (APSS)
�   USCIS Enterprise Service Bus (ESB)
�   Biometrics Benefits Support System (BBSS)
�   Enterprise Citizenship and Immigration Service Centralized Operational Repository (eCISOR)
�   Customer Relationship Interface System (CRIS)
�   FD 258 Enterprise Editions and Mainframe
�   Site Profile System (SPS)




    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                       Page 18
                                                                        Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




                                Appendix B
FY 2010 Notices of IT Findings and Recommendations at DHS




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 19
                                                                                     Appendix B
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2010


Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the DHS Consolidated Independent Auditors Report.

      1 – Not substantial
      2 – Less significant
      3 – More significant

The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These rating are provided only to assist the DHS in prioritizing the development of its corrective
action plans for remediation of the deficiency.




   Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                      Page 20
                                                                        Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

                     � United States Coast Guard




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 21
                                                                                                                                   Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

                                        Notice of Findings and Recommendations – Detail
                                                          Coast Guard

NFR                                                                                                                       New     Repeat   Severity
                              Condition                                           Recommendation
#No                                                                                                                       Issue    Issue    Rating
CG-IT-   In FY 2009, we determined that Coast Guard was            We recommend that Coast Guard Headquarters                       X         2
 10-01   finalizing the business process that would be used to     continue with the following efforts:
         remediate the prior year NFR. Once this business          �   Develop a resource plan (RP) with associated
         process is finalized, a technical implementation could        supporting business case(s) to address account
         begin, and Coast Guard planned on using the Direct            tracking for terminated, transferred, or retired
         Access Human Resources (HR) system to notify                  contractor, military, and civilian personnel;
         system owners of HR status changes for all individuals        and,
         within the Coast Guard.
                                                                   �   Continue existing planning efforts and
                                                                       develop, document, and implement enterprise-
         During our FY 2010 follow-up test work, we
                                                                       wide processes that will notify all impacted
         determined that this NFR remediation is still in the
                                                                       system owners of terminated, transferred, or
         planning stages. Requirements still need to be
                                                                       retired contractor, military, and civilian
         prioritized and cost estimates need to be developed in
                                                                       personnel.
         order to obtain funding. Coast Guard still plans on
         using Direct Access but will only implement this new
         process once Direct Access has been upgraded,
         however, the implementation date has not yet been
         finalized.
CG-IT-   In FY 2009, we determined that DHS no longer              We recommend that Coast Guard Headquarters                       X         2
 10-02   requires all contracted employees to have a Minimum       continue with the following efforts:
         Background Investigation (MBI) if they have an            �   Continue to update existing contracts to
         existing confidential or secret clearance, and the new        include the new contractor background check
         minimum standard is the National Agency Check and             requirements,    and    perform    associated
         Inquiries (NACI).                                             contractor background checks.
         In addition, Coast Guard Headquarters had in place
                                                                   �   Continue to include new contractor
         since 2007 Commandant Instruction (COMDTINST)
                                                                       background check requirements in new
         M5520.12C, which stated that Program Managers are
                                                                       contracts, and perform associated background
         responsible for determining the risk level and position
                                                                       checks.
         sensitivity designation associated with each Contract


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 22
                                                                                                                                 Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                                                     New     Repeat   Severity
                           Condition                                            Recommendation
#No                                                                                                                     Issue    Issue    Rating
      Line Item Number (CLIN) and/or labor category for          �   Develop a RP with associated supporting
      procured contractor support. These will be provided            business case(s) to address the need for a
      to the Contracting Officer who is responsible for              reporting mechanism for contractor risk level,
      including as solicitation and contract requirements.           position sensitivity designation, and associated
      Unfortunately, this instruction did not include specific       background check.
      guidance for the Program Managers on how to set the
      correct and consistent risk levels and position
      sensitivity designations.

      In FY 2010, we determined that Coast Guard
      Headquarters incorporated Program Manager guidance
      to the Commandant Instruction, as Enclosure 3, so that
      the Program Managers could determine the correct
      risk level and position sensitivity designation. An All
      Coast Guard (ALCOAST) message was also released
      in June that stated all contractors must have a
      favorable fingerprint check and initiated or completed
      minimum investigation (NACI) in order to obtain a
      Common Access Card (CAC) card, effective
      immediately. This has resulted in two activities: 1)
      new contracts will incorporate these new requirements
      immediately, and 2) existing contracts will incorporate
      these new requirements when new task orders are
      issued, options are exercised, contract modifications
      are made, etc. Therefore, based upon the
      renewal/option date of a contract in place prior to the
      ALCOAST, it could take up to two years before all of
      the contractors throughout Coast Guard will meet
      these new requirements.

      Furthermore, as part of our analysis, we were unable
      to determine if USCG had the capability to



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 23
                                                                                                                                  Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                      New     Repeat   Severity
                               Condition                                          Recommendation
#No                                                                                                                      Issue    Issue    Rating
         consistently produce a current and comprehensive list
         of all Coast Guard contractors to include valid
         background investigation information tied to the
         correct risk level and position sensitivity designation.

         Although Coast Guard has taken corrective actions to
         remediate the prior year NFR CG-IT-09-10 by
         updating the Commandant Instruction and begun the
         process of including the new requirements in
         contracts, we believe that not having the ability to
         identify and provide a full population of contractors
         working for Coast Guard does not fully remediate all
         of the findings and conditions from FY 2009.
         Therefore, this prior year NFR will be reissued in FY
         2010.
CG-IT-   In FY 2009, we determined that Coast Guard                 We recommend that Coast Guard Headquarters                     X         2
 10-03   Headquarters actively monitors all civilians to verify     continue with the following efforts:
         whether they have a valid background investigation on      �   Develop a RP with        associated supporting
         record. Coast Guard stated that it considers Coast             business case(s) to address fixing the
         Guard government positions that use, develop,                  organization-wide background investigations
         operate, or maintain IT systems to be at least low risk        report.
         based upon OPM guidance. Therefore, Coast Guard
                                                                    �   Continue existing efforts to update, document,
         continued vetting individuals based on the OPM
                                                                        and implement the overall Coast Guard
         requirements for low risk positions which require a
                                                                        personnel security process for civilian
         NACI investigation. This position is not in compliance
                                                                        personnel,     based     upon      the    JRT
         with the DHS standard that states that all DHS
                                                                        report/guidance.
         government positions that use, develop, operate, or
         maintain IT systems are considered at least moderate
         risk, and per DHS 4300A requirements, a Minimum
         Background Investigation (MBI) is the minimum
         standard of investigation.




                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 24
                                                                                                           Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                               New     Repeat   Severity
                            Condition                                  Recommendation
#No                                                                                               Issue    Issue    Rating
      In addition, Coast Guard Headquarters did not
      complete background reinvestigations for all civilian
      staff due to the fact that this is not a requirement under
      OPM guidance for low risk positions. This is in non-
      compliance with DHS policy (MD 11050.2) that states
      that reinvestigations must be completed every 10 years
      for moderate risk positions.

      Further, a Joint Reform Team (JRT) been established
      by the Office of the Director of National Intelligence
      (ODNI) and the Office of Management and Budget
      (OMB) to reform the federal suitability clearance
      process, and the JRT standards were scheduled for
      implementation by the end of Calendar Year 2010.
      The Coast Guard was waiting on the JRT
      report/guidance to be implemented prior to making a
      determination on if they would follow the DHS
      standards in regards to civilian background
      investigations and reinvestigations.

      During our FY 2010 follow up, we determined that the
      Coast Guard will delay issuing any new or updated
      guidance/instructions until the JRT report/guidance
      has been issued and will continue to not comply with
      the DHS standards in regards to civilian background
      investigation and reinvestigations. Coast Guard will
      continue to vet civilian individuals based on the OPM
      requirements and associated methodology both in
      terms of initial background investigations and re-
      investigations.

      In addition, Coast Guard has created an organization-



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 25
                                                                                                                              Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                  New     Repeat   Severity
                              Condition                                         Recommendation
#No                                                                                                                  Issue    Issue    Rating
         wide automated report that shows the background
         investigation status of each civilian Coast Guard
         employee. However, Coast Guard is currently unable
         to consistently generate error-free reports. Coast
         Guard stated that the report could be corrected within
         two years if additional resources are provided.

CG-IT-   From the period of October 1, 2009 through the           No recommendation required. Coast Guard took        X                  1
 10-04   November 29, 2009, there was not adequate                appropriate corrective action during the current
         guidance in place for Coast Guard to properly assess     fiscal year to remediate the exception that was
         the financial statement impact of changes to the         identified during this fiscal year.
         production environment of the CAS, FPD and
         WINS.

         During this time period, two CAS changes were
         implemented into production without a proper
         assessment of the financial statement impact of the
         proposed changes.

         Upon the effective date of the Financial Impact
         Determination for Data Scripts and System Change
         Requests Memorandum on November 30, 2009,
         Coast Guard began and continued to follow
         adequate guidance to properly assess the financial
         statement impact of changes to CAS, FPD and
         WINS.

CG-IT-   We determined that some previously noted                 We recommend that Coast Guard:                               X         3
 10-05   weaknesses were remediated (particularly in the          �  Update the scripting policies and procedures
         second half of FY 2010), while other control                to include additional and more detailed test
         deficiencies continued to exist. The remaining control      documentation;
         deficiencies that were present throughout FY 2010        � Develop training that addresses all aspects of


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 26
                                                                                                                                Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                                                    New     Repeat   Severity
                            Condition                                           Recommendation
#No                                                                                                                    Issue    Issue    Rating
      vary in significance, however three key areas that             script testing (including documentation of test
      impact the Coast Guard Script control environment              documents) and provide training to
      are: 1) Script Testing Requirements; 2) Script Testing         appropriate CM staff;
      Environment; and 3) Script Audit Logging Process.          �   Develop a resource plan with associated
         a.   Script Testing Requirements: Limited testing           supporting business case(s) to address the
              requirements exist to guide FINCEN staff in            database audit logging requirements;
              the development of test plans and guidance         �   Develop procedures and perform regular
              over the functional testing that should be             account revalidation for Serena to ensure
              performed. Additionally, we determined that            privileges remain appropriate; and
              there are no detailed requirements over the
                                                                 �   Conduct an assessment over the Internal
              review and testing of functional changes to the
                                                                     Control Over Financial Reporting (ICOFR)
              data. FINCEN only tracks and documents the
                                                                     process related to identifying and evaluating
              number of transactions updated on scripts that
                                                                     scripts that have a financial statement impact.
              have a financial impact and not the detailed
              dollar amounts associated with the financial
              impact transactions.
         b.   Script Testing Environment: Not all script
              changes were tested in the appropriate CAS
              Suite test environments, as required. FINCEN
              management informed us that the testing
              environments, CAS4 and LUFSFQT3, were
              offline for these exceptions due to a refresh of
              the databases and that testers used CAS3 and
              Alpha as alternate testing environments
              instead. However, FINCEN management
              informed KPMG that these environments are
              refreshed on an as needed basis and no further
              information could be provided over how
              frequently the CAS3 and Alpha databases were
              refreshed to verify that the scripts were
              adequately tested in the appropriate



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 27
                                                                                                           Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                               New     Repeat   Severity
                           Condition                                  Recommendation
#No                                                                                               Issue    Issue    Rating
             environment. Furthermore, we determined that
             guidance is not provided over the use of
             alternate testing environments for the testing of
             scripts to ensure they are adequately tested.
          c. Script Audit Logging Process:        The CAS,
             FPD, and Sunflower databases are logging
             changes to tables as well as successful and
             unsuccessful     logins.        However,    no
             reconciliation between the scripts run and the
             changes made to the database tables is being
             performed to monitor the script activities and
             ensure that all scripts run have been approved
             through Change management Script System or
             Serena. In addition, we noted that FINCEN
             has not established a formal process to monitor
             and review changes made to the Sunflower
             database including the tables and activities
             modified by the database administrators.
      During our test work, we noted weaknesses in the
      script change management process as it relates to the
      ICOFR process (e.g., the financial statement impact of
      the changes to the CAS Suite through the script
      change management process). While a process exists
      to identify, and route a script with potential financial
      statement impact through an assessment process, the
      review and determination over each script is primarily
      performed without structured/detailed procedures in
      place. Furthermore, the rationale documenting the
      impact of the script, whether deemed as having
      financial impact or not, is not documented and
      retained. In addition, within the CAS Suite



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 28
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                     New     Repeat   Severity
                              Condition                                          Recommendation
#No                                                                                                                     Issue    Issue    Rating
         environment, there are over 200 scripts run on a
         weekly basis and we noted that the financial statement
         impact assessment is essentially performed by a single
         branch, which has authorized only three people to
         assess the scripts.
CG-IT-   To complement our IT audit testing efforts as part of     We recommend that Coast Guard Headquarters                     X         2
 10-06   the FY 2010 DHS Financial Statement Audit and             update the annual Information Assurance (IA)
         Audit of Internal Control over Financial Reporting, we    training to include more robust “phishing” and
         also performed social engineering testing. This testing   “social engineering” guidance and instruction and
         was conducted at key Coast Guard locations that           explicitly test individuals during the training on
         process, support and house Coast Guard financial data.    these topic areas.

         Social engineering is defined as the act of attempting
         to manipulate or deceive individuals into taking action
         that is inconsistent with DHS policies, such as
         divulging sensitive information or allowing / enabling
         computer system access. The term typically applies to
         trickery or deception for the purpose of information
         gathering, or gaining computer system access.

         During the course of our social engineering test work,
         the objective was primarily focused on attempting to
         obtain user passwords. Posing as DHS technical
         support employees, attempts were made to obtain this
         type of account information by contacting randomly
         selected USCG employees by telephone at two Coast
         Guard locations, Headquarters (HQ) and the Coast
         Guard FINCEN. A script was followed which had us
         ask for assistance from the user in resolving a Coast
         Guard network issue. As presented in the following
         table, for each person we attempted to call, we noted
         whether the individuals were reached and whether we


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 29
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                       New     Repeat   Severity
                               Condition                                           Recommendation
#No                                                                                                                       Issue    Issue    Rating
         obtained any information from them that should not
         have been shared with us according to DHS policy.
         Our selection of individuals was not statistically
         derived, and, therefore, we are unable to project results
         to the Coast Guard or the DHS as a whole.
CG-IT-   During the FY 2010 IT Audit, a selection of newly           As noted in the condition, management remediated      X                  1
 10-07   created users of the JUMPS application was made to          the exception upon notification of this IT NFR. No
         inspect whether applicable documentation was                additional actions are required and, therefore, no
         recorded and retained to identify authorized users.         recommendation will be issued.
         We determined that documentation was not retained
         for one of the five users selected. We performed
         inquiry procedures with management to determine that
         access was appropriately restricted for this user;
         however, no JUMPS Access Authorization Form
         could be located. On July 20, 2010, management
         remediated the exception by completing a new JUMPS
         Access Authorization Form for the noted user with a
         copy of the form being entered into the Coast Guard’s
         ImageNow imagining repository.
CG-IT-   During our FY 2010 test work, we determined that the        No recommendation required. Coast Guard took          X                  1
 10-08   Coast Guard TIER System password setting for                appropriate corrective action during the current
         lockout duration (PASSWORD_LOCK_TIME) is                    fiscal year to remediate the exception that was
         only configured to 0.0005 days (less than one minute).      identified during this fiscal year.
         This setting was subsequently remediated on 7/19/201
         to a setting of “UNLIMITED” which requires an
         administrator to unlock the account. We observed and
         noted that this remediation was taken by Coast Guard.




                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 30
                                                                                                                              Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                  New     Repeat   Severity
                              Condition                                         Recommendation
#No                                                                                                                  Issue    Issue    Rating
CG-IT-   To complement our IT audit testing efforts as part of    We recommend that Coast Guard:                      X                  2
 10-09   the FY 2010 DHS Financial Statement Audit and            � Update the annual IA training to include more
         Audit of Internal Control over Financial Reporting, we      robust office “physical security” and “clean
         also performed after-hours physical security testing.       desk” guidance and instruction and explicitly
         This testing was conducted at key Coast Guard               test individuals during the training on these
         locations that process, support and house Coast Guard       topic areas.
         financial data.                                          � Implement enterprise-wide and site-specific
                                                                     processes for verifying the effectiveness of
         We performed after-hours physical security testing to       this training via mechanisms such as
         identify risks related to non-technical aspects of IT       scheduled and ad hoc desk checks, training
         security. These non-technical IT security aspects           follow-ups, and other management controls.
         include physical access to media and equipment that
         houses financial data and information residing on a
         USCG employee’s / contractor’s desk, which could be
         used by others to gain unauthorized access to systems
         housing financial information.      The testing was
         performed at various USCG locations that process and
         / or maintain financial data. After gaining physical
         access to the facilities with a USCG employee who
         was designated to assist with and monitor our test
         work, we inspected a selection of 45 desks, cubicles,
         offices, and other work areas for each location.
         During the testing we were looking for items such as
         improper protection of user account login information,
         unsecured      portable system hardware, including
         laptops and external hard drives, and open / active
         application or network sessions. In addition, we
         inspected work areas for documentation marked “For
         Official Use Only” (FOUO), personally identifiable
         information (PII), Federal Government credits cards,
         and agency badges. This list does not encompass the
         total type of items we were searching for during our



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 31
                                                                                                                               Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                   New     Repeat   Severity
                              Condition                                         Recommendation
#No                                                                                                                   Issue    Issue    Rating
         testing. As depicted in the following table, for each
         location visited, we noted the type of unsecured
         information or property we identified and included the
         total exceptions noted by location, as well as by type
         of information or property identified.
CG-IT-   In FY 2009, we determined that the Role-Based            We recommend Coast Guard Headquarters:        X
 10-10   Training for USCG IA Professionals Commandant            �  Continue     to    implement     Commandant
         Instruction had been renamed the Role-Based Industry        Instruction       Information       Assurance
         Standards for USCG IA Professionals Commandant              Professional Certifications.
         Instruction.    However, the renamed Instruction         � Improve and utilize its manual tracking
         remained in draft form. In addition, we determined          process until such time that the Direct Access
         that once the Instruction had been finalized, the           implementation is in place.
         curriculum had been agreed upon and the training
         implemented, Coast Guard would utilize the
         Professional Certifications and Licenses module
         within the Direct Access system rather than the
         Training Management Tool (TMT) to monitor and
         verify training completion. This was not the case as
         Direct Access was not configured to track contractor
         information and, therefore will not include training
         information for contractors. The Instruction continued
         to reference the use of the TMT and had not been
         updated to include procedures for utilizing Direct
         Access.

         During our FY 2010 follow-up test work, we
         determined that the Role-Based Industry Standards for
         USCG IA Professionals Commandant Instruction had
         been renamed Information Assurance Professional
         Certifications and was formally issued on March 23,
         2010.     The Instruction stated that all military
         employees assigned to an IA role must obtain a



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 32
                                                                                                           Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                               New     Repeat   Severity
                            Condition                                  Recommendation
#No                                                                                               Issue    Issue    Rating
      required certification within 12 months of the
      Commandant Instruction issue date (i.e., March 23,
      2011), and all civilian employees currently in an IA
      role would be granted a waiver within 12 months of
      the Commandant Instruction issue date.               The
      Commandant Instruction further stated: 1) both
      military and civilian employees assigned to an IA role
      after the issuance date would be required to obtain a
      certification within 12 months, including transfers, and
      2) all certifications must be recorded / tracked in
      Direct Access.        Pertaining to contractors, the
      Contracting Officer Technical Representative (COTR)
      must keep records of all IA personnel that require and
      have received role-based certification preparation or
      Continuing Professional Education (CPE) credits, and
      all training and certification requirements are inserted
      within all future statements of work and awarded
      contracts. The instruction also states that all IA
      personnel (military, civilians, and contractors) must
      receive initial professional certification preparation
      and annual CPEs thereafter prior to being granted
      Coast Guard IT systems access specific to those
      security duties.

      Although Coast Guard has taken corrective actions to
      remediate this prior year NFR, we determined that
      even though the corrective actions are planned for
      completion by March 2011, they have not yet been
      completed in FY 2010 (i.e., all IA professionals who
      are required to obtain / maintain a professional
      certification within a year of the date of the Instruction
      have not obtained a certification to date). Our testing



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 33
                                                                                                                                  Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                      New     Repeat   Severity
                              Condition                                           Recommendation
#No                                                                                                                      Issue    Issue    Rating
         noted that 8 or 3.9% of Coast Guard IA professionals
         out of the total population of 205 have the required
         certification for their prescribed level on file.
         Furthermore, we noted that 59 or 28.7% of Coast
         Guard IA professionals have not provided evidence of
         industry-based training. In addition, through our
         testing, we could not determine the number of IA
         professionals that had been granted waivers for the
         certification requirement. In closing, we also noted
         that 14 Coast Guard System Administrators were not
         listed as being part of the 205 Coast Guard IA
         professionals.
CG-IT-   During the FY 2010 IT Audit, a selection of users         We recommend that Coast Guard Finance Center           X                  1
 10-11   added to the CG TIER application for the fiscal year      take the follow actions:
         was made to inspect whether proper documentation          � For the user identified during testing, complete
         was recorded and retained for identify authorized             and retain all appropriate access request
         users. Our testing determined that documentation was          documentation; and,
         not retained for one of the two CG TIER users             � Update the CG TIER account management
         selected. Upon further inquiry with management, we            procedures to effectively track and retain user
         were informed that the identified CG TIER user was            access documentation.
         authorized access by the Financial Branch Chief;
         however, the email approval had been lost.
CG-IT-   During our FY 2009 test work, we determined that on       We recommend Coast Guard headquarters and the                   X         2
 10-12   a quarterly basis, 45-90 Direct Access user accounts      PPC:
         are randomly sampled and formally reviewed to             � Develop a RP with associated supporting
         determine if access remains appropriate for each             business case(s) to address the 100% account
         selected user account. As part of the quarterly review,      review requirement.
         Coast Guard’s Pay and Personnel Center (PPC)              � Continue to coordinate with the DHS CISO’s
         management verifies that no single user has both             office to determine and formalize the
         CGAPPL (ability to enter an applicant) and                   frequency and depth / breadth of effective
         CGHRSUP (ability to hire an application) roles. PPC          reviews that address the perceived risk. Based
         management then verifies that no user has both               upon the results of these discussions with the



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 34
                                                                                                                                 Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                                                     New     Repeat   Severity
                            Condition                                            Recommendation
#No                                                                                                                     Issue    Issue    Rating
      CGAPPL and CGHIRE privileges within the Direct                  DHS CISO’s office, the Coast Guard will
      Access application.                                             modify procedures and develop, if applicable,
                                                                      required waivers/exceptions to reflect an
      Per PPC management, there are 17,496 individuals
                                                                      adequate percentage of Direct Access user
      with active Direct Access accounts that maintain
                                                                      accounts to be reviewed.
      greater than read-only access. PPC management
      further advised us that 6,920 (40%) of the Direct           �   Continue to use its existing risk-based account
      Access accounts were revalidated during the period of           review efforts until such time that the
      October 1, 2008 – September 17, 2009, leaving 10,576            procedures are updated in response to the
      (60%) Direct Access accounts not revalidated during             activities associated with the second
      FY09. As a result, we determined that 100% of Direct            recommendation.
      Access user accounts with greater than read-only
      access are not annually reviewed per the DHS
      requirement.
      During our FY 2010 test work, we were informed by
      the Coast Guard that an annual review of 100% of the
      Direct Access user accounts with greater than read-
      only access (and their associated privileges) has not
      been performed for this fiscal year.

      Coast Guard also informed us that all Direct Access
      accounts created and/or modified during the fiscal year
      have been reviewed as part of the normal transfer and
      aging processes; however, our testing did not extend to
      validate this statement. Based upon a risk based
      decision, the Coast Guard has designed a process to
      review a subset of users that represent the greatest risk
      to Direct Access. This annual review would cover
      approximately 743 Direct Access users. The scope of
      the review includes users with payment approval,
      security administrator permissions, all contractors, and
      users with update/delete permissions.



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 35
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                       New     Repeat   Severity
                              Condition                                            Recommendation
#No                                                                                                                       Issue    Issue    Rating
         However, since this subset review does not cover
         100% of the Direct Access user accounts with greater
         than read-only access (and their associated privileges)
         as required by DHS, we consider this NFR to be re-
         issued.
CG-IT-   During our testing, we determined that all previous        We recommend that Coast Guard FINCEN:                  X                  1
 10-13   year conditions listed in NFRs CG-IT-09-46 were            �  Develop a RP with associated supporting
         properly remediated by USCG. We consider this                 business case(s) to address the installation of
         prior-year IT NFR as closed.                                  Service Pack 3 on all applicable Windows XP
                                                                       workstations and/or upgrade the operating
         As part of this year’s testing, we identified one             systems of these workstations to the Coast
         security configuration management weakness (i.e.,             Guard’s Vista-based Standard Image 6.0.
         outdated operating system software) on hosts               � Develop a RP with associated supporting
         supporting CAS, FPD, NESSS, as well as those                  business case(s) to address the server
         systems’ network infrastructure and associated                operating system upgrades to include a
         workstations.                                                 technical analysis to ensure Windows 2003
                                                                       server upgrades do not adversely affect system
         Table 1, starting on the next page, lists the conditions      operation.
         as identified by the software tool used, the system
                                                                    � Based upon the results of Recommendation 1
         (host) impacted, effect statement, IT general control
                                                                       and Recommendation 2, schedule and perform
         area, software tool used to identify the condition, and
                                                                       the upgrades and/or patches of the impacted
         if the condition identified was a prior year IT audit
                                                                       servers and workstations.
         issue. The conditions listed in Table 1 are potentially
         exploitable by an insider without specific knowledge
         of the operation of the system or the applications
         hosted on that system.
CG-IT-   During our FY 2010 audit test work, we sampled 25          We recommend the Coast Guard’s Operation               X                  2
 10-14   new user accesses for NESSS that were granted during       Systems Center (OSC) update the NESSS account
         the fiscal year to determine if an access authorization    management Standard Operating Procedure (SOP)
         form had been completed, if the access had been            to provide clear guidance regarding the use of user
         timely approved by the user’s supervisor, and that the     access forms and update the access form to include



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 36
                                                                                                                                    Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2010

NFR                                                                                                                        New     Repeat   Severity
                                Condition                                             Recommendation
#No                                                                                                                        Issue    Issue    Rating
         forms were retained. Based upon our testing, we were          an approval signature line.
         unable to obtain 9 of the 25 user access forms. In
         addition, evidence of supervisory approval for 9 of the
         25 sampled users was not available.

CG-IT-   During the FY 2010 audit test work, Aviation                  We recommend that Coast Guard:                       X                  1
 10-15   Logistics Center (ALC) visitor logs for the fiscal year       �  Develop and maintain an SOP to ensure that
         were obtained to determine whether proper                        the ALC Data Center Access Control list is
         documentation was recorded and retained for the                  kept current and that its quarterly review is
         verification of individuals visiting the ALC Data                documented and maintained; and
         Center and Facility. Our testing determined that the          � Re-emphasize to all ALC Support Desk
         ALC Customer Support Desk did not properly                       personnel (through training), the importance
         complete the visitor logs during the FY 2010 audit               of properly maintaining the visitor log and to
         period. Specifically, from a total of 190 visitor log            ensure it is filled out completely and
         entries for the fiscal year, 33 visitor log entries did not      accurately.
         have the Date-Out and Time-Out fields completed and
         31 visitor log entries did not have the Sponsor field
         completed.

         Additionally, the ALC Data Center Access Listing
         was obtained to determine whether a review of the
         access listing was conducted and evidence of the
         review was performed and maintained. Our testing
         determined that the evidence of reviews of the Data
         Center Access for the FY 2010 period was not
         maintained. Therefore, we could not determine that
         the Data Center Access Listing had been properly
         reviewed during the year.




                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 37
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                    New     Repeat   Severity
                              Condition                                          Recommendation
#No                                                                                                                    Issue    Issue    Rating
CG-IT-   During the FY 2010 IT Audit, the Aviation                 We recommend that the Coast Guard configure the      X                  1
 10-16   Maintenance Management Information System                 AMMIS application to enforce the strong
         (AMMIS) password configuration settings were              password and password history requirements
         obtained and tested to determine whether they             described in the DHS Management Directive
         complied with DHS policy. Our testing determined          4300A Policy Directive and to update all impacted
         that the AMMIS subsystem password configuration           Certification & Accreditation and system
         settings do not comply with all of the required DHS       documentation accordingly.
         password guidelines. Specifically, AMMIS password
         configuration settings did not comply with the
         following DHS password policy:

             �   Contain a combination of alphabetic, numeric,
                 and special characters – the AMMIS
                 password requires a combination of
                 alphabetic, numeric, or special characters; and

             �   Not be the same as the previous 8 passwords.
                 The AMMIS password configuration is set to
                 be the same as the previous 6 passwords.

         Additionally, our testing determined that the current
         Aviation Logistics Management Information System
         (ALMIS) System Security Plan (SSP), which includes
         the system level requirements of the AMMIS
         subsystem, states that the implemented password
         configuration does not comply with the current DHS
         password policy. Specifically, the ALMIS SSP states
         that the password cannot be the same as the previous 6
         passwords; however, DHS guidance states that
         passwords cannot be the same as the previous 8
         passwords.



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 38
                                                                                                                                Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                    New     Repeat   Severity
                              Condition                                           Recommendation
#No                                                                                                                    Issue    Issue    Rating




CG-IT-   To complement our IT audit testing efforts as part of      It is recommended that Coast Guard implement the    X                  2
 10-17   the FY 2010 DHS Financial Statement Audit and              recommendations presented in Coast Guard IT-
         Audit of Internal Control over Financial Reporting, we     NFR-10-06. No additional actions are required.
         also performed social engineering testing. This testing
         was conducted at key Coast Guard locations that
         process, support and house Coast Guard financial data.
         Social engineering is defined as the act of attempting
         to manipulate or deceive individuals into taking action
         that is inconsistent with DHS policies, such as
         divulging sensitive information or allowing / enabling
         computer system access. The term typically applies to
         trickery or deception for the purpose of information
         gathering, or gaining computer system access.

         This was the second round of social engineering
         testing conducted as part the FY 2010 DHS Financial
         Audit and Audit of Internal Control over Financial
         Reporting. Our initial testing occurred back on June
         30th and July 1st. Our initial testing resulted in Coast
         Guard IT-NFR-10-06 being issued. The testing
         approach and scope for the second round of testing
         was the same as the initial round.

         During the course of our social engineering test work,
         the objective was primarily focused on attempting to
         obtain user passwords. Posing as DHS technical
         support employees, attempts were made to obtain this



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 39
                                                                                                                                 Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                     New     Repeat   Severity
                              Condition                                           Recommendation
#No                                                                                                                     Issue    Issue    Rating
         type of account information by contacting randomly
         selected USCG employees by telephone at two Coast
         Guard locations, Headquarters (HQ) and the Coast
         Guard Finance Center (FINCEN). A script was used
         to ask for assistance from the user in resolving a
         network issue at the Coast Guard. As presented in the
         following table, for each person we attempted to call,
         we noted whether the individuals were reached and
         whether we obtained any information from them that
         should not have been shared with us according to DHS
         policy.      Our selection of individuals was not
         statistically derived, and, therefore, we are unable to
         project results to the component or department as a
         whole.
CG-IT-   Our testing determined that the evidence of reviews        We recommend that Coast Guard:                       X                  2
 10-18   over the AMMIS audit logs for the FY 2010 audit            � Update the AMMIS Standard Operating
         period were not maintained by ALC. Therefore, we              Procedures to address the audit log review and
         could not determine if the AMMIS audit logs had been          retention procedures; and
         properly reviewed during the year.                         � Implement separation of duties for the
                                                                       AMMIS audit log reviews.
         Additionally, our testing determined that reviews of all
         deactivated AMMIS accounts may not have been
         performed and evidence of the reviews was not
         maintained by the ALC. Therefore, we could not
         determine whether deactivated AMMIS accounts had
         been properly monitored and reviewed during the
         year.

         Lastly, we were informed by the ALC that the
         AMMIS audit logs were not being reviewed by an
         individual that is considered independent to the
         process.    We noted that an AMMIS system



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 40
                                                                                                                                Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                    New     Repeat   Severity
                             Condition                                          Recommendation
#No                                                                                                                    Issue    Issue    Rating
         administrator is responsible for reviewing the AMMIS
         audit logs.



CG-IT-   Our testing determined that evidence of a review and    We recommend that Coast Guard:                         X                  2
 10-19   recertification of the 11,306 users with “Update”       �    Develop a RP with associated supporting
         privilege in ALMIS was not maintained by the ALC.            business case(s) to address the 100% account
         Therefore, we could not determine that ALMIS user            review requirement;
         accounts had been properly reviewed and recertified     � Continue to coordinate with the DHS CISO’s
         during the year.                                             office to determine and formalize the
                                                                      frequency and depth / breadth of effective
                                                                      reviews that address the perceived risk. Based
                                                                      upon the results of these discussions with the
                                                                      DHS CISO’s office, the Coast Guard will
                                                                      modify procedures and develop, if applicable,
                                                                      required waivers/exceptions to reflect an
                                                                      adequate percentage of ALMIS user accounts
                                                                      to be reviewed; and
                                                                 � Continue to use its existing risk-based account
                                                                      review efforts until such time that the
                                                                      procedures are updated in response to the
                                                                      activities associated with the second
                                                                      recommendation.
CG-IT-   Our testing determined that the AMMIS Software          We recommend that Coast Guard establish and            X                  1
 10-20   Change Request Forms were not appropriately             follow a management review process to ensure
         authorized. Specifically, for the four (4) AMMIS        that any new AMMIS SCRs processed will be
         software changes made during the fiscal year, two (2)   reviewed by the PC team for the proper / required
         of the software change request forms were not signed    signatures.
         by the Division Chief.




                   Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                      Page 41
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                     New     Repeat   Severity
                              Condition                                          Recommendation
#No                                                                                                                     Issue    Issue    Rating
CG-IT-   During our FY 2010 audit test work over the NESSS         Coast Guard took appropriate corrective action to     X                  2
 10-21   recertification process, we noted that 32 users were      remediate the exception that was identified and no
         assigned the role FLS_USR_ADM_GRP within the              additional corrective actions are required.
         NESSS application. This role grants the ability to add,
         modify, and delete user accounts. In addition, two (2)
         of these users were system administrators. This
         number of users with this elevated role was considered
         excessive based upon the ratio of this role to the
         NESSS user population.

         On October 7, 2010, OSC management remediated the
         condition by reducing the number of users with the
         FLS_USR_ADM_GRP role down to six.

CG-IT-   We determined that Operations System Center               We recommend that Coast Guard:                                 X         2
 10-22   (OSC) had updated the policies and procedures for         �  Update the SAM and NESSS audit log review
         System Administrators (SAs) and Database                     procedures within the Standard Operating
         Administrators (DBAs) to include more detail and             Procedures to include more detail in the
         instructions on entering sufficient evidence                 ClearQuest Tickets including recording the
         regarding the weekly non-independent audit log               results of the review of the audit logs;
         reviews documented and tracked in the ClearQuest          � Implement similar separation of duties for the
         Ticketing system. We also noted that the monthly             NESSS audit log reviews as have been
         SAM audit log reviews were being conducted by an             implemented for the SAM audit log reviews;
         independent team.                                            and;
                                                                   � Continue with ongoing efforts for identifying,
         Although OSC has taken steps to remediate the prior
                                                                      designing, and implementing automated tools
         year conditions by updating the policies and
                                                                      to assist in audit log collection, storage,
         completing the monthly independent reviews, we
                                                                      analysis, and reporting which will further
         determined that the 3 sampled months of SA and
                                                                      improve consistency, timeliness, and accuracy
         DBA audit log reviews did not have sufficient detail
                                                                      of the reviews when compared with labor and
         on the ClearQuest tickets.       Specifically, we
                                                                      time intensive manual processes.
         identified the following:



                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 42
                                                                                                           Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                               New     Repeat   Severity
                            Condition                                 Recommendation
#No                                                                                               Issue    Issue    Rating
          �    1 of the 3 SA monthly reviews did not have
               a searchable title
          �    2 of the 3 SA monthly reviews did not
               include results of the audit log review (i.e.,
               audit logs had no exceptions.)
          �    3 of the 3 DBA monthly reviews did not
               list the logs that were included in the
               review
          �    3 of the 3 DBA monthly reviews did not
               have results of the audit log reviews

      As a result of limitations of the underlying operating
      system of the Shore Asset Management System AM
      system:
           � The servers do not automatically alert in
               the event of an incident.
           � The server operating systems do not
               inherently provide audit reduction and
               report generation capability.

      Furthermore, the OSC has not implemented a
      centralized log solution for audit log reduction and
      reporting, and automated alert notifications.

      NESSS Audit Logs:
      During our FY 2010 test work for the NESSS, we
      noted that daily and weekly audit log reviews are
      performed by the NESSS System Administrator.
      The weekly audit log reviews are documented in the
      ClearQuest system with a running ticket for the
      calendar year. Each week’s review is added to the



                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 43
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                    New     Repeat   Severity
                              Condition                                          Recommendation
#No                                                                                                                    Issue    Issue    Rating
         ClearQuest ticket. However, we determined that
         there is not sufficient detail in the ClearQuest ticket
         in recording the results of the review of the audit
         logs. Furthermore, as similar to SAM audit log
         review process listed above, OSC has not
         implemented a centralized log solution for audit log
         reduction and reporting, and automated alert
         notifications. In addition, the weekly reviews are
         performed by the NESSS System Administrator,
         who is not considered an independent party as
         required by DHS MD 4300A.
CG-IT-   During the FY 2010 audit test work, the OSC data          We recommend that Coast Guard develop detailed       X                  1
 10-23   center access listing was obtained in order to            procedures for:
         determine whether a review of the access listing was      � Quarterly data center access reviews to
         conducted and evidence of the review was maintained.          include validating that users have a physical
         OSC informed us that they perform a review of the             need to access the data floor; and
         data center access on a quarterly basis. However, our     � Methods for maintaining the review
         testing determined that the evidence of reviews               documentation.
         concerning OSC data center access for the FY 2010
         period was not maintained. Therefore, we could not
         determine whether the OSC data center access listing
         had been properly reviewed during the year.

CG-IT-   During prior financial statement audits dating back to    We recommend Coast Guard to:                                  X         3
 10-24   FY 2003, we noted that the implementation and             � Continue to implement and improve upon
         oversight of the Coast Guard’s information security          the monitoring of compliance with DHS,
         controls needed various improvements. In FY 2010,            Coast Guard, and Federal security policies
         continued improvements have been made in the areas           and procedures in the areas of script
         of access controls, entity-level controls, and               configuration management controls to
         configuration management. Improvements in the IT             include the use of the automated tools
         control environment were identified at each of the           deployed at the FINCEN; and
         Coast Guard financial processing locations where IT       � Develop and implement corrective action


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 44
                                                                                                                                  Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                      New     Repeat   Severity
                              Condition                                           Recommendation
#No                                                                                                                      Issue    Issue    Rating
         audit was previously conducted.                               plans to address and remediate the NFRs
                                                                       issued during the FY 2010 audit.
         However, significant improvements are still warranted
         in the area of script configuration management
         controls for the key financial systems located at the
         FINCEN. Script configuration management control is
         the subject of the significant control deficiencies
         identified and recommendations that were developed
         during the audit. Other weaknesses continued to exist,
         to a lesser extent, in the areas of access controls and
         entity-wide security at each of the Coast Guard
         financial processing locations.       These continued
         weaknesses require Coast Guard to continue with the
         implementation of their corrective actions plans and
         monitoring efforts.

         As a result of our audit test work and supported by all
         the IT NFRs issued during the current year, we
         determined that Coast Guard is non-compliant with the
         Federal Financial Management Improvement Act
         (FFMIA).

CG-IT-   During our FY 2010 year-end IT roll-forward audit         The process for obtaining written sign-off on PIR      X                  1
 10-25   testing procedures, we determined that one (1) of the     forms has recently been replaced with an
         five (5) Financial Procurement Desktop (FPD),             automated workflow process that eliminates the
         Production Implementation Request (PIR) forms             need for written approvals; therefore no additional
         tested was not signed off on by the                       corrective actions are required.
         analyst/submitter/implementer as required per the
         FINCEN PIR form.




                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 45
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                    New     Repeat   Severity
                              Condition                                          Recommendation
#No                                                                                                                    Issue    Issue    Rating
CG-IT-   During the FY 2010 audit test work, we determined         We recommend that Coast Guard develop,               X                  2
 10-26   that ALC policies and procedures for the following        document, communicate, train, test, and
         control areas are not adequately detailed to provide      continuously maintain policies and procedures for
         clear and complete control descriptions for each of the   the cited control and process areas.
         following processes:

             �   Physical Access to the data center and
                 systems in the data center;
             �   Access to Program Libraries;
             �   Segregation of Duties in support of the
                 AMMIS application;
             �   AMMIS Audit Log Review and Retention;
             �   Backups and Data Restoration; and,
             �   Offsite Storage of Backup media.

CG-IT-   The NESSS’ Oracle verify_function in the SYS              We recommend that Coast Guard review and             X                  1
 10-27   schema is incorrectly configured and does not include     update the Oracle verify function in the SYS
         verification of special characters for passwords.         schema to include the verification of special
                                                                   characters for passwords.

CG-IT-   During our FY 2010 audit test work, we followed up        We recommend Coast Guard continue with the                    X         1
 10-28   with Coast Guard management and were notified that        PeopleSoft 9.0 upgrade and PeopleSoft Portal
         this Direct Access audit logging weakness, noted in       implementation.
         FY 2009, cannot be resolved until Direct Access is
         updated to PeopleSoft version 9. There is no current
         timeline for the upgrade to take place. The following
         conditions were noted last year and are still open in
         FY 2010.
         Not all Direct Access failed logon attempts are logged
         or reviewed; and account management audit logs for
         the Direct Access application are not reviewed on a


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 46
                                                                                                           Appendix B
                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2010

NFR                                                                                               New     Repeat   Severity
                           Condition                                Recommendation
#No                                                                                               Issue    Issue    Rating
      monthly basis, which is a requirement set forth within
      DHS Policy.




                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 47
                                                                             Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

             � Customs and Border Protection (CBP)




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 48
                                                                                                                                               Appendix B
                                                          Department of Homeland Security
                                                      Information Technology Management Letter
                                                                 September 30, 2010

                                                 Notice of Findings and Recommendations – Detail
                                                          Customs and Border Protection
NFR                                                                                                                                   New     Repeat    Risk
                               Condition                                                  Recommendation
#No                                                                                                                                   Issue    Issue   Rating
 CBP-    This is a system-level finding. KPMG noted that CBP          CBP should implement procedures to reinforce adherence to                 X        2
IT-10-   portal accounts for separated employees are removed          guidance requiring timely notification of separations by
  01     on a bi-weekly basis and are not removed on the day of       employees or contractors with access to ACE. Those
         the individual’s separation as required by CBP and           responsible for ACE access control need to be notified of a
         DHS policy. KPMG did note that CBP is aware of the           separation no later than the day of separation.
         issue and is looking into an automated solution for
         compliance with CBP and DHS policy. Upon further
         testing of terminated employees, KPMG did not find
         any users that had accessed the system after their
         separation date from CBP.

 CBP-    This is a system level finding. KPMG noted that ACE          CBP Office of Information and Technology will continue to                 X        2
IT-10-   is not currently configured to prevent incompatible          work with the Office of International Trade, Office of
  02     roles from being assigned to a user, as required by CBP      Administration and Office of Field Operations to identify
         and DHS policies. While, initial steps have been taken       incompatible roles and develop procedures as part of the
         to address formal segregation of duties within the           access control process to ensure that these role combinations
         system, no additional actions have taken place.              are not granted to ACE users, except when a waiver is
                                                                      granted in writing.

 CBP-    This is a system-level finding. KPMG noted that              We recommend that CBP maintain evidence that regular                      X        2
IT-10-   evidence of completed ACE system log (Syslog)                reviews of audit logs are occurring.     Specifically, we
  03     reviews did not include an appropriate level of detail.      recommend that CBP continue with plans initiated in July of
         Specifically, during the majority of FY 2010, there was      2010 to institutionalize a more formal method of
         no formal method of documenting who performed the            documenting who performed reviews of audit logs, when
         audit log reviews, when they were reviewed, what             these reviews occurred, and what issues (if any) were
         issues (if any) were identified, and the actions taken (if   identified.
         applicable). KPMG noted that procedures regarding
         the review of ACE audit logs have been established           We also recommend that CBP perform a cost/benefit
         prior to FY 2010, and that management is currently           analysis to determine whether an ACE custom-developed
         implementing a formal method of documenting the              solution or a purchased COTS product should be
         requisite system log review information.                     implemented for full automation of audit log reviews.

CBP-     Social engineering is defined as the act of attempting to    We recommend that CBP implement multiple types of                X                 2

                            Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                               Page 49
                                                                                                                                         Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                             New     Repeat    Risk
                               Condition                                              Recommendation
#No                                                                                                                             Issue    Issue   Rating
IT-10-   manipulate or deceive people into taking action that is    security awareness reminders and opportunities to educate
  05     inconsistent with policies, such as divulging sensitive    users of the importance of protecting CBP information
         information or allowing / enabling computer system         systems and data. Specifically, we recommend that social
         access. The term typically applies to trickery or          engineering evaluations be incorporated into routine site
         deception for the purpose of information gathering, or     inspections to test employee’s security awareness and to
         computer system access.                                    educate users on how to respond to information security
                                                                    attacks.
         The objective of our social engineering test work
         primarily focused on attempting to identify user
         passwords.     Posing as DHS technical support
         employees, attempts were made to obtain this type of
         account information by contacting randomly selected
         employees by telephone. A script was used to ask for
         assistance from the user in resolving a network issue in
         the component. For each person we attempted to call,
         we noted in the table below whether the individual
         answered and whether we obtained any information
         from them that should not have been shared with us
         according to DHS policy. Our selection of individuals
         was not statistically derived, and therefore we are
         unable to project results to the component or
         department as a whole.

         Of 25 individuals called, 16 answered. Of the 16 that
         answered, 2 divulged their network password.

 CBP-    This is a system-level finding. KPMG requested             We recommend that the Office of Information and                       X        2
IT-10-   access authorization documentation for 25 individuals      Technology (OIT) issue a memorandum and distribute the
  06     who were granted ACE access during FY 2010. Initial        procedures to the respective CBP Offices to implement. We
         access requests and approvals for 9 of these individuals   also recommend that monitoring procedures be established
         were not provided. Although a process for creating and     to ensure compliance with the procedures and that OIT
         maintaining user access forms and requests has been in     coordinate a meeting with the other CBP Offices to
         place since before the beginning of FY 2010, access        determine if centralized access control measures are
         approvals prior to the creation of ACE accounts were       necessary.
         not consistently maintained in accordance with CBP
         policy and procedures.
                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 50
                                                                                                                                             Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                                 New     Repeat    Risk
                               Condition                                                Recommendation
#No                                                                                                                                 Issue    Issue   Rating

 CBP-    We performed after-hours physical security testing to      CBP should continue its annual security awareness training.               X        2
IT-10-   identify risks related to non-technical aspects of IT       In addition, it should seek to add other means of increasing
  07     security. These non-technical IT security aspects          security awareness.
         include physical access to equipment that houses
         financial data and information residing on CBP
         personnel desks, which could be used by others to
         inappropriately access financial information. The
         testing was performed at various CBP locations that
         process and/or maintain financial data.        A CBP
         employee was designated to assist with and monitor
         our test work. After gaining access to CBP facilities,
         we inspected a selection of desks and/or offices,
         looking for items such as improper protection of
         system passwords, unsecured information system
         hardware, documentation marked FOUO, and unlocked
         network sessions. Our selection of desks and offices
         was not statistically derived, and therefore we are
         unable to project results to the component or
         department as a whole. For each location visited, we
         note the type of unsecured information or property we
         identified and included the total exceptions noted by
         location, as well as by type of information or property
         identified.

         A total of 102 instances were identified across the six
         locations where physical assets or sensitive information
         was not secured in accordance with DHS and/or CBP
         policies.

 CBP-    This is a component-level finding. KPMG noted that         We recommend that CBP review the current Customs                          X        2
IT-10-   separation procedures for contract employees (Customs      Directive and update it to reflect the current operating
  08     Directive 51715-006) are out of date and include           environment. Additionally, we recommend that CBP require
         incomplete and inaccurate references. Specifically, the    the consistent and accurate completion of the SF 242 for all
         procedures have not been updated since September           separating contractors with access to CBP facilities,
         2001. The procedures reference Treasury facilities and     information systems and/or sensitive information.
                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 51
                                                                                                                                           Appendix B
                                                        Department of Homeland Security
                                                    Information Technology Management Letter
                                                               September 30, 2010

NFR                                                                                                                               New     Repeat    Risk
                              Condition                                               Recommendation
#No                                                                                                                               Issue    Issue   Rating
         Treasury policies as source documentation. KPMG
         notes that a new directive, CBP Directive 1210-007,
         entitled ‘Contractor Tracking System,’ was issued
         requiring the use of the Contractor Tracking System;
         however, the new directive still refers to out of date
         Customs Directive 51715-006 for separation
         procedures for contractor employees.

         Additionally, KPMG noted that SF 242 contractor
         separation forms are not completed consistently for
         separating CBP contractors. Specifically, KPMG noted
         that of 45 separated contractors with access to CBP
         facilities, information systems, and/or sensitive
         information who were selected for testing, 9 forms
         were not completed, were not provided, or were not
         completed in a timely manner.

 CBP-    This is a component level finding. KPMG selected 45       We recommend that CBP review the validity of the CBP                     X        2
IT-10-   government employees that had separated in FY 2010        Form 241 Employee Separation process and determine an
  09     and noted that 19 of these individuals did not have a     alternate mechanism to hold managers accountable for
         completed CBP Form 241 on file.                           timely notification of employee separations and for
                                                                   confirming the termination of access to information systems,
                                                                   and the return of property and equipment.

 CBP-    This is a component level finding. While KPMG notes       We recommend that CBP implement a more consistent                        X        2
IT-10-   that progress has been made in implementing               method of ensuring that each contractor employee in
  10     procedures requiring the signing of NDAs, KPMG            moderate and high-risk positions sign and date a NDA.
         noted that NDAs are still not consistently completed by
         contractors at CBP. Specifically, KPMG noted that out
         of a selection of 45 contractors, one NDA was signed
         more than four months after the hire date. In addition,
         one NDA was not provided for a contractor in a
         medium or high risk position. Further, KPMG noted
         that the NDAs for 27 contractors in medium or high
         risk positions did not have a date of signature.

                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 52
                                                                                                                                            Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                                New     Repeat    Risk
                               Condition                                                Recommendation
#No                                                                                                                                Issue    Issue   Rating
 CBP-    This is a component-level finding. KPMG has noted           We recommend that CBP continue installing             and               X        2
IT-10-   that CBP has not been able to provide evidence that         develop, implement, and monitor policies and procedures to
  11     workstations not on                       are receiving     move all workstations to                     or to obtain
         anti-virus and other security patch updates on a timely     waivers and compensating controls for those workstations
         basis. KPMG noted that while progress has been made         that cannot be moved to                .
         in accounting for all CBP workstations, a complete and
         up-to-date listing of all CBP workstations has not been
         maintained for the majority of FY 2010. As a result,
         CBP does not have an accurate inventory of which
         workstations have not received anti-virus and other
         security patch updates.

 CBP-    CBP’s RBST Program does not meet the DHS                    We recommend that CBP re-examine its role-based training       X                 2
IT-10-   requirements for “annual specialized training” that is      program and consider implementing the DHS Role-Based
  12     “commensurate with the individual’s duties and              Security Training Program once it has been implemented at
         responsibilities.” Specifically, the CBP RBST program       the department level.
         requires IT personnel to complete only one hour of
         Incident Response training, and one hour of Classified
         Information training (if applicable to the individual’s
         responsibilities) annually.

         Furthermore, out of the sampled 45 CBP personnel
         with significant IT security responsibilities, 5
         completed the training after CBP’s internal June 30,
         2010 deadline. In addition, another eight have yet to
         complete the training.

 CBP-    This is a component-level finding. We noted the             We recommend that management develop tools and                 X                 2
IT-10-   following weaknesses related to access to the raised        procedures for facilitating and documenting the
  13     floor area:                                                 approval/recertification and review of individual access to
         � We reviewed access request authorizations to the          the raised floor area.
              raised floor area of        and noted that of the 45
              individuals selected, 1 authorized access form was
              not provided.
         � We reviewed evidence of the recertification of
                            Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                               Page 53
                                                                                                                                          Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                              New     Repeat    Risk
                              Condition                                                Recommendation
#No                                                                                                                              Issue    Issue   Rating
             individuals with access to the raised floor area and
             noted that of the 15 selected individuals, 2 had not
             yet been recertified.

 CBP-    This is a system level finding. KPMG noted that            We recommend that CBP formalize a detailed procedure for               X        2
IT-10-   although changes to a user’s ACS access profile are        the review of ACS security profile change logs. The
  14     logged, the logs of these events are not regularly         procedure should include implementing a periodic review of
         reviewed by personnel independent from those               the logs by an independent reviewer.
         individuals that made the changes.

 CBP-    During our technical testing, patch and configuration                                                                    X                 2
IT-10-   management exceptions were identified on the
  15




                                                                                                                        .



                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 54
                                                                                                                                                Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                                    New     Repeat    Risk
                               Condition                                                 Recommendation
#No                                                                                                                                    Issue    Issue   Rating

                                   .

 CBP-    This is a system-level finding and a prior year issue      We recommend that CBP devote sufficient resources in                         X        2
IT-10-   from FY 2008 and FY 2009. KPMG determined that             order to implement and maintain formal ISAs with the PGAs
  16     evidence of ISAs for 6 of the 17 PGAs identified in the    that interconnect with ACS. We recommend that CBP
         System Security Plan could not be provided. Of the six     document ISAs for all ACS PGA connections identified in
         that were provided, two expired during FY2010 and          the ACS SSP.
         had not been renewed.

 CBP-    This is a system-level finding. We requested access        We recommend that CBP implement procedures to                                X        2
IT-10-   authorization evidence for 45 ACS users to determine       consistently document the access requests and approvals for
  17     whether ACS access was appropriately authorized.           any and all access creations and changes to ACS user
         OIT was unable to provide evidence of the access           profiles.
         request authorizations for any of the 45 selected ACS
         users. As a result, we are not able to determine
         whether ACS access initiations or modifications were
         appropriately approved and whether ACS access
         controls are in place and operating as required by DHS
         and CBP policies.

 CBP-    This is a component level finding. We noted that           We recommend that CBP update the access authorization               X                 1
IT-10-   access request forms, or evidence of recertification of    process to indicate that the access list will undergo a 100%
  18     access, to the offsite media could not be provided for 5   recertification annually. The artifact should be an official
         of the 15 selected employees.                              report from the Contracting Officer Technical Representative
                                                                    for offsite media storage clearly stating the results along with
                                                                    backup paperwork for all add, deletes, and changes to the
                                                                    access list.

 CBP-    This is a system level finding. We were informed that      We recommend that CBP develop and implement procedures                       X        2
IT-10-   ACS Security Audit Logs are not being reviewed.            that document the review process for ACS profile change
  19     Additionally, we noted that the following weaknesses       logs. The process should include the documented evidence
         related to the ACS Security Audit Logs procedures          of review, how often audit logs are reviewed, and the review
         continue to exist:                                         sampling methodology.
         � Procedures do not define how often the ACS
                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 55
                                                                                                                                              Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                                  New     Repeat    Risk
                               Condition                                                Recommendation
#No                                                                                                                                  Issue    Issue   Rating
             security profile change audit logs are reviewed.
         �   Procedures do not describe how the documented
             evidence of the review process is created by the
             ACS Information System Security Officer
             (ISSO)/Independent Reviewer.
         �   Procedures do not define the sampling
             methodology that is used to select ACS profile
             change security logs for review

 CBP-    This is a system-level finding. We noted the following      As the conditions were        closed   during   testing,   no             X        2
IT-10-   weaknesses related to the               e configuration     recommendation is required.
  20     settings:
         � KPMG noted that users were allowed an
              number of failed attempts to access datasets to
              which they were not authorized.             KPMG
              determined that the control option in the security
              software, which results in immediate suspension of
              any user who exceeds the specified number of
              violations, had not been configured properly.
              KPMG noted that this setting was corrected on
              February 24, 2010.
         � KPMG noted that users were allowed              failed
              logon attempts before their accounts were locked.
              At the end of the fiscal year the setting was
              updated to three failed login attempts, and KPMG
              observed the setting in the system and noted that it
              was corrected on September 24, 2010.

 CBP-    This is a component level finding. We noted the             We recommend that CBP:                                                    X        2
IT-10-   following weaknesses related to the CBP Background          � Complete via e-QIP the “initiation” of all remaining
  21     Investigation process:                                         employee reinvestigations by December 30, 2010.
         � Of the 45 individuals selected, we noted that 1           � Complete the reinvestigations for all such employees by
              contractor did not have a completed background            December 30, 2011.
              investigation as required by the CBP Information       � Develop/deploy a tracking mechanism (Contractor
              System Security Policies and Procedures                   Tracking System) by which to identify those contractors
                            Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                               Page 56
                                                                                                                                           Appendix B
                                                       Department of Homeland Security
                                                   Information Technology Management Letter
                                                              September 30, 2010

NFR                                                                                                                               New     Repeat    Risk
                              Condition                                               Recommendation
#No                                                                                                                               Issue    Issue   Rating
             Handbook. We noted that this contract has access         requiring reinvestigation.
             to the Automated Commercial Environment (ACE)        �   Develop and implement a strategy to ensure that
             system.                                                  reinvestigations for all contractors are initiated as
         �   Of the 45 individuals selected, we noted that 5          required.
             employees and 25 contractors did not have their
             background reinvestigations initiated within the
             five year timeframe as required by CBP
             Memorandum Regarding Reinvestigations, dated
             August 18, 2008.

 CBP-    This is a system-level finding. ACS developers may       KPMG recommends that CBP reports on the TSS audit of             X                 2
IT-10-   gain emergency/temporary access to the production        emergency access should be run as needed at management’s
  22     environment through the portal request process. While    (e.g., emergency approver’s) request.
         the emergency/temporary account activities are logged,
         CBP does not review these activity logs to identify
         inappropriate activities.

 CBP-    This is a system-level finding. Access approvals prior   We recommend that CBP fully transition their process for         X                 2
IT-10-   to the creation of NDC-LAN accounts were not             requesting NDC-LAN Network access from the paper-based
  23     consistently maintained in accordance with CBP policy    user access request form to an electronic user access request
         and procedures. KPMG requested access authorization      form. Once the electronic form is fully implemented, the
         documentation for 25 individuals who were granted        documented process will be updated to reflect that all NDC-
         NDC-LAN access during FY 2010. Although a                LAN user access requests must go to the Technology Service
         process for creating and maintaining user access forms   Desk (TSD) for action. TSD will generate a trouble ticket
         and requests has been in place since before the          and attach the electronic access request form to the initial
         beginning of FY 2010, initial access requests and        user request ticket for NDC-LAN access. The ticket will be
         approvals for 10 of these individuals were not           issued in the name of the user gaining the access so it is
         provided.                                                easily searchable.

                                                                  TSD is currently in the development phase for a new user
                                                                  account request portal which will provide a secure online
                                                                  environment for managing this process. This new tool will
                                                                  allow requestors the ability to complete and submit LAN and
                                                                  eMail account requests via online web form. Once the
                                                                  request is reviewed and approved by the CBP supervisor, a

                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 57
                                                                                                                                             Appendix B
                                                         Department of Homeland Security
                                                     Information Technology Management Letter
                                                                September 30, 2010

NFR                                                                                                                                 New     Repeat    Risk
                              Condition                                                 Recommendation
#No                                                                                                                                 Issue    Issue   Rating
                                                                    ticket will be automatically generated (bypassing the need of
                                                                    saving/attaching and emailing the TSD) and routed to the
                                                                    appropriate group for processing. A log will be captured and
                                                                    saved in the new system for each approved/denied request
                                                                    for future reference.

 CBP-    CBP has not corrected functionality issues currently       To address this finding, CBP recommends that it continue to:     X                 2
IT-10-   noted in ACS, and routine maintenance is increasingly      �   Modernize its business processes though the
  24     difficult and expensive. Currently, only two vendors           development and deployment of functionality in the
         support ACS, which limits CBP’s ability to obtain              Automated Commercial Environment as it has done
         maintenance services at a reasonable cost. During FY           since 2001.
         2010, CBP spent nearly $12.1 million just to maintain      � Work with           stakeholders, including CBP personnel,
         ACS at its current level of functionality. In addition,        the trade, participating government agencies, the
         CBP is currently re-visiting the amount of funding             Department of Homeland Security and the Congress to
         necessary to complete the implementation of the ACE            prioritize, develop, and deploy functionality that allows
         financial modules and will complete this analysis in FY        CBP to fulfill its mission and meet the needs of its
         2011.                                                          stakeholders.
                                                                    � Seek funds through the budget process that will allow
         Due to these conditions regarding the functionality of
                                                                        CBP to continue to develop and deploy functionality in
         ACS and delayed implementation of ACE, CBP has
                                                                               that will support CBP’s mission and meet the
         not resolved the following known ACS functionality
                                                                        needs of its stakeholders.
         issues:

         �   ACS lacks the controls necessary to prevent, or
             detect and correct excessive drawback claims. The
             programming logic in ACS does not link drawback
             claims to imports at a detailed, line item level. In
             addition, ACS does not have the capability to
             compare, verify, and track essential information on
             drawback claims to the related underlying
             consumption entries and export documentation
             upon which the drawback claim is based. Export
             information is not linked to the Drawback module
             and therefore electronic comparisons of export data
             cannot be performed within ACS. See NFR CBP-
             10-20 for further details.
                           Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                              Page 58
                                                                                                                      Appendix B
                                                      Department of Homeland Security
                                                  Information Technology Management Letter
                                                             September 30, 2010

NFR                                                                                                          New     Repeat    Risk
                           Condition                                        Recommendation
#No                                                                                                          Issue    Issue   Rating
      �   Certain monitoring reports used to monitor
          (review) importer compliance with the in-bond
          process have not been developed and therefore
          importer compliance is not being tracked. In
          addition, in-bonds are not automatically linked to
          the relevant entry or export filings in ACS, which
          leads to extensive manual work to close open in-
          bonds. Finally, ACS does not provide the ability to
          run oversight reports to determine if ports have
          completed all required in-bond post audits and
          exams. See NFR CBP-10-14 for further details.
      �   ACS does not properly account for bond
          sufficiency of claims that involve a continuous
          bond and therefore a claimant can potentially claim
          and receive an accelerated payment that exceeds
          the bond amount on file. As a result, CBP will not
          have sufficient surety against a drawback over
          claiming. See NFR CBP-10-05 for further details.
      �   ACS does not provide summary information of the
          total unpaid assessments for duties, taxes, and fees
          by individual importer (i.e., a sub-ledger) and
          cannot provide reporting information on
          outstanding receivables, the age of receivables, or
          other data necessary for management to effectively
          monitor collection actions. See NFR CBP-10-04
          for further details.
      �   The drawback selectivity function of ACS is not
          programmed to select a statistically valid sample of
          prior drawback claims against a selected import
          entry. See NFR CBP-10-03 for further details.
      �   ACS is programmed to automatically indicate that
          a Port Director certified a refund or drawback
          payment even if the Port Director does not certify a
          given payment. See NFR CBP-10-19 for further
          details.

                        Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                           Page 59
                                                                                                    Appendix B
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2010

NFR                                                                                        New     Repeat    Risk
        Condition                                    Recommendation
#No                                                                                        Issue    Issue   Rating




      Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                         Page 60
                                                                             Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

              Federal Emergency Management Agency




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 61
                                                                                                                                       Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

                                        Notice of Findings and Recommendations – Detail
                                            Federal Emergency Management Agency

NFR                                                                                                                            New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                            Issue    Issue Rating
FEMA-    During FY 2010, FEMA finalized and documented              �   Complete the initial recertification of all existing             X      3
IT-10-   requirements, and initiated automated technical                NACS accounts and related positions initiated in
  01     processes and controls related to the NEMIS Access             April 2010 to ensure that all active NEMIS
         Control System (NACS) Position Re-Approval Project             accounts and their associated privileges are
         (NPRP). Specifically, Enterprise Operations Branch             appropriately authorized; and
         personnel have begun systematically expiring position
         assignments and requiring supervisor reauthorization of    �   Ensure that all NACS accounts and related
         a subset of NACS accounts and related positions                positions are recertified by the user’s appropriate
         progressively over a 180 day period. Due to the                supervisor no less than annually, in accordance
         volume of active positions, FEMA management stated             with DHS policy.
         that the recertification process will recertify all NACS
         positions after the 180 days and is anticipated to be
         completed in FY 2011.
         Thus, while we noted that improvements were made by
         developing and implementing an automated process for
         recertifying all NACS accounts and related positions,
         including those related to NEMIS access, initial
         recertification to review and revalidate all NACS
         accounts and positions has still not been completed.
FEMA-    FEMA has not established an alternate processing site      �   Continue and complete efforts required to establish              X      3
IT-10-   for NEMIS. Additionally, an exception to DHS policy            and implement an alternate processing site for
  02     for the lack of an established alternate processing site       NEMIS according to DHS 4300A.
         as required systems such as NEMIS that are                 �   Until an alternate processing site is established,
         categorized as “high impact” for availability has not          develop and submit an exception for approval in
         been requested by FEMA.                                        accordance with DHS policy, and ensure that
                                                                        compensating controls over the alternate
                                                                        processing site have been implemented and are
                                                                        effective, and documentation of their effectiveness
                                                                        is maintained as auditable records.
FEMA-    The FEMA domain security policy is configured to           �   Configure the FEMA LAN domain security policy                    X      2
IT-10-   enforce activation of a password-protected screensaver         to automatically activate a password-protected
  03     on end-user workstations after 15 minutes of inactivity,
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 62
                                                                                                                                         Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                              New     Repeat Risk
                               Condition                                              Recommendation
#No                                                                                                                              Issue    Issue Rating
         rather than the five minute inactivity threshold required       screensaver on end-user workstations after five
         by DHS policy.                                                  minutes of inactivity, consistent with DHS policy.
                                                                     �   Implement appropriate management controls to
                                                                         ensure timely communication and implementation
                                                                         of existing and future DHS information security
                                                                         policy requirements pertaining to the configuration
                                                                         of FEMA end user workstations, and to
                                                                         periodically assess system controls to determine
                                                                         compliance.
FEMA-    As noted during our FY 2009 audit procedures,               �   Revise the SOP, Monitoring Sensitive Access to                    X      3
IT-10-   weaknesses exist in processes related to logging,               NEMIS, to ensure that it states that the scope of the
  04     monitoring, and retaining audit logs on system                  procedures includes operating systems on all
         software and operating systems supporting NEMIS.                servers within system boundaries as defined in up-
         Specifically, policies and procedures related to the            to-date NEMIS system documentation.
         monitoring of activity on system software and               �   Acquire and deploy appropriate tools on operating
         operating systems supporting NEMIS have not been                systems and servers supporting NEMIS to generate
         revised to include all identified operating systems and         audit trails and records in accordance with FEMA
         IT components that comprise the system boundary for             and DHS policy.
         the NEMIS application.
                                                                     �   Implement the SOP, Monitoring Sensitive Access
                                                                         to NEMIS, by reviewing and retaining audit trails
         Additionally, controls have not been configured and
                                                                         and records in accordance with FEMA and DHS
         appropriately implemented to log, monitor, or retain
                                                                         policy.
         sufficiently detailed audit logs for activity on NEMIS
         operating systems and servers.
FEMA-    As identified during the FY 2009 audit, PARS database       �   Document and implement a formal process to                        X      3
IT-10-   security controls are not appropriately established as          implement appropriate controls to ensure that
  05     noted below:                                                    inactive PARS database accounts are disabled in
          � PARS database accounts are not reviewed to                   accordance with DHS policy.
            identify accounts that have been inactive for 45         �   Configure PARS database accounts in accordance
            days or more, as required by DHS policy for high             with DHS and FEMA requirements for passwords
            impact systems.                                              and authenticator controls, including expiration,
                                                                         reuse, and complexity.
         �   Strong passwords and authenticator controls are         �   Document      and     implement    system-specific
             not implemented for PARS database accounts in               processes for generating and performing reviews of
             accordance with FEMA and DHS policy.                        PARS database audit logs and retaining auditable
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 63
                                                                                                                                Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                                     New     Repeat Risk
                           Condition                                            Recommendation
#No                                                                                                                     Issue    Issue Rating
          Specifically:                                             evidence of review in accordance with FEMA and
                                                                    DHS policy. Additionally, ensure that all DHS
          -   A minimum password length is not set;
                                                                    requirements are met through this process,
          -   Password complexity is not enforced to require        including appropriate supervisory review and
              passwords that include a combination of               segregation of duties principles.
              upper/lowercase letters, numbers, and special     �   Configure PARS database audit logs to capture and
              characters or to restrict the use of dictionary       retain auditable events in accordance with FEMA
              words as passwords;                                   and DHS policy.
          -   Reuse of previous passwords is not prohibited;    �   Further define and establish a formal process for
                                                                    granting initial access and recertifying access
          -   Passwords are not configured to expire or be          specifically to the PARS database that includes
              changed after a pre-determined length of time;        appropriate approval from FEMA management and
              and                                                   requirements for temporary and emergency access,
          -   Accounts are not configured to disable after a        in accordance with DHS guidance.
              pre-determined number of consecutive invalid
              login attempts.                                   Please see NFR FEMA-IT-10-48 for recommendations
                                                                related to the periodic review and assessment of
      �   System-specific policies and procedures have not      security controls in place to ensure that corrective
          been developed for the PARS Oracle database, and      actions are appropriately implemented over identified
          existing policies and procedures inherited from the   security weaknesses.
          IFMIS application operating environment do not
          adequately describe implementation of FEMA
          policies for the generation, review, and retention
          of all required auditable events.
      �   Database audit logs are not configured to capture
          auditable events, including failed login attempts
          and administrator-level actions, as required by
          FEMA and DHS policy.
      �   Although a periodic recertification of PARS
          database access accounts is performed to ensure
          that access is still necessary and appropriate for
          each individual, policies and procedures over the
          management of accounts on the PARS Oracle
          database do not specify requirements for
          performing a periodic recertification of database
                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 64
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                         Issue    Issue Rating
             accounts to validate the continued appropriateness
             of access. Additionally, the FY 2010
             recertification of PARS Oracle database user
             accounts was not completed consistently and in
             accordance       with      FEMA         requirements.
             Specifically, of a selection of recertification forms
             for five PARS database user accounts requested,
             four forms recertified access for contractors
             without documented COTR approval.
         �   Authorization of initial access for the PARS
             database is not consistently completed in
             accordance with FEMA and DHS policy.
             Specifically, of a selection of three PARS database
             access forms requested:
             -   Two user accounts were granted to contractors
                 without the required COTR signature.
             -   One account was identified by Financial
                 Systems Section (FSS) personnel as an IFMIS
                 system account. However, no documentation
                 justifying or authorizing the use of this system
                 account was provided.
FEMA-    During the FY 2010 financial statement audit, we noted      We recommend that FEMA configure all NEMIS                       X      3
IT-10-   that FEMA has made improvements over the                    Oracle databases to ensure compliance with effective
  06     management of NEMIS Oracle database password                DHS and FEMA policy requirements for passwords
         controls for IT Operations database administrator           and authenticator control requirements, including
         accounts, specifically by configuring a 104-day             expiration, reuse, and length and complexity.
         password lifetime.         However, the following
         weaknesses noted in FY 2009 continue to exist in FY
         2010 for the four databases selected for testing:
         �   A password complexity verification function is not
             configured to require a combination of
             upper/lowercase letters, numbers, and special


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 65
                                                                                                                                    Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                         Issue    Issue Rating
             characters.
         �   Reuse of previous passwords is not prohibited.
         �   No minimum password length is enforced.
FEMA-    FEMA has made improvements over the management            We recommend that FEMA configure the IFMIS-                        X      3
IT-10-   of IFMIS-Merged Oracle database passwords by              Merged Oracle database to ensure compliance with
  07     configuring the system to retain a history of the         effective DHS and FEMA policy requirements
         previous ten passwords. However, upon inspection of       regarding the reuse of user passwords.
         additional database password parameters, we
         determined that the password history for the ten
         previous passwords is only retained for 30 days.
         Therefore, after the 30 day timeframe, the password
         history is erased, allowing the user to potentially use
         one of the previous ten passwords.
FEMA-    During the FY 2010 financial statement audit, we          Configure all NEMIS Oracle databases to ensure            X               3
IT-10-   selected four NEMIS Oracle databases for testing and      compliance with effective DHS and FEMA policy
  08     noted that each is configured to lock accounts after      requirements for account lockouts due to failed login
         three consecutive failed login attempts and to remain     attempts.
         locked for 415 seconds (7.5 minutes) before being
         unlocked.
FEMA-    As noted during the FY 2009 audit, the following          �   Revise the SOP for Handling of Oracle Audit Logs               X      3
IT-10-   weaknesses over audit logging controls for the NEMIS          to ensure that procedures over requirements for
  09     Oracle databases continue to exist in FY 2010:                logging and monitoring auditable activities on all
                                                                       NEMIS databases are documented in accordance
         �   The FEMA IT Operations Branch Standard
                                                                       with DHS and FEMA guidance and the process for
             Operating Procedure (SOP) for Handling of
                                                                       audit log review is appropriately implemented for
             Oracle Audit Logs has not been updated.
                                                                       all databases within the NEMIS system boundary.
             Specifically:
                                                                   �   Implement database configurations on all NEMIS
             -   The scope section of the SOP does not list all        databases in accordance with DHS and FEMA
                 Oracle databases identified that comprise the         policy and procedures over required auditable
                 NEMIS data processing environment.                    events and activities.
                                                                   �   Dedicate the appropriate resources and implement
             -   The SOP has not been updated to address all
                                                                       the appropriate automated tools or establish
                 DHS policy requirements surrounding audit
                                                                       manual processes to collect, review, and retain
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 66
                                                                                                                                     Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                          New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                          Issue    Issue Rating
                 trails and activity monitoring. Specifically,         auditable activities on all NEMIS databases, to
                 successful logins, access modifications, highly       ensure compliance with DHS and FEMA policy.
                 privileged user account activity, and changes
                 to user profiles are not required to be logged
                 and reviewed.
             -   The     SOP      specifies    that    database
                 administrators will review Oracle audit
                 records, which is a violation of segregation of
                 duties principles that require an independent
                 review of system activity.
         �   On the four NEMIS databases selected for testing,
             configurations are not fully enabled so that a
             review of audit trails and activity defined by DHS
             policy    requirements     can     be    completed.
             Specifically, only failed login attempts are
             recorded in the audit trails of all database user
             accounts.
FEMA-    As noted during the FY 2009 audit, we determined that     �   Develop, document, fully implement, and                         X      2
IT-10-   weaknesses over the tracking of FEMA contractors              communicate formal policies and procedures,
  10     continue to exist in FY 2010. Specifically:                   according to DHS guidelines and requirements, for
                                                                       centrally tracking all contractors throughout the
         �   FEMA does not have a formal process for centrally         on-boarding, termination, and transfer processes.
             and adequately tracking FEMA contractors                  Ensure policies and procedures include:
             throughout the on-boarding, termination, and
                                                                       •   The assignment of roles and responsibilities to
             transfer processes. As a result, FEMA could not
                                                                           appropriate     FEMA      management       and
             provide a complete listing of all contractors
                                                                           stakeholders.
             working for FEMA.
                                                                       �   Procedures to ensure that COTRs notify the
                                                                           FEMA OCIO of changes in contractors’ status,
         �   The process established for notifying FEMA
                                                                           including separation or transfer, so that
             Office of Chief Information Officer (OCIO)
                                                                           accounts can be disabled/removed or account
             management, including IT system administrators,
                                                                           profiles can be appropriately modified in the
             of changes in contractor's status, so that accounts
                                                                           required timeframe.
             can be disabled/removed or account profiles can be
             appropriately modified in the required timeframe,         �   Establishment of controls for periodically

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 67
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
             is not effective or comprehensive. Specifically, no            monitoring the effectiveness of the process to
             formal requirements exist for Contracting Officer’s            ensure compliance with policy.
             Technical Representatives (COTRs) to notify the        �   Regularly distribute a listing of terminated
             OCIO of separating contractors.                            contractor personnel to information system
                                                                        administrators so they can remove user access
                                                                        timely.
FEMA-    While FEMA has made improvements over the review           �   Revise and implement policies and procedures that               X      3
IT-10-   of IFMIS-Merger application activity by documenting            document requirements for configuring, retaining,
  11     responsibilities for performing periodic reviews of            and reviewing audit trails for the IFMIS-Merger
         super user account activities, the following weaknesses        application and database, including defined roles
         noted in FY 2009 continue to exist in FY 2010:                 and responsibilities, in accordance with DHS and
                                                                        FEMA policy.
         �   Existing policies and procedures, including FEMA
             Interim CFO Directive 2600-21, IFMIS User              �   Implement configurations on the IFMIS-Merger
             Access and Termination, and FEMA SOP 2000-                 application and database to ensure that audit logs
             002, Monitoring of IFMIS Database Audit Log, do            record required auditable events and activities, in
             not require the generation, review, or retention of        accordance with DHS and FEMA policy.
             audit logs for all activities required by FEMA and     �   Implement appropriate management controls to
             DHS policy.                                                ensure timely communication and implementation
                                                                        of existing and future DHS information security
         �   Failed database (Oracle) and application (UNIX)            policy requirements pertaining to the configuration
             login attempts and activity performed by                   of audit logs on the IFMIS-Merger application and
             application users with the “super user” role remain        database, and to periodically assess system
             the only forms of activity logged and monitored for        controls to determine compliance.
             IFMIS-Merger. Other types of activity required by
             FEMA and DHS policy, including successful
             logins, access modifications, and changes to user
             profiles, are not logged or monitored.
         �   While we noted that logging of users accessing or
             attempting to access the IFMIS-Merger application
             is enabled and distributed to appropriate
             independent reviewers, evidence of review of
             application login attempts is not documented.
         Additionally, we noted the following weaknesses
         related to reviews of activity of super users within the

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 68
                                                                                                                                    Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                         Issue    Issue Rating
         IFMIS-Merger application:
         �   Activity of users with elevated privileges is logged
             and reviewed on a weekly basis. However, FEMA
             policy requires that audit records be captured and
             reviewed at least every three days.
         �   Review of super user activity is performed by an
             individual with super user privileges within the
             application, in conflict with segregation of duties
             principles.
FEMA-    The following weaknesses noted in FY 2009 continued        There is no recommended corrective action specific to             X      3
IT-10-   to exist in FY 2010:                                       this finding because of the decommissioning of G&T
  12                                                                IFMIS in June 2010. Any G&T IFMIS accounts which
         �   G&T IFMIS application user accounts were not           now exist on the IFMIS – Merged instance will need to
             consistently approved or authorized prior to initial   be included in recertification efforts that will be
             account creation or modification of account            performed by FEMA as corrective action to remediate
             privileges. Of the 25 active application users         NFR FEMA-IT-10-14, which cites a lack of consistent
             selected for testing, FEMA was unable to provide       recertification of Core/Merged IFMIS accounts, to
             adequate documented evidence that creation of, or      ensure that all migrated G&T IFMIS accounts are
             modifications to, account privileges for 22            appropriately authorized.
             accounts were properly authorized. Specifically:
             �   Documentation for 10 accounts did not
                 evidence that access was authorized by the
                 Office of the Chief Financial Officer (OCFO).
             �   Documentation for 11 accounts indicated that
                 access was authorized by the OCFO after the
                 modifications to the account privileges were
                 performed.
             �   Documentation for one account was not
                 available.
         �   G&T IFMIS Oracle database user accounts were
             not consistently approved or authorized prior to
             initial account creation. Specifically, of the eight
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 69
                                                                                                                                       Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                                Condition                                              Recommendation
#No                                                                                                                            Issue    Issue Rating
             active database user accounts selected for testing,
             FEMA was unable to provide documented
             evidence that the initial account creation of two
             accounts in FY 2010 was authorized.
         While KPMG noted that the planned merger of the
         G&T IFMIS and Core IFMIS instances occurred in
         February 2010, and the existing G&T IFMIS Oracle
         database and application server was decommissioned
         in June 2010, the weaknesses over the financial data
         existed for the majority of the fiscal year.
FEMA-    As noted during the FY 2009 audit, weaknesses in              There is no recommended corrective action specific to             X      3
IT-10-   G&T IFMIS Oracle database audit logging controls              this finding because of the decommissioning of G&T
  13     continued to exist in FY 2010. Specifically, Oracle           IFMIS in June 2010.
         database audit trails were not configured to capture any
         activity, including failed login attempts or
         administrator-level actions as required by FEMA and
         DHS guidance.

         While we noted that the planned merger of the G&T
         IFMIS and Core IFMIS instances occurred in February
         2010 and the existing G&T IFMIS Oracle database was
         decommissioned in June 2010, the weaknesses over the
         financial data existed for the majority of the fiscal year.
FEMA-    During the FY 2010 audit procedures, we noted that            �   Dedicate resources to fully implement FEMA and                X      3
IT-10-   weaknesses which existed in FY 2009 related to the                DHS requirements for a recertification of all
  14     recertification of IFMIS application accounts continue            IFMIS-Merger application accounts at least
         to exist. Specifically, although the Core IFMIS                   annually, including revoking access for any
         application user accounts were recertified in January             accounts not currently in compliance with the
         2010 prior to the merge of the G&T and Core IFMIS                 annual recertification.
         applications, we determined that the recertification of       �   Identify and implement appropriate monitoring
         the Core IFMIS accounts was not properly completed.               controls to ensure continued compliance with
         Of the 25 active application accounts selected, FEMA              recertification requirements for the IFMIS-Merger
         was unable to provide documented evidence that three              application.
         of the accounts were recertified by the system owner to

                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 70
                                                                                                                                     Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                          New     Repeat Risk
                               Condition                                            Recommendation
#No                                                                                                                          Issue    Issue Rating
         validate the continued appropriateness of the account,
         as required by FEMA and DHS policy. Furthermore,
         these accounts then remained on the IFMIS-Merger
         application after the merger of the applications
         occurred.
FEMA-    During the FY 2010 audit, we noted that the                There is no recommended corrective action specific to              X      3
IT-10-   weaknesses over the recertification of G&T IFMIS           this finding because of the decommissioning of G&T
  15     application and Oracle database users noted in FY          IFMIS in June 2010. Any G&T IFMIS accounts
         2009 continued to exist. Specifically, a management        which now exist on the IFMIS – Merged instance will
         review to validate the appropriateness of G&T IFMIS        be included in recertification efforts that need to be
         application and Oracle database user accounts was not      performed by FEMA as corrective action to remediate
         formally implemented or performed by the Office of         NFR FEMA-IT-10-14, which cites a lack of consistent
         the Chief Financial Officer/Financial System Section       recertification of Core/Merged IFMIS accounts.
         (OCFO-FSS) this fiscal year. We noted that the
         planned merger of the G&T IFMIS and Core IFMIS
         instances occurred in February 2010, and the existing
         G&T IFMIS Oracle database and application server
         was decommissioned in June 2010. However, prior to
         the migration of G&T accounts to the IFMIS – Merged
         instance in February 2010, a recertification of G&T
         IFMIS application users did not occur. Therefore, the
         weaknesses over the recertification of users with access
         to G&T IFMIS financial data existed for the first two
         quarters of the fiscal year.
FEMA-    The merger of Core IFMIS and G&T IFMIS was                 There is no recommended corrective action specific to              X      2
IT-10-   performed in February 2010, and the G&T IFMIS              this finding because of the decommissioning of G&T
  16     application and database server were formally              IFMIS in June 2010.
         decommissioned in June 2010. While an ATO was
         granted for the IFMIS-Merger system by the FEMA
         Chief Information Officer on June 4, 2010, prior to the
         completion of the merged instance, a C&A had not
         been performed over the G&T IFMIS instance.
         Consequently, as noted during the prior year FY 2009
         audit, G&T IFMIS operated without an ATO prior to
         its decommissioning. In addition, we determined that
         during the time the system was operational, neither an
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 71
                                                                                                                                       Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                            Issue    Issue Rating
         Information System Security Officer (ISSO) nor a
         Designated Authorizing Authority (DAA) had been
         formally designated by FEMA management for G&T
         IFMIS.
FEMA-    During the FY 2010 integrated audit, we noted the           �   Develop and implement policies and procedures          X               2
IT-10-   following weaknesses regarding specialized training             requiring initial and periodic specialized training
  17     for FEMA employees and contractors with significant             for individuals with significant information
         information security responsibilities:                          security responsibilities.
         �   FEMA has not formally documented or                     �   Formally identify specific roles and positions
             implemented policies and procedures to meet the             possessing significant information security
             requirements over specialized training for FEMA             responsibilities that are subject to specialized
             employees and contractors with significant                  training requirements.
             information security responsibilities in accordance     �   Develop and implement a mechanism for tracking
             with DHS policy.                                            and monitoring compliance with specialized
                                                                         training requirements for individuals with
         �   With the exception of ISSOs, FEMA has not                   significant information security responsibilities.
             formally identified all individuals or positions with
             significant information security responsibilities
             subject to specialized training requirements.
         �   FEMA does not track or monitor completion of
             specialized training for FEMA personnel with
             critical IT roles.
FEMA-    In FY 2010, we noted that the NEMIS SSP was                 �   Fully identify all hardware and software                        X      2
IT-10-   updated in November 2009. However, we determined                components of the NEMIS platform and update
  18     that the following weaknesses continue to exist:                appropriate NEMIS system documentation,
                                                                         including the SSP, to reflect the current operating
         �   NEMIS         system     boundaries,  including
                                                                         environment as required by DHS policy and NIST
             identification of all hardware and software
                                                                         guidance.
             elements that comprise the NEMIS general support
             system and subsystems, have not been fully              �   Establish and implement a formal process for
             defined.                                                    periodically reviewing and assessing system
                                                                         documentation to ensure that system boundaries
         �   FEMA has not documented the assignment of
                                                                         and hardware and software components are
             FEMA personnel with security responsibilities for
                                                                         accurately reflected.
             the modules and major applications that are
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 72
                                                                                                                                       Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                            Issue    Issue Rating
             classified as NEMIS subsystems within the current       �   Formally assign and document security
             NEMIS SSP.                                                  responsibilities of FEMA personnel for all
                                                                         components of NEMIS, including all identified
                                                                         modules and major applications.

FEMA-    During the FY 2010 integrated audit, we noted the           �   Formally establish roles and responsibilities          X               3
IT-10-   following    weaknesses    regarding    configuration           related to oversight and implementation of
  19     management over network devices such as firewalls,              configuration management policies and procedures
         routers, and switches that support in-scope financial           for network devices, including firewalls and
         systems:                                                        routers, supporting financial applications in
                                                                         accordance with DHS and FEMA requirements.
         �   Comprehensive configuration baselines identifying
             all relevant configuration items (CIs) within the       �   Revise and implement configuration management
             scope of IFMIS and NEMIS have not been                      policies and procedures over documenting and
             documented.                                                 maintaining current baseline configurations for
                                                                         network devices supporting financial applications,
                                                                         including IFMIS and NEMIS, to ensure DHS and
         �   FEMA configuration management (CM) policies                 FEMA requirements are adequately addressed and
             and procedures require the implementation of                configuration baselines are comprehensively
             Configuration Status Accounting (CSA), which                documented by FEMA. Additionally, policies and
             includes recording approved configuration
                                                                         procedures should include guidance over
             documentation, performing Configuration Audit               requirements such as documentation of baselines,
             (CA), and documenting physical configuration                periodic review and auditing, and approval of
             audits to assess conformance with established
                                                                         baseline changes for network devices.
             baselines. However, requirements for the
             frequency, documentation, and retention of results      �   Perform required configuration management
             of these activities have not been defined in existing       activities, including periodic Configuration Status
             FEMA policies or procedures. Additionally, the              Accounting and Configuration Audit activities, for
             required CSA reports and CAs have not been                  network devices supporting financial applications,
             performed for IFMIS or NEMIS.                               including IFMIS and NEMIS, and retain auditable
                                                                         evidence of these activities as required by FEMA
                                                                         policy.
FEMA-    Conditions noted in FY 2009 related to weaknesses           �   Update the NEMIS IT Contingency Plan in                         X      2
IT-10-   over the documentation and testing of the NEMIS                 accordance with DHS and NIST requirements for
  20     contingency plan continue to exist in FY 2010, as               systems categorized at the high impact availability
         follows:                                                        objective. Additionally, ensure that the
                                                                         Contingency Plan comprehensively addresses the
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 73
                                                                                                                                       Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                            Issue    Issue Rating
         �   The NEMIS IT Contingency Plan does not                   numerous sub-systems within NEMIS so that
             adequately     and    comprehensively   include          detailed information exists over the current system
             information required by DHS policy for systems           architecture, critical processing priorities, detailed
             with high impact availability. For example, we           recovery procedures and other required
             noted the following weaknesses:                          components in accordance with DHS guidance.
                                                                  �   Conduct and document annual tests of the NEMIS
             �   Detailed information over NEMIS system               Contingency Plan that address all critical phases of
                 architecture, such as the database and server        the plan, and update the Contingency Plan with
                 names, as well as information over the various       lessons learned, as necessary and in accordance
                 modules of NEMIS, has not been appropriately         with DHS and NIST requirements.
                 documented to reflect the current operating
                 environment.
             �   The plan does not sufficiently include details
                 necessary to fully restore NEMIS and
                 dependent subsystems in the event of an
                 emergency.
             �   The contingency plan does not specify critical
                 roles, system resources, or system/application
                 recovery priorities in sufficient detail to
                 distinguish between the various modules
                 within NEMIS.
             �   The Business Impact Analysis (BIA) included
                 in the Contingency Plan was completed in
                 2004 and is not adequately documented.
         �   Testing of the NEMIS IT contingency plan has not
             been performed in the past 12 months in
             accordance with DHS policy.
FEMA-    We performed a comparison of active IFMIS-Merger,        �   Identify the root cause(s) associated with separated               X      3
IT-10-   G&T IFMIS, and NEMIS Access Control System                   employees remaining on FEMA information
  21     (NACS) accounts, as well as individuals with Virtual         systems.       As appropriate, revise existing
         Private Network (VPN) remote access privileges,              procedures or develop additional procedures over
         against a list of FEMA employees that had separated          removal of separated user access to IT systems to
         from employment since October 1, 2009 to determine           address weaknesses that contribute to untimely
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 74
                                                                                                                                    Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                         Issue    Issue Rating
         if any separated employees retained active accounts on        removal of separated individuals from the systems.
         the applications or remote access to the FEMA             �   Ensure that procedures are implemented
         network. The following weaknesses were identified:            consistently to remove system and application
                                                                       accounts for all separated users immediately upon
         �   11 IFMIS-Merger user accounts remained active
                                                                       notification of separation, in accordance with
             and unlocked after the account holder’s separation
                                                                       FEMA, DHS and NIST guidance.
             from FEMA.
         �   3 G&T IFMIS user accounts remained active and          No corrective action specific to the portion of this
             unlocked after the account holder’s separation        finding related to G&T IFMIS will be provided
             from FEMA.                                            because of the decommissioning of that system in June
         �   164 NACS accounts with NEMIS positions                2010.
             assigned at the time of our test work remained
             active and unlocked after the account holder’s
             separation from FEMA.
         �   33 individuals retained the ability to access the
             FEMA network remotely due to active VPN
             remote access privileges after the account holder’s
             separation from FEMA. All 33 individuals
             additionally retained an active NACS account as
             described above, thus allowing them to potentially
             access NEMIS as well.
FEMA-    In FY 2010, we noted that the following conditions        Configure the FEMA LAN to ensure compliance with                   X      3
IT-10-   identified in FY 2009 related to FEMA LAN accounts        DHS and FEMA policy requirements for passwords
  22     continue to exist:                                        and authenticator control requirements, including
                                                                   expiration, reuse, and length and complexity.
         �   The FEMA LAN domain security policy does not
             enforce password requirements in accordance with      Identify and implement appropriate monitoring
             DHS policy. Specifically:                             controls to ensure that all accounts on the FEMA LAN
                                                                   are in compliance with DHS requirements for
             �   The FEMA LAN does not enforce a password
                                                                   authorization. Additionally, ensure that where
                 history or prevent reuse of passwords.
                                                                   appropriate policies and procedures are further
             �   The FEMA LAN does not enforce complexity          developed and/or revised to ensure consistent
                 requirements, including password length or the    implementation and include requirements for all
                 use of mixed-case alphanumeric and special        accounts on the FEMA LAN, including generic, shared
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 75
                                                                                                                                      Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
              characters, to ensure that strong passwords are      group, service, and LAN end-user accounts not
              used.                                                included in the NACS.
      �   FEMA was unable to provide evidence of account           Develop and implement a formal process for
          authorization for 10 Active Directory (AD)               performing a periodic recertification of all FEMA LAN
          individual user accounts created in FY 2010.             accounts which defines requirements and addresses
                                                                   accounts not included during the planned
      �   While policies and procedures over the                   recertification of NEMIS application access.
          authorization of generic, shared group, and service
                                                                   Evaluate and, if appropriate, revise existing procedures
          accounts on the FEMA LAN have been finalized,
                                                                   over removal of separated user access to the FEMA
          approval of these accounts is not consistently
                                                                   LAN to ensure the timely removal of separated
          documented according to policy. Specifically, of a
                                                                   individuals from the network.
          selection of 45 generic, group, and service LAN
          accounts created during FY 2010:                         Ensure that procedures are implemented consistently to
                                                                   remove FEMA LAN accounts for all separated users
          �   2 did not have a clearly defined business need
                                                                   immediately upon notification of separation, in
              or justification documented;
                                                                   accordance with FEMA, DHS and NIST guidance.
          �   26 did not have IT Security or system owner
              approval documented;
          �   19 were created          prior    to   supervisory
              certification; and
          �   2 did not have any authorizing documentation
              provided for our review.
      �   FEMA has          not established procedures and
          implemented        a process over the periodic
          recertification   of FEMA LAN accounts to ensure
          that access is    still necessary and appropriate for
          each account      as required by FEMA and DHS
          policy.
      �   We compared a listing of active FEMA LAN/AD
          accounts against a list of FEMA employee
          separations that had occurred since October 1,
          2009 and determined that 85 accounts remained
          active and unlocked after the account holder’s
                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 76
                                                                                                                                        Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                             New     Repeat Risk
                               Condition                                              Recommendation
#No                                                                                                                             Issue    Issue Rating
             separation from FEMA.
FEMA-    In FY 2010, we determined that while change                 We recommend that FEMA OCIO and NFIP                                 X      2
IT-10-   management procedures have been developed and               management finalize and implement comprehensive
  23     implemented for applications hosted by the NFIP LAN,        patch management policies and procedures for the
         including Traverse, the documented procedures do not        NFIP LAN supporting Traverse, in accordance with
         specifically address patch management policies and          DHS policy.        Additionally, FEMA and NFIP
         procedures for the NFIP LAN in accordance with DHS          management should ensure that these procedures
         requirements. Specifically, controls over the approval,     include requirements for authorizing, testing, and
         testing, and deployment of operating system patches         approving patches to be implemented into production
         are not addressed.                                          and responding to DHS Security Operations Center and
                                                                     DHS EOC notifications to ensure compliance with the
                                                                     timely implementation of required patches.
FEMA-    During FY 2010, we noted that weaknesses over the           We recommend that NFIP continue to work with the                     X      2
IT-10-   Certification and Accreditation (C&A) of NFIP               FEMA OCIO to complete the recertification and
  24     continue to exist. Specifically,                            accreditation of the NFIP Legacy Services System
                                                                     (LSS), including documentation of all required artifacts
         �   FEMA approved Conditional ATOs for the                  in accordance with applicable DHS policies and
             NFIP/LSS on May 22, 2009 and August 20, 2010            Federal guidance.
             for two one-year periods. However, we noted that
             in the absence of a full ATO, DHS policy allows
             “interim” ATOs only for systems that are either
             under development testing or in the prototype
             phase of development, not operational systems
             such as the NFIP/LSS. Additionally, “interim”
             ATOs cannot exceed two consecutive six-month
             periods.
         �   During the initial Conditional ATO period that
             began on May 22, 2009, FEMA did not complete
             C&A efforts, including the risk assessment and
             security testing and evaluation (ST&E) needed to
             fully assess risk associated with the system, so that
             a full ATO could be issued. Consequently, from
             May 2010, when the initial Conditional ATO
             expired, through August 2010 when the second
             Conditional ATO was approved, the system

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 77
                                                                                                                                         Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                              New     Repeat Risk
                               Condition                                              Recommendation
#No                                                                                                                              Issue    Issue Rating
             operated without any authorization.
         �   During our integrated audit fieldwork period, NFIP
             was unable to provide us with evidence that C&A
             activities required to be performed for a full ATO
             to be granted had been completed.
FEMA-    During the FY 2010 FEMA Integrated Audit, we noted          �   Revise and implement current policies and                         X      3
IT-10-   that the following conditions related to management of          procedures for documenting, reviewing, and
  25     FEMA VPN accounts continue to exist:                            approving all remote access accounts to the FEMA
                                                                         LAN including VPN and iPass access.
         �   The VPN Rules of Behavior for Users Behind
                                                                         Specifically, roles and responsibilities should be
             Corporate Firewalls, dated December 5, 2002,
                                                                         defined to ensure that sufficient resources are
             requires individual’s manager approval and
                                                                         dedicated to appropriately authorize accounts on
             Enterprise Service Desk (ESD) validation of all
                                                                         behalf of the system owner or a designee prior to
             VPN Access Request forms prior to granting
                                                                         granting remote access, according to FEMA and
             access. However, approval by the system owner or
                                                                         DHS policy.
             a designated representative is not required.
                                                                     �   Develop and implement policies and procedures to
         �   VPN Access Request forms include an approval                perform a periodic recertification of all remote user
             block titled “For FEMA OCS Use Only,” and the               access and retain auditable records as evidence that
             form states that all VPN requests must be approved          recertifications are conducted and completed in
             by the FEMA Office of Cyber Security (OCS).                 accordance with DHS and FEMA policy.
             However, OCS does not currently exist as a FEMA
             Division due to FEMA’s reorganization.
             Consequently, existing policies and procedures do
             not reflect the current security management
             structure at FEMA nor do they assign
             responsibility to a current entity within the agency.
         �   A periodic recertification of FEMA VPN access
             accounts is not currently performed to ensure that
             remote access is still necessary and appropriate for
             each individual.
         �   Of the selection of 45 VPN Access Request forms
             reviewed:
             �   Two did not specify the date that access was
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 78
                                                                                                              Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                   New     Repeat Risk
                           Condition                                   Recommendation
#No                                                                                                   Issue    Issue Rating
              approved by the requestor’s supervisor.
          �   Three were granted supervisory approval after
              VPN access was established for the user.
          �   The section of each form that required “OCS”
              level review and approval was not completed.
      Additionally, we conducted further testwork over
      remote access granted through the iPass utility, which
      is used to provide dial-up access to the FEMA network
      via the VPN gateway. This access is managed through
      a separate access authorization process from VPN.
      During our testwork, we noted the following new
      conditions in FY 2010 related to management of access
      to iPass:
      �   While iPass User Agreement forms require Section
          Chief (or equivalent) approval and IT certification
          for iPass remote access, requests are not approved
          by the system owner or a designated
          representative, as required by DHS policy.
          Additionally, policies and procedures do not exist
          related to the granting and management of users of
          the iPass remote dial-up utility.
      �   Of the selection of 45 iPass User Agreement forms
          reviewed:
          �   Three did not specify the date that access was
              approved by the requestor’s section chief (or
              equivalent).
          �   One was granted supervisory approval after
              VPN access was established for the user.
          �   One was granted supervisory approval by the
              same individual that the requested VPN
              account was for, indicating a violation of
                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 79
                                                                                                                                    Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                         Issue    Issue Rating
                 segregation of duties in the management
                 review and approval of information system
                 access.
FEMA-    The following weaknesses noted in FY 2009 continue         �   Identify and implement appropriate monitoring                 X      3
IT-10-   to exist in FY 2010:                                           controls to ensure compliance with initial
  26                                                                    authorization and modification requirements for
         �   IFMIS-Merger application user accounts were not
                                                                        accounts on the IFMIS-Merger application.
             properly approved or authorized. Specifically, of
             the 25 active application users selected for review,   �   Document policies and procedures over the
             FEMA was unable to provide documented                      periodic recertification of all accounts on the
             evidence that initial account creation or the most         IFMIS-Merger database.
             recent modifications to account privileges for 6       �   Dedicate resources to fully implement FEMA and
             accounts were authorized.                                  DHS requirements for a recertification of all
                                                                        IFMIS-Merger database accounts at least annually,
         �   Policies and procedures over the management of             including revoking access for any accounts not
             accounts on the IFMIS-Merger Oracle database do            currently in compliance with the annual
             not specify requirements for performing a periodic         recertification.
             recertification of database accounts to validate the   �   Identify and implement appropriate monitoring
             continued appropriateness of access.                       controls to ensure compliance with initial
         �   IFMIS-Merger Oracle database user accounts were            authorization,    modification,   and    periodic
             not properly approved or authorized. Specifically,         recertification requirements for accounts on the
             of the eight active database users selected for            IFMIS-Merger database.
             review, approval for six user accounts was not
             documented prior to creation of the accounts.
             Approval was not documented for these accounts
             until after the audit request for documentation was
             received.
         �   The FY 2010 recertification of IFMIS-Merger
             Oracle database user accounts was neither
             completed consistently nor in accordance with
             FEMA policy. Specifically, we requested a
             selection of recertification forms for 8 IFMIS-
             Merger database user accounts and determined that
             3 were granted to contractors, but COTR approval

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 80
                                                                                                                                   Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                        New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                        Issue    Issue Rating
             was not documented.
FEMA-    As noted during the FY 2009 audit, the following          There is no recommended corrective action specific to             X      3
IT-10-   weaknesses in G&T IFMIS Oracle database user              this finding because of the decommissioning of G&T
  27     account password controls continued to exist in FY        IFMIS in June 2010.
         2010:
         �   We determined that FEMA performed manual
             reviews of inactive G&T IFMIS database accounts
             on a monthly basis to disable accounts which had
             not been used in the prior 90 days. However, since
             G&T IFMIS is categorized as a high impact
             system, reviews are required to disable accounts
             that have been inactive for 45 days, according to
             DHS policy.
         �   The G&T IFMIS database account security policy
             did not enforce password requirements in
             accordance with DHS policy. Specifically:
             �   The database did not enforce a password
                 history or prevent reuse of passwords.
             �   The database did not enforce complexity
                 requirements, including definition of a
                 password verification function to ensure strong
                 passwords are used. Specifically, password
                 length and requirements over the use of mixed-
                 case, alphanumeric and special characters to
                 enforce restrictions over the use of dictionary
                 words, are not defined.
             �   The database did not enforce password
                 expiration after a predetermined length of
                 time.
         �   FEMA had not established a formal process for
             approving emergency and temporary access to the

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 81
                                                                                                                                   Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                        New     Repeat Risk
                              Condition                                           Recommendation
#No                                                                                                                        Issue    Issue Rating
             G&T IFMIS database that is compliant with DHS
             requirements. Specifically, emergency and
             temporary access to the database for individuals
             with elevated privileges, including access for
             contractor development personnel, is approved by
             the Financial Systems Section (FSS) Chief and/or
             his/her staff, not by the FEMA CISO or a designee,
             as required by DHS policy. Additionally, a formal
             process specifically addressing procedures for the
             granting of temporary access to the database and
             ensuring that access is removed in a timely manner
             was not documented within existing IFMIS access
             control policies and procedures. Furthermore, we
             determined that through this process the G&T
             IFMIS Oracle database access was granted to
             contracted development personnel in order to
             implement database changes to G&T IFMIS,
             which continues to conflict with segregation of
             duties principles.
         While we noted that the merger of the G&T IFMIS and
         Core IFMIS instances occurred in February 2010 and
         the existing G&T IFMIS Oracle database was
         decommissioned in June 2010, the weaknesses noted
         existed for the majority of the fiscal year.
FEMA-    Weaknesses noted in FY 2009 over C&A of the FEMA         �   Continue to fully identify and decouple all                    X      3
IT-10-   LAN and subsystems that host in-scope financial              components of the FSN-2 platform, including
  28     applications continue to exist in FY 2010. During our        regional LANs and General Support Systems,
         FY 2010 audit, we noted that FEMA has classified             which host or support IFMIS and NEMIS, and
         regional LANs as subsystems and included them within         perform all required Certification & Accreditation
         the defined system boundary of the FEMA Switched             activities over each component as required by
         Network (FSN)-2. We noted the following weaknesses           DHS policy and NIST guidance.
         in the C&A of the FSN-2 General Support System           �   Formally assign and document security
         (GSS) that includes the FEMA LANs:                           responsibilities for all components of the FSN-2
         �   The FSN-2 GSS C&A was not completed in                   platform, including regional LANs and General
                                                                      Support Systems, which host or support IFMIS
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 82
                                                                                                              Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                   New     Repeat Risk
                           Condition                                         Recommendation
#No                                                                                                   Issue    Issue Rating
          compliance with DHS and NIST requirements and         and NEMIS.
          has not been updated to accurately reflect the
          current GSS environment. Specifically:
          �   The authorizing officials and individuals noted
              as responsible for the security roles for
              multiple regional LANs and subsystems are
              not accurately reflected in the SSP included in
              the C&A package as employees with specified
              roles no longer work for FEMA in the capacity
              noted.
          �   While the Maryland National Processing
              Service Center is identified as a subsystem in
              the overarching FSN-2 GSS C&A package
              SSP, C&A activities have not been performed
              over this subsystem.
          �   DHS policy requires annual testing of IT
              contingency plans for information systems
              with a high impact availability categorization,
              such as the FSN-2 GSS. However, the most
              recent test of the FSN-2 IT contingency plan
              was performed and documented during FY
              2008.
          �   DHS policy requires that risk assessments be
              conducted for information systems no less
              frequently than every three years. However,
              the most recent ST&E was documented during
              FY 2006.
      �   The most recent ATO granted by the FEMA CIO
          expired on January 22, 2010, and the FSN-2 GSS
          is currently operating without authorization from
          FEMA management.
      �   Although the C&A package references various
                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 83
                                                                                                                                 Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                      New     Repeat Risk
                              Condition                                           Recommendation
#No                                                                                                                      Issue    Issue Rating
             subsystems supporting and hosting IFMIS and
             NEMIS, FEMA management was unable to
             identify and confirm the FSN-2 subsystems
             (including regional LANs) that host the production
             servers for NEMIS and IFMIS applications.
             Consequently, we were unable to test the hosting
             environment supporting financial applications in-
             scope for the FY 2010 environment.
FEMA-    During the FY 2009 FEMA Integrated Audit, we noted       �   Formally designate an ISSO for the PARS web                  X      3
IT-10-   that a C&A of PARS had not been performed and the            server and application environment.
  29     system had not received an ATO since becoming            �   Certify and accredit the PARS web server and
         operational in the FEMA environment.        While            application environment, including documentation
         improvements were noted in this condition for FY             of all required artifacts in accordance with
         2010, we determined that the following C&A                   applicable DHS policies and Federal guidance.
         weaknesses over PARS continue to exist:
         In FY 2010, the PARS database was included within
         the accreditation boundary for the IFMIS-Merger
         system, which was granted an ATO in June 2010.
         However, prior to that date, the PARS database was not
         certified and accredited and consequently, operated
         without an ATO for the majority of FY 2010.
         �   All other system components of PARS, including
             the web and application servers, continued to
             operate without an ATO, and evidence that C&A
             efforts for these components of PARS were
             completed and approved by FEMA management
             could not be obtained from FEMA for review
             during the FY 2010 audit.
         �   At the time of our test procedures, an ISSO had
             not been formally designated by FEMA
             management for the PARS web server and
             application. While we were informed by FEMA IT
             Security Management that the PARS database was
             administered by an ISSO under the Core IFMIS,
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 84
                                                                                                                                    Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                         Issue    Issue Rating
             we determined that no formal designation of this
             responsibility was assigned until FY 2010 because
             the PARS database was not included in the C&A
             boundary for Core IFMIS and no additional
             designation letters were issued. As a result, the
             PARS database did not have a formal designation
             of security responsibilities for the majority of the
             fiscal year.
FEMA-    As noted during the FY 2009 audit related to Core          We recommend that FEMA document and implement a                   X      3
IT-10-   IFMIS, we determined that weaknesses over the              formal process for granting emergency and temporary
  30     authorization of emergency and temporary access to         access to the IFMIS-Merger database that includes
         the IFMIS – Merger Oracle database continue to exist       guidance over all types of accounts authorized for
         in FY 2010. Specifically, FEMA has not established a       temporary and emergency access, segregation of duties
         formal process for approving emergency and                 considerations, and appropriate approval from FEMA
         temporary access to the IFMIS-Merger database that is      management in accordance with DHS policy.
         compliant with DHS requirements. During our FY
         2010 testing, we determined that emergency and
         temporary access to the database for individuals with
         elevated privileges, including access for contractor
         development personnel, is approved by the Financial
         Systems Section (FSS) Chief and/or his/her staff, not
         by the FEMA CISO or a designee, as required by DHS
         policy. Additionally, a formal process specifically
         addressing procedures for the granting of temporary
         access to the database and ensuring that access is
         removed in a timely manner has not been documented
         within existing IFMIS-Merger access control policies
         and procedures.

         Furthermore, we determined that through this process
         the IFMIS-Merger Oracle database access is granted to
         contracted development personnel in order to
         implement database changes to IFMIS-Merger, which
         continues to conflict with segregation of duties
         principles.

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 85
                                                                                                                                          Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

NFR                                                                                                                               New     Repeat Risk
                               Condition                                               Recommendation
#No                                                                                                                               Issue    Issue Rating
FEMA-    During our unannounced enhanced security testing             We recommend that FEMA formally approve and                           X      3
IT-10-   performed during the FY 2010 integrated audit, we            implement procedures for managing security incidents.
  31     noted that the FEMA Security Operation Center (SOC)          Specifically, procedures should clearly outline roles
         proactively tracked and reported incidents related to        and responsibilities required to maintain a continuous
         social engineering attempts performed at FEMA                incident response capability and define processes
         headquarters and regional offices through implemented        related to the identification, evaluation, and resolution
         ad hoc processes. However, weaknesses noted during           of all security incidents, as required by DHS and
         the FY 2009 integrated audit related to FEMA’s               FEMA policy.
         incident response program continue to exist in FY
         2010.

         Specifically, standard operating procedures for the
         management of FEMA IT security incidents have not
         been formally approved and implemented by FEMA
         management. Consequently, FEMA has not
         implemented DHS policy requirements to establish a
         documented and formally approved component-level
         incident response framework or capability, including
         roles, responsibilities, and processes related to the
         identification, evaluation, and resolution of all security
         incidents.
FEMA-    In FY 2009, we identified weaknesses over FEMA’s             We recommend that FEMA further dedicate resources                     X      3
IT-10-   patch management program as it relates to Core IFMIS         to document and fully implement comprehensive
  32     and G&T IFMIS. During the FY 2010 integrated audit,          system-specific patch management procedures to
         we determined that while FEMA has finalized and              ensure that IFMIS-Merger operating system and
         formally implemented the FEMA Office of the Chief            database patches are tested and deployed in a timely
         Information Officer (OCIO) Standard Operating                manner, in accordance with DHS and FEMA policy.
         Procedure (SOP) for Vulnerability Patch Management,
         the SOP was not approved until April 8, 2010.                No corrective action specific to the portion of this
         Consequently, FEMA did not have a formal patch               finding related to G&T IFMIS will be provided
         management procedure applicable to the IFMIS                 because of the decommissioning of that system in June
         environments for a majority of the fiscal year. Given        2010.
         the timing of the SOP’s approval, the patch
         management procedures could not be implemented
         when G&T IFMIS was operational as it was merged
         with Core IFMIS in February 2010.
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 86
                                                                                                                                       Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                            Issue    Issue Rating

         Additionally, we determined that FEMA has not fully
         and consistently implemented the requirements and
         procedures documented in the SOP for IFMIS-Merger
         in accordance with FEMA and DHS guidance.
FEMA-    Weaknesses noted in FY 2009 over FEMA’s                  �   Establish and implement documented procedures                      X      2
IT-10-   information security vulnerability management                that define formal requirements, processes, and
  33     program as it relates to NEMIS continue to exist in FY       responsibilities      for      performing     periodic
         2010. Specifically:                                          vulnerability scans of NEMIS production servers.
                                                                      Additionally, ensure these procedures include
         �   FEMA does not have documented and approved
                                                                      requirements for reporting and tracking resolution
             procedures that establish formal requirements,
                                                                      of weaknesses identified during internal NEMIS
             processes, and responsibilities for performing
                                                                      vulnerability scans in accordance with DHS
             regular vulnerability scans of NEMIS.
                                                                      POA&M guidance.
         �   The list of NEMIS servers currently scanned by the   � Revise listing of NEMIS servers scanned by the
             SOC is incomplete and does not represent the             FEMA SOC to ensure that vulnerability scans
             current NEMIS system boundary as defined by              performed include all NEMIS servers within the
             system owners and IT security management.                current operating environment. Additionally,
             Additionally, NEMIS system owners are not                develop and implement procedures to ensure that
             receiving listings of all vulnerabilities noted on       this listing is periodically re-evaluated and updated
             their system components to ensure corrective             as appropriate.
             action is tracked and remediated.                    � Revise the SOC distribution listing of NEMIS
                                                                      system owners and other appropriate IT security
         �   Corrective action over vulnerabilities identified        management to further define personnel
             through SOC internal scans of NEMIS production           responsible for remediating and formally tracking
             servers is not formally tracked via the Plan of          all vulnerabilities identified over the various
             Actions & Milestones (POA&M) process, as
                                                                      NEMIS components. Additionally, develop and
             required by DHS policy.                                  implement procedures to ensure that this listing is
                                                                      periodically re-evaluated and updated as
                                                                      appropriate.
FEMA-    Weaknesses noted in FY 2009 over FEMA’s                  We recommend that FEMA establish and implement                         X      3
IT-10-   information security vulnerability management            documented        procedures      that    define   formal
  34     program as it relates to G&T IFMIS and IFMIS-            requirements, processes, and responsibilities for
         Merger continue to exist in FY 2010. Specifically:       performing regular vulnerability scans of IFMIS-
                                                                  Merger. Additionally, procedures should include
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 87
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
                                                                   requirements for reporting and tracking resolution of
         �   FEMA did not have documented and approved             weaknesses identified during internal IFMIS-Merger
             procedures that establish formal requirements,        vulnerability scans in accordance with DHS POA&M
             processes, and responsibilities for performing        guidance.
             regular vulnerability scans of G&T IFMIS and
             IFMIS-Merger.                                         No corrective action specific to the portion of this
         �   For one of the three months selected for testing,     finding related to G&T IFMIS will be provided
             vulnerability scans were not performed for the        because of the decommissioning of that system in June
             G&T IFMIS production server.                          2010.

         �   For all three months selected for testing,
             vulnerabilities reported by the FEMA SOC over
             the G&T IFMIS and IFMIS-Merger production
             servers were not formally tracked via the POA&M
             process, as required by DHS policy.
FEMA-    In FY 2009, we identified weaknesses over FEMA’s          We recommend that FEMA further document and fully                    X      2
IT-10-   patch management program related to NEMIS. During         implement comprehensive system-specific patch
  35     the FY 2010 integrated audit, we determined that while    management procedures to ensure that NEMIS
         FEMA has finalized and formally implemented the           operating system and database patches are tested and
         FEMA OCIO SOP for Vulnerability Patch                     deployed in a timely manner, in accordance with DHS
         Management, the SOP was not approved until April 8,       and FEMA policy. Additionally, these policies and
         2010. Consequently, FEMA did not have a formal            procedures should include formal designation of
         patch management procedure applicable to the NEMIS        responsibilities for oversight and implementation of
         environment for a majority of the fiscal year.            required patch management activities for all NEMIS
         Additionally, we determined that FEMA has not fully       components to ensure compliance at the system level.
         and consistently implemented the requirements and
         procedures documented in the SOP for all NEMIS
         components in accordance with FEMA and DHS
         guidance.
FEMA-    Weaknesses identified in FY 2009 related to the testing   �   Develop and implement backup policies and                        X      3
IT-10-   of NEMIS production database backup tapes continue            procedures to ensure that all NEMIS components
  36     to exist in FY 2010. Specifically:                            are backed up and backup media is stored
                                                                       in/rotated to an off-site facility according to FEMA
         �   During two quarters of FY 2010, FEMA conducted
                                                                       and DHS requirements.
             restoration tests of backup tapes for one specific
                                                       �               Revise or develop policies and procedures to
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 88
                                                                                                                                    Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                         Issue    Issue Rating
             NEMIS database while FEMA’s SOP for Tape                 periodically test and document testing of the
             Backup Testing documents requirements for the            NEMIS backups in compliance with FEMA and
             testing of 39 databases.         Consequently, we        DHS requirements. In addition, ensure that policies
             determined that FEMA did not regularly test              and procedures are implemented to perform
             backup tapes containing all NEMIS production             periodic restoration testing of all NEMIS
             database data during the fiscal year.                    production databases in accordance with
                                                                      established requirements.
         �   Additionally, while we noted that the Standard
             Operating Procedure for Tape Backup Testing
             assigns responsibility for testing backup tapes in
             accordance with a defined schedule to NEMIS IT
             security management, administrators, and system
             owners, the SOP was not updated to reflect the
             required schedule for performing tape restoration
             tests.
         Furthermore, we noted the following new weaknesses
         related to controls over the performance of NEMIS
         database backups:
         �   FEMA has not formally defined and documented
             procedures that outline processes for performing
             backups of NEMIS production databases and for
             rotating and physically securing backup tapes off-
             site.
         �   FEMA was unable to provide requested
             documentation to evidence that any of the 39
             NEMIS production databases identified in the
             Standard Operating Procedure for Tape Backup
             Testing are currently being backed up.
FEMA-    During our social engineering testing, several           We recommend that FEMA management review the               X               3
IT-10-   personnel provided us with user IDs and/or passwords.    effectiveness of existing security awareness programs
  37                                                              designed to protect “need-to-know” information,
         It should be noted that several personnel that we        including IT system access credentials, and ensure that
         contacted by phone during our social engineering         individuals are adequately instructed and reminded of
         phone calls challenged our requests for user access      their roles in the protection of sensitive system
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 89
                                                                                                                                      Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
         credentials by looking up our assumed names in the          information from unauthorized individuals through
         FEMA directory to determine if we were FEMA                 formal, periodic communications and/or security
         personnel, requesting employee IDs, asking for help         awareness training.
         desk ticket numbers associated with our calls, and
         reporting our attempts to supervisors.

         While individuals contacted represented several offices
         in multiple FEMA regions as well as Headquarters, our
         selection of individuals was not statistically derived.
         Therefore, we are unable to project these results to
         FEMA as a whole.
FEMA-    During our after-hours physical security testing            We recommend that FEMA management review the                       X      2
IT-10-   conducted on July 20, 2010, we noted instances of           effectiveness of existing security awareness programs
  38     improperly protected authentication credentials, system     designed to protect electronic and physical data, PII,
         information, information technology assets, and PII in      and FOUO agency information and ensure that
         the facilities inspected.                                   individuals are adequately instructed and reminded of
                                                                     their roles in the protection of both electronic and
         Some of the instances of improperly secured PII noted
                                                                     physical FEMA data and hardware through formal,
         in the table above consisted of large stacks of
                                                                     periodic communications and/or security awareness
         documents or compiled spreadsheets that contained PII
                                                                     training.
         for numerous individuals conducting business for or
         with FEMA.        Exceptions categorized as “Other’
         consisted of laptops and other IT assets not physically
         secured/locked to workspaces, unsecured bank account
         and government travel card information, and the lack
         of adequate locking mechanisms on a server room
         door.
         Our selection of areas at each facility that were
         inspected was not statistically derived, and therefore,
         we are unable to project results to FEMA as a whole.
FEMA-    As noted during the FY 2009 audit, weaknesses               We recommend that FEMA document and implement                      X      3
IT-10-   continue to exist over the segregation of duties controls   policies and procedures to limit IFMIS-Merger
  39     for the migration of IFMIS-Merger changes into              developer access to the production environment to
         production. Specifically:                                   “read only” and segregate the responsibility for
                                                                     deploying application code changes into production
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 90
                                                                                                                                    Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                             Condition                                             Recommendation
#No                                                                                                                         Issue    Issue Rating
                                                                  from the development contractor to an independent
        �   The FEMA development contractor continues to          control group. If business needs require that the
            deploy changes into the UNIX production               segregation of duties cannot be immediately
            environment through the use of the shared             implemented, FEMA should document and implement
            “ifmiscm” account. We noted that FEMA change          policies and procedures to mitigate the risk associated
            management personnel are following SOPs that          with the segregation of duties weakness noted in
            outline the controls intended to mitigate the risk    accordance with DHS guidance, including a formalized
            associated with the IFMIS-Merger developers           process for performing and documenting reviews of
            having the ability to migrate changes to the IFMIS-   activity performed by developers within the IFMIS-
            Merger production environment. In particular, the     Merger environment.
            Office of the Chief Financial Officer (OCFO)
            IFMIS System Change Request (SCR) SOP
            requires the locking and unlocking of the
            “ifmiscm” account by system administrators
            during the implementation of software changes
            into production. However, we determined that
            while the SCR SOP states that system
            administrators will periodically monitor production
            directories to detect updates, no formal procedures
            or processes are included in the SOP or
            documented elsewhere for detailing how to
            monitor the directories or the requirements for
            performing the reviews to verify that only
            authorized changes to the “ifmiscm” directory and
            sub-directories are implemented into production by
            the developers.
        �   We determined that although informal reviews of
            the directories were performed during the fiscal
            year, they were not routinely relied upon by FEMA
            management as they did not provide the level of
            detail required for adequate monitoring, and
            FEMA personnel were not able to distinguish the
            types of changes made to the system from the
            “ifmiscm” account.
FEMA-   As noted during the FY 2009 audit, weaknesses             There is no recommended corrective action specific to               X      3

                   Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                      Page 91
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                     New     Repeat Risk
                              Condition                                           Recommendation
#No                                                                                                                     Issue    Issue Rating
IT-10-   continued to exist over the segregation of duties         this finding because of the decommissioning of G&T
  40     controls for the migration of G&T IFMIS changes into      IFMIS in June 2010.
         production during FY 2010.

         Specifically, the “ifmiscm” account was used by the
         FEMA development contractor to deploy changes into
         the UNIX production environment. Per our review, we
         noted that the G&T IFMIS application programmers
         responsible for maintaining and developing changes for
         the G&T IFMIS application were also responsible for
         migrating application code changes into the production
         environment using the “ifmiscm” account. We were
         informed by FEMA personnel that the controls over
         this account did not change from FY 2009 and that the
         account remained unlocked while G&T IFMIS was
         operational between October 2009 and June 2010 when
         the system was decommissioned. We were further
         informed by FEMA personnel that access to the
         “ifmiscm” account was not limited or monitored on a
         periodic basis, allowing the development contractor
         unrestricted access to the production environment.

         Additionally, we noted that FEMA has documented
         policies and procedures that require the IFMIS-Merger
         “ifmiscm” account to be locked and use of the account
         to be monitored.      However, we noted that no
         established procedures or controls were in place for
         G&T IFMIS to mitigate the risk associated with this
         account.

         Consequently, we determined that while the G&T
         IFMIS application server was decommissioned in June
         2010, the weaknesses over segregation of duties
         controls in the G&T IFMIS configuration management
         process continued to exist for the majority of FY 2010,
         and prior year NFR FEMA-IT-09-59 is reissued.
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 92
                                                                                                                                        Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

NFR                                                                                                                             New     Repeat Risk
                               Condition                                               Recommendation
#No                                                                                                                             Issue    Issue Rating
FEMA-    Password, patch management, and configuration                Implement the specific corrective actions listed in the             X      3
IT-10-   management weaknesses were identified during                 NFR for each technical control weakness identified.
  41     vulnerability assessment technical testing.
         Note: Due to the nature of this finding, see the tables
         in associated NFR for the specific details of the
         conditions.
FEMA-    During the FY 2010 integrated audit, we noted the            �   Update and complete all required C&A artifacts         X               3
IT-10-   following weaknesses over the completeness and                   for IFMIS-Merger in accordance with DHS policy
  42     accuracy of certain C&A artifacts that support the               and NIST guidance.
         Authorizing Official’s decision to grant an ATO for the      �   Ensure that C&A artifacts, including the risk
         IFMIS – Merger:                                                  assessment or the results of the required risk
         �   A risk assessment for IFMIS-Merger had not been              assessment activities, the ST&E, and the Security
             completed or documented prior to granting an                 Assessment Report (SAR) are conducted and
             ATO, in accordance with DHS and NIST                         documented in accordance with established DHS
             requirements. Additionally, FEMA does not plan               baseline controls according to the security
             to conduct and document a risk assessment or the             categorization of the system.
             results of the required risk assessment activities for
             IFMIS-Merger as FEMA management has
             indicated that it is not required for FY 2010.
         �   The ATO was signed in June 2010, more than
             three months after the IFMIS-Merger system was
             operational in late February 2010.
         �   Per our review of the security assessment report,
             the assessment performed over IFMIS-Merger
             prior to granting ATO did not include evaluation of
             any of the controls identified within the SSP. The
             assessment was limited to vulnerability and
             compliance scans.
         �   The ST&E was not properly conducted because the
             baseline controls in the Requirements Traceability
             Matrix were not consistent with DHS
             requirements.

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 93
                                                                                                                                       Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                            Issue    Issue Rating
FEMA-    During the FY 2010 integrated audit, we noted that the     We recommend that FEMA update and complete all              X               3
IT-10-   most recent ATO for NEMIS was signed on October            required C&A artifacts for NEMIS in accordance with
  43     29, 2009. However, we identified weaknesses in the         DHS policy and NIST guidance.
         completeness and accuracy of certain C&A artifacts
         that support the Authorizing Official’s (AO) decision
         to grant the ATO for NEMIS. Specifically, the NEMIS
         Risk Assessment, ST&E, and SAR were completed in
         2006, and thus outdated as DHS policy requires C&A
         artifacts supporting ATOs to be updated within the 13
         months prior to granting the most recent ATO, and
         NIST requires each to be conducted every 3 years.
FEMA-    Conditions noted in FY 2009 related to weaknesses          We recommend that FEMA document and implement                        X      3
IT-10-   over controls in place to monitor and restrict access to   appropriate technical and management controls to
  44     highly-privileged system accounts within the UNIX          restrict and monitor access to privileged system
         environment that supports IFMIS-Merger and G&T             administrator accounts on the IFMIS-Merger operating
         IFMIS continue to exist in FY 2010. Specifically:          system, including use of the “root” account, in
                                                                    accordance with DHS and FEMA policy. Additionally,
         �   Access to the “root” account is not properly           policies and procedures should include requirements to
             restricted and system administrator activities are     ensure that system logs and records of administrator
             not appropriately logged.      Specifically, the       activity, including the “root” account, are retained and
             password to access the UNIX “root” administrator       reviewed by IT security management independent of
             account is shared between the administrators and       the system administration team, especially where
             remote access to the root account is not locked        individual traceability for the account is not possible.
             down.
         �   System administrator actions are not monitored         There is no recommended corrective action specific to
             and attributable to individual administrators.         the portion of this finding related to G&T IFMIS
             Specifically, FEMA has not enforced the use of the     because of the decommissioning of G&T IFMIS in
             “sudo” command, which requires system                  June 2010.
             administrators to login with their individual user
             ID and then switch over to the root account to
             ensure who is accessing the account is logged and
             authorized.
         �   System logs and reports of administrator activity,
             including the “sudo” log which monitors actions
             performed by administrators while acting as the
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 94
                                                                                                                                        Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                             New     Repeat Risk
                               Condition                                              Recommendation
#No                                                                                                                             Issue    Issue Rating
             “root” account, were not reviewed by FEMA
             management personnel independent of the system
             administration staff.
FEMA-    In FY 2009, we noted weaknesses over suitability            �   Further define and refine documented processes to                X      2
IT-10-   determinations for federal employees and contractors            ensure that background investigations for all
  45     with sensitive IT system access that continued to exist         Federal employees are performed and procedures
         in FY 2010. Specifically, of 15 federal employee                are implemented in accordance with DHS
         positions selected for testing:                                 directives.
         �   Three did not have evidence of a completed              �   Re-evaluate and assign the correct position
             background investigation on file that met minimum           sensitivity levels to all Federal employees with
             investigative requirements specified by DHS                 access to DHS information systems in accordance
             policy.                                                     with DHS policy. Additionally document and/or
                                                                         revise, and fully implement procedures to ensure
         �   For one employee, FEMA was unable to provide                that program managers are aware of requirements
             any documentation to evidence that the employee’s           and appropriate position sensitivity levels are
             background investigation was performed and                  designated for all sensitive IT positions in the
             maintained within ISMS, FEMA’s personnel                    future.
             suitability and investigation recordkeeping utility.    �   Document and fully implement procedures within
                                                                         FEMA Acquisitions, FEMA Personnel Security,
         �   Nine that are defined as “high risk” according to           and FEMA IT to ensure a more centralized and
             FEMA policy did not have an appropriate position
                                                                         coordinated process for tracking and completing
             sensitivity designation that reflected the risk level       background investigations over contractor
             required by DHS policy.                                     personnel in accordance with DHS policy.
         During our FY 2010 test work over contractors, we           �   Ensure that all system owners document and
         determined that no formal procedures have been                  correctly define the appropriate sensitivity
         developed or implemented by FEMA to address DHS                 designations for contractor personnel needing
         requirements surrounding the suitability screening of           access to their information systems in accordance
         contractors accessing DHS IT systems. Additionally,             with DHS policy.        Additionally, ensure that
         we selected a population of 15 contractors with access          position sensitivity designations are assigned
         to multiple FEMA information systems who hold                   based on the type of privileges needed, and require
         sensitive IT security positions at FEMA such as system          contractors to have their suitability investigations
         administrators, database administrators, and systems            completed prior to being granted access to the
         development contractors and determined that FEMA                system in accordance with FEMA and DHS
         has     not    appropriately     conducted   suitability        policy.

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 95
                                                                                                                                     Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                          New     Repeat Risk
                               Condition                                            Recommendation
#No                                                                                                                          Issue    Issue Rating
         investigations. Specifically:
             �    For two, FEMA was unable to provide any
                  documentation to evidence that the
                  contractor’s record was maintained within
                  ISMS, including the status of any background
                  investigations performed.
             �    Six did not have evidence of a completed
                  background investigation on file that meets
                  minimum investigative requirements specified
                  by DHS policy. Of the six, two had records
                  maintained within ISMS; however, FEMA
                  was unable to provide evidence that
                  background investigations for each were
                  performed.
             �    None had position sensitivity designations
                  defined by FEMA for the sensitive IT position
                  they held at the time of our test work, as
                  required by DHS policy.
FEMA-    During the FY 2010 integrated audit, we noted             �   Document and implement a formalized process and                 X      3
IT-10-   weaknesses in controls over the configuration                 procedures for deploying NEMIS changes to
  46     management of application, web, and database servers          ensure the movement of production code for the
         within the NEMIS production environment.                      NEMIS production environment is appropriately
         Specifically:                                                 controlled.       Procedures      should    include
                                                                       requirements for restricting and, monitoring access
         1. Access to the multiple application, web, and               and documenting reviews to the NEMIS
             database servers that comprise the NEMIS                  production environment to ensure that the
             production environment for deploying approved             principles of least privilege and segregation of
             code changes is limited to IT Enterprise Operations       duties are enforced, in accordance with DHS
             staff.     However, no formalized change                  guidance.
             management procedures exist for deploying             �   Ensure that adequate technical controls are
             changes to ensure the movement of production              implemented to enforce least privilege and
             code for the NEMIS production environment is              segregation of duties requirements for the
             appropriately controlled.                                 implementation of system changes. If individual

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 96
                                                                                                                                         Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

NFR                                                                                                                              New     Repeat Risk
                               Condition                                               Recommendation
#No                                                                                                                              Issue    Issue Rating
                                                                          accounts are not possible for deploying changes,
         2. Access to a shared service account is used for the            implement logical access controls, including
             deployment of Linux changes. However, FEMA                   configuration of system audit logs, on NEMIS
             was unable to provide any system documentation               production servers to establish individual
             or associated artifacts demonstrating that FEMA              accountability for all FEMA personnel with access
             was appropriately restricting and controlling access         to the environment through the shared service
             to the NEMIS production application, web, and                account, in accordance with DHS and FEMA
             database servers.                                            policy. Additionally, for these shared service
                                                                          accounts, document, implement, and approve
                                                                          standard      operating     procedures   for     the
                                                                          implementation and formal review of NEMIS
                                                                          system changes on production servers.
FEMA-                                                                 �   Define and implement formal and repeatable entity                X      2
         In FY 2009, we noted that FEMA’s OCFO and NFIP
IT-10-                                                                    level control processes to ensure that financial
         financial systems development and acquisition projects
  47                                                                      systems development and acquisition projects are
         were undertaken and progressed without (1) proper
         oversight of and direction to contractors, (2)                   conducted in compliance with DHS System
         development and approval of required project                     Engineering Life Cycle (SELC) and acquisition
         documentation, (3) the continual involvement of the              requirements as well as Federal guidance. The
         OCIO to ensure appropriate consideration and                     processes should define steps to include, but are
         integration of IT security, and (4) the joint                    not limited to, formal approval of required project
         communication and decision-making of FEMA OCFO,                  documentation, sufficient contractor oversight,
         OCIO and NFIP management. As a result, we                        definitions of project roles and responsibilities so
         recommended that FEMA management define and                      that decision making includes the appropriate
         implement formal and repeatable processes to ensure              involvement of all stakeholders and relevant
         that financial systems development and acquisition               FEMA management, establishment of ADEs at
         projects are conducted in compliance with DHS SELC               each SELC phase, and integration of IT security
         and acquisition requirements as well as Federal                  considerations throughout all project phases.
         guidance.                                                    �   Identify and formally assign stakeholders
                                                                          associated with the remediation efforts over
         During the FY 2010 integrated audit, we determined               aligning the DHS SELC methodology with
         that FEMA management has not implemented                         FEMA’s acquisition development process to
         corrective actions or developed a corrective action plan         ensure appropriate participation from all required
         to address the prior year weaknesses noted.                      organizations within FEMA in both the
         Specifically, entity level corrective actions to integrate       development of policies and procedures and
         and develop sufficient and effective methods of                  integration of the financial systems acquisitions
         communication to ensure that significant financial-              life cycle stages as required by DHS policy.
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 97
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
         related system development and acquisition projects
         involve all relevant stakeholders, including the OCFO,
         have not been established. Additionally, FEMA
         management has not taken action to enhance and
         further develop current acquisition management
         processes to ensure that organization-specific
         requirements exist and are implemented so that each
         project meets organizational mission needs and
         functional and technical requirements as required by
         DHS and NIST guidance.
FEMA-    FEMA IT security management responsibilities were         �   Establish and document a formalized process to                   X      3
IT-10-   not consistently or adequately assigned and performed         provide IT security management oversight to
  48     over the FEMA POA&M process for FY 2009 IT audit              ensure that adequate periodic review and
         findings, in accordance with DHS guidance.                    assessment of security controls are performed and
         Specifically:                                                 corrective actions are appropriately assigned and
                                                                       implemented over identified security weaknesses
         �   POA&Ms created by FEMA management in
                                                                       through the POA&M process.
             response to FY 2009 IT financial statement audit
             findings were not consistently categorized with the   �   Dedicate resources to fully implement DHS
             appropriate criticality level in accordance with          requirements over the POA&Ms for audit findings
             DHS policy.       Specifically, for 52 POA&Ms             of FEMA financial systems, including the proper
             provided by FEMA on May 3, 2010, criticality was          categorization of audit findings, documentation of
             either undefined or erroneously defined as “Annual        all stakeholders with remediation responsibilities,
             Assessment Finding” rather than “Initial Audit            and monitoring of POA&M activities to validate
             Finding” or “Repeat Audit Finding,” as required.          that corrective actions are appropriately
                                                                       documented with associated milestones and
         �   FEMA management did not consistently document             evidence of remediation is developed and retained.
             detailed corrective action plans or appropriate       �   Develop and implement a training program for
             milestones, including required tests of design and        personnel with IT security responsibilities, such as
             effective implementation for financial system             system owners and ISSOs, to ensure that they fully
             POA&Ms.                                                   understand their roles and responsibilities to
                                                                       correctly categorize the findings, formally define
         �   FEMA management did not consistently assign               milestones, and validate the documentation and
             POA&M stakeholder ownership for corrective
                                                                       testing of the corrective action implemented.
             action plans or related milestones.
                                                                   �   Develop and implement review procedures to
                                                                       ensure developed POA&Ms are detailed enough to
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 98
                                                                                                                                        Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                             New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                             Issue    Issue Rating
                                                                        demonstrate that the root cause of the issue has
                                                                        been assessed and the milestones address the
                                                                        necessary steps to fully remediate the weaknesses
                                                                        as required by DHS policy.
FEMA-    During the FY 2010 follow-up testwork, we                  �   Dedicate resources to assess the usage of IFMIS-                  X      2
IT-10-   determined that weaknesses noted in FY 2009 continue           Merger system security functions against DHS
  49     to exist. Specifically, we determined that no additional       policy requirements and determine gaps that exist
         policies and procedures to establish a process for             within existing system documentation over the
         implementing change controls for the maintenance of            security functions.
         system security functions have been developed by           �   Develop and implement policies and procedures
         FEMA or the IT developer of IFMIS-Merger. FEMA                 documenting the process of adding, deleting, and
         has not adequately ensured that appropriate privileges         modifying       IFMIS-Merger      system     security
         granted to users are created, documented, and                  functions to ensure that proper controls are in place
         approved.                                                      for approving, testing and documenting these
                                                                        functions prior to implementation, in accordance
         We were informed by FEMA personnel that the system             with DHS policy. These policies and procedures
         security functions are created and modified to provide         should include requirements over independent
         additional functionality under specific menus in the           monitoring of the creation, modification and
         IFMIS-Merger application. As a result, these changes           deletion of system security functions, and
         to the menu provide additional functionality to the            requirements for updating system documentation
         users with access to those menus. However, current             to reflect the impact of the changes to user account
         documentation over IFMIS-Merger, including access              privileges.
         authorization forms, change management plans and
                                                                    �   Develop and implement procedures to ensure that
         System Security Plans, do not define how to manage
                                                                        functions updated through the change management
         and document changes to these functions to ensure that
                                                                        process are formally approved and documented
         approved changes are made and appropriate and
                                                                        and that appropriate system documentation for
         traceable access is granted to IFMIS-Merger users.
                                                                        IFMIS-Merger system security functions is
                                                                        updated and retained, in accordance with DHS
         While FEMA has received the IFMIS Security
                                                                        policy.
         Functions Reference Guide dated 2007 from the
         software vendor, we determined that the documentation
         is a technical reference manual that defines the
         capabilities of the system, usage of the various system
         security functions, menu options and related
         permissions for each function. However, the guide
         does not address the management of these system
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 99
                                                                                                                                      Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                               Condition                                              Recommendation
#No                                                                                                                           Issue    Issue Rating
         security functions from a change control and access
         control perspective for FEMA. Additionally, the guide
         does not include requirements for updating system
         documentation and tracking these system security
         function changes to privileges in the system.

         Consequently, based on our testwork, we concluded
         that a formalized process for modifying specific
         IFMIS-Merger system security functions to ensure that
         appropriate privileges are created, documented,
         approved, and monitored does not exist.
FEMA-    During the FY 2010 FEMA integrated audit, we                 �   Implement and require two-factor authentication               X      3
IT-10-   determined that the following conditions related                 for all remote access to the FEMA network, as
  50     authorization of external connections to the FEMA                required by DHS policy and FIPS 140-2.
         VPN continue to exist:                                       �   Revise and implement policies and procedures for
         �   Two-factor authentication is not used for VPN                documenting, reviewing, and approving the
             access, as required by DHS policy.                           security controls in place over non-DHS
                                                                          equipment connecting to the FEMA network via
         �   The existing documentation that defines the                  VPN access. Specifically, clearly define and
             process for granting and maintaining VPN access              document a formalized process for the
             to the FEMA network does not include                         authorization, review, and maintenance of VPN
             requirements for administering the site survey               access agreements between FEMA and external
             process, including requirements for the                      entities. Additionally, ensure that within the
             authorization of the sites surveys, recertification of       policies and procedures, appropriate roles and
             site surveys, and the security requirements                  responsibilities over the process are defined to
             associated with the various aspects of the process.          include authorizations by the CISO/ISSM to
                                                                          connect to non-DHS equipment.
         �   FEMA has not formally identified and documented
                                                                      �   Ensure that agreements related to VPN access are
             the roles and responsibilities necessary within              reviewed and recertified when a major system
             FEMA to properly authorize and administer VPN
                                                                          change occurs or every three years, in accordance
             access to individuals using non-DHS equipment to             with DHS policy.
             access the FEMA network.
                                                                      �   Formally identify and document appropriate roles
         �   Access for state emergency management agencies               and responsibilities related to management of
             and FEMA contractors to load the VPN client onto             remote access to the FEMA network, including
             state or contractor owned equipment to connect to            iPass and VPN.

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 100
                                                                                                                                    Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                           Condition                                              Recommendation
#No                                                                                                                         Issue    Issue Rating
          the FEMA LAN is approved by the SOC.                   �   Document and implement policies and procedures
          However, DHS policy requires that any non-DHS              to ensure that formalized ISAs, MOUs, or MOAs,
          equipment connecting to a DHS network must be              delineating security responsibilities by FEMA and
          authorized by the Component CISO/ISSM.                     external organizations when connecting through
                                                                     non-DHS equipment to the FEMA network via
      �   FEMA’s VPN Rules of Behavior for Users Behind
                                                                     VPN access are used. Such agreements should
          Corporate Firewalls, dated December 5, 2002,
                                                                     include evidence of validation by FEMA
          requires an Inter-Agency VPN Agreement between
                                                                     management that security controls in place on
          FEMA and external organizations before
                                                                     external entity networks are appropriate and satisfy
          permitting VPN access to the FEMA network
                                                                     requirements for minimum security controls on
          through non-Government issued equipment such as
                                                                     DHS and FEMA systems prior to connection in
          contractor or state agency workstations. However,
                                                                     accordance with DHS policy.
          we determined that Inter-Agency VPN Agreements
          have not been documented and that this
          requirement is inconsistent with DHS policy,
          which requires ISAs or (MOUs/MOAs prior to
          establishing a VPN connection from equipment
          operating on an external network.
      �   FEMA’s approval of requests for network
          connections to external organizations through VPN
          access for remote users is based on security control
          information submitted by the external entities via
          site surveys. Based upon our review of existing
          site surveys and the site survey process, we noted
          that:
          �   The site surveys do not contain the level of
              technical granularity describing the external
              network security controls required to
              appropriately approve a connection to the
              FEMA LAN, and the FEMA SOC does not
              independently verify the accuracy of
              information in the site surveys submitted by
              external entities prior to approving the
              connection and subsequently granting VPN
              access to users.
                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 101
                                                                                                                                     Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                          New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                          Issue    Issue Rating
             �   DHS guidance indicates that a single ISA may
                 be used for multiple connections provided that
                 the security accreditation is the same for all
                 connections covered by that ISA. However,
                 we determined that the security accreditation
                 of the connecting networks is not being
                 evaluated by the FEMA SOC during the
                 review of site surveys to ensure the security
                 requirements are appropriately implemented.
FEMA-    In FY 2009, we identified weaknesses over                 �   Document and implement formalized policies and                  X      3
IT-10-   configuration management controls related to NEMIS            procedures for restricting and monitoring access to
  51     program libraries and directories within the TDL              the NEMIS TDL directories to ensure that the
         environment. During the FY 2010 integrated audit, we          principles of least privilege and segregation of
         determined that the following weaknesses continue to          duties are enforced, in accordance with DHS
         exist:                                                        guidance.       The process should include
                                                                       requirements over periodic monitoring and
         �   Controls to segregate access within the TDL
                                                                       documented reviews of NEMIS TDL directories to
             environment have not been appropriately
                                                                       verify that no changes have occurred after the
             implemented. Specifically, IT Systems Integration
                                                                       approval of NEMIS system changes.
             personnel do not grant separate privileges to
             development code, which is moved to TDL by the        �   Implement technical controls within the NEMIS
             systems developer, and pre-production code, which         TDL environment to limit developers’ access to
             has completed User Acceptance Testing (UAT)               pre-production directories containing “locked”
             and is pending deployment to the NEMIS                    application code changes to “read only”. If
             production environment. As a result, developers           business needs require that the segregation of
             have read, write and execute privileges to all code       duties cannot be immediately implemented, FEMA
             in the TDL environment.                                   should document and implement policies and
                                                                       procedures to compensate for the risk associated
         �   Code approved for implementation is not locked            with the segregation of duties weakness noted, in
             down within the TDL environment prior to                  accordance with DHS guidance.
             deployment to production. Additionally, while an
             ad-hoc review is performed over the directories to
             monitor the modification dates on the production
             code directories, this process is not performed
             consistently or documented to mitigate the risk
             associated with not restricting access to the
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 102
                                                                                                                                       Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                            New     Repeat Risk
                               Condition                                             Recommendation
#No                                                                                                                            Issue    Issue Rating
             approved code.
FEMA-    Conditions noted in FY 2009 related to weaknesses          �   Document and implement formal policies and                       X      2
IT-10-   over vulnerability assessments for the Windows server          procedures that outline the processes and
  52     environment within the NFIP LAN supporting the                 requirements for performing internal vulnerability
         Traverse application continue to exist in FY 2010.             scans over all NFIP information systems as well as
         Specifically:                                                  the process for assessing, reporting, and correcting
         �   While procedures have been developed, the NFIP             weaknesses identified during scans as required by
                                                                        FEMA and DHS policy.
             contractor has not fully implemented the process
             for conducting internal vulnerability scans for        �   Ensure that policies and procedures formally
             information systems and for assessing, reporting,          designate responsibilities of FEMA OCIO and
             and correcting identified weaknesses through the           NFIP IT security management for the
             POA&M Process in accordance with FEMA and                  implementation, monitoring, and oversight of the
             DHS guidance.                                              vulnerability scanning process, so that the scope of
                                                                        vulnerability scans conducted include all NFIP
         �   FEMA does not have documented and approved                 workstations and servers and include requirements
             procedures that establish formal requirements,             for formally tracking and monitoring the
             processes, and responsibilities for conducting             remediation of vulnerabilities identified during the
             monitoring and oversight of regular vulnerability          internal scans of the NFIP LAN through the
             scans performed over the NFIP LAN which                    POA&M process, in accordance with DHS policy.
             supports Traverse to meet DHS vulnerability
             assessment requirements.
         �   Furthermore, while ad hoc scans were performed
             in previous years by the contractor, evidence of
             periodic NFIP network scanning conducted in FY
             2010 could not be obtained. Additionally, we
             inquired with FEMA and determined that scans
             over the NFIP LAN supporting the Traverse
             application were not performed by the FEMA
             SOC.
FEMA-    During our FY 2010 integrated audit test work, we          �   Complete the revision, documentation, and full                   X      2
IT-10-   noted that NFIP has not established or implemented an          implementation of TRRP access control policies
  53     effective process to periodically recertify user access,       and procedures, and ensure that they include a
         including service accounts, on the TRRP mainframe.             formalized process for the recertification of all
         Currently, NFIP requires users to sign security                accounts on the mainframe, including service
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 103
                                                                                                                                        Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

NFR                                                                                                                             New     Repeat Risk
                               Condition                                              Recommendation
#No                                                                                                                             Issue    Issue Rating
         awareness and training certifications on an annual              accounts, on an annual basis to determine that
         basis. However, no review of users’ access and                  access remains appropriate and commensurate with
         privileges is conducted by management on a periodic             job responsibilities in accordance with DHS
         basis to ensure system access remains appropriate and           policy.
         commensurate with job responsibilities in accordance        �   Document and implement policies and procedures
         with DHS guidance.                                              over the creation of service accounts to ensure that
                                                                         they are appropriately authorized and that a clear
         Additionally, we noted through inspection of the TRRP           business need is established and documented
         access procedures that no process has been established          justifying the creation and use of these types of
         to formally document both the approval and business             accounts in accordance with DHS policy.
         need for service accounts.
FEMA-    During the FY 2010 integrated audit, we determined          We recommend that FEMA management conduct and               X               3
IT-10-   that weaknesses existed in the implementation of DHS        document a lessons learned report related to the
  54     SELC requirements over the IFMIS-Merger Project.            IFMIS-Merger project per DHS SELC guidance. By
         Specifically, throughout the lifecycle of the project,      conducting such an activity, FEMA management will
         FEMA management did not adequately define and               be able to maintain a record of lessons learned in order
         implement required elements of the DHS SELC                 to increase the probability of success for future
         process, including:                                         acquisitions through the improvement of processes,
                                                                     tools, and other project related entities.
         �   A detailed and comprehensive Project Tailoring
             Plan to define required stages, activities, artifacts   Additionally, we determined that the root cause
             and exit criteria for the project per DHS SELC          associated with the weaknesses noted over the SELC
             guidance was not developed and approved by              process is related to the entity level control issue
             FEMA management.                                        identified in FEMA-IT-10-47, FEMA Management
         �   Approvals for project critical documentation            Needs to Improve Planning, Management, and
             demonstrating that all required stakeholders            Communication Related to Financial Systems
             reviewed and approved the results before                Development and Acquisition Projects. While the
             advancing to subsequent SELC stages could not be        IFMIS-Merger project has been completed, corrective
             provided.                                               action over the establishment of a process to provide
                                                                     oversight to the implementation of the SELC
         �   FEMA could not provide a Data Migration Plan            methodology must be completed. Please see NFR
             and Test Strategy to demonstrate that critical DHS      FEMA-IT-10-47 for recommendations related to the
             SELC requirements were documented and                   establishment of this process.
             approved prior to implementation of the data
             migration.


                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 104
                                                                                                                                        Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                             New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                             Issue    Issue Rating
         �   System security requirements and milestones were
             not documented and integrated into key project
             documentation, such as Business Requirements
             documents, project schedules, Project Management
             Plans, and Risk Management Plans.
         �   Project documentation including the Project
             Management Plan, the Risk Management Plan, and
             Business Requirements documents were not
             updated and revised throughout the project
             duration as required by the DHS SELC.
         �   Key information such as roles and responsibilities
             of all stakeholders, guidelines for developing
             business        requirements      documentation,
             requirements for stage reviews, and key exit
             criteria before moving to the next stage of the
             project were not integrated into the project
             schedule, Project Plan, and Communications Plan.
         �   FEMA management did not provide adequate
             oversight of the contractors implementing the
             IFMIS-Merger Project. Specifically, documented
             evidence supporting the approval, validation, and
             retention of required artifacts associated with the
             data migration and other key project management
             documents could not be provided by FEMA or
             were insufficient based on DHS requirements.

FEMA-    During our FY 2010 integrated audit test work, we         �   Complete the revision, documentation, and full            X               2
IT-10-   noted the following weaknesses related to the                 implementation of access control policies and the
  55     management and monitoring of user accounts and                NFIP LAN system account management
         activity on the NFIP LAN supporting Traverse:                 procedures to align with DHS requirements such as
                                                                       recertification of accounts and audit log reviews.
         �   NFIP has not established or implemented a formal
                                                                       Specifically, ensure that they include a formalized
             process to periodically recertify all accounts with
                                                                       process for the recertification of all accounts on the
             access to the NFIP LAN supporting Traverse, as
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 105
                                                                                                                                     Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

NFR                                                                                                                          New     Repeat Risk
                              Condition                                            Recommendation
#No                                                                                                                          Issue    Issue Rating
             required by DHS and FEMA policy. Specifically,           NFIP LAN, including service accounts, on an
             six system and/or service accounts on the FEMA           annual basis to determine if access remains
             LAN remained active absent an acceptable                 appropriate and commensurate with job
             documented business need and justification. We           responsibilities in accordance with DHS policy.
             were informed by NFIP management that these          �   Document and implement policies and procedures
             accounts were no longer needed, and they were            over the creation of service accounts to ensure that
             removed from the system during test work.                they are appropriately authorized and that a clear
                                                                      business need is established and documented
         �   Audit logs generated and reviewed on the NFIP
                                                                      justifying the creation and use of these types of
             LAN do not include changes to user account
                                                                      accounts in accordance with DHS policy.
             privileges as required by DHS and FEMA policy.
                                                                  �   Configure the NFIP LAN audit logs to include
         �   Audit logs for the NFIP LAN are not retained for         changes to user account privileges and ensure that
             at least 90 days, in accordance with DHS policy.         storage capacity settings of audit logs are
                                                                      configured to retain the logs for 90 days online as
                                                                      required by DHS and FEMA policy.
FEMA-    During our FY 2010 integrated audit, we noted the        �   Develop and implement TRRP audit logging                X               2
IT-10-   following weaknesses related to the monitoring of user       policies and procedures that include requirements
  56     accounts and activity on the TRRP mainframe:                 for audit log configurations and the review of logs
                                                                      by IT security management independent of the
         �   Segregation of duties is not properly implemented
                                                                      system administration team in accordance with
             over the review and maintenance of TRRP audit
                                                                      DHS policy.
             logs. Specifically, the TRRP system administrator
             is responsible for reviewing TRRP audit logs, and    �   Configure the TRRP audit logs to include changes
             a second independent reviewer is not required.           to user account privileges as required by DHS and
                                                                      FEMA policy.
         �   Audit logs generated and reviewed on the TRRP
             mainframe do not include changes to user account
             privileges as required by DHS and FEMA policy.
FEMA-    During our FY 2010 integrated audit test work, we        �   Develop, document, and fully implement policies         X               2
IT-10-   noted that NFIP has not established or implemented a         and procedures over documenting, reviewing, and
  57     formal process to authorize or periodically review           approving remote access to the NFIP LAN hosting
         remote access to the LAN hosting the TRRP                    the TRRP mainframe environment in accordance
         mainframe environment in accordance with DHS and             with FEMA and DHS requirements.
         NIST guidance.                                           �   Develop, document, and fully implement policies
                                                                      and procedures to perform a periodic
                                                                      recertification of all remote user access and retain
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 106
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                              Recommendation
#No                                                                                                                           Issue    Issue Rating
                                                                        auditable records as evidence that recertifications
                                                                        are conducted and completed in accordance with
                                                                        DHS and FEMA policy.
FEMA-    While improvements were noted over the                     �   Ensure the NFIP contractor continues to dedicate                X      2
IT-10-   documentation of Traverse change management                    resources to establish and implement documented
  58     procedures during the FY 2010 integrated audit test            policies and procedures over the Traverse change
         work, we determined that certain weaknesses identified         management process for non-emergency and
         in FY 2009 continue to exist over the Traverse                 emergency changes which are in line with DHS
         configuration management process in comprehensively            configuration       management       requirements.
         addressing FEMA and DHS change management                      Particular emphasis must be placed on approval by
         policy. For example, we determined that:                       the NFIP CCB and/or TRC, initial change
                                                                        approvals, testing and testing requirements, final
         �   Established procedures do not include guidance for
                                                                        approvals, and retention of required change
             initial approvals as we were informed that Traverse
                                                                        management artifacts to track all changes
             currently does not fall under review of the NFIP
                                                                        throughout their lifecycle. These phases should
             Change Control Board (CCB).
                                                                        also include an integrated process to address
         �   Requirements for managing the change                       system change requirements and stakeholder
             management program have not been adequately                change requirements to ensure adequate testing
             established and implemented to ensure that NFIP            and approvals are completed by the appropriate
             CCB and/or TRC approvals are granted prior to              parties.
             implementing changes into the Traverse                 �   Establish and implement a formal process to
             production environment, as required by FEMA and            conduct user acceptance testing in a test
             DHS policy.                                                environment prior to implementation in
                                                                        production.
         �   Adequate oversight and involvement from FEMA
                                                                    �   Allocate qualified NFIP management and OCIO IT
             management is not integrated into the                      security resources to provide adequate oversight
             configuration       management      requirements.
                                                                        for the configuration management process.
             Specifically, FEMA is not involved in testing              Oversight      activities   should      encompass
             and/or reviewing testing and approving changes to          requirements such as a NFIP Program
             Traverse prior to implementation.
                                                                        Configuration Management Board responsible for
         �   Traverse changes are not required to be tested prior       managing and participating in the NFIP CCB
             to implementing the change into production as no           and/or TRC to ensure that all required elements in
             testing environment exists.                                the configuration management process are
                                                                        formally defined and implemented in accordance
         �   Limited testing requirements exist to guide                with DHS and FEMA guidance.
             personnel in the development of test plans and
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 107
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                              Recommendation
#No                                                                                                                           Issue    Issue Rating
             guidance over the testing that should be performed
             and documented. Additionally, roles and                �   Dedicate the resources to fully review and finalize
             responsibilities over test plan procedures to ensure       approval of all NFIP contractor’s configuration
             that plans are sufficient, document expected               management policies and procedures to ensure the
             outcomes, and are reviewed and approved prior to           revised procedures are compliant with DHS
             development, are not documented.                           requirements.

         �   Requirements for Traverse emergency changes
             have not been formally defined.
FEMA-    While improvements were noted over the                     �   Ensure the NFIP contractor continues to dedicate                X      2
IT-10-   documentation of TRRP change management                        resources to establish and implement documented
  59     procedures during the FY 2010 integrated audit                 policies and procedures over the TRRP change
         testwork, we determined that certain weaknesses                management process for non-emergency and
         identified in FY 2009 continue to exist over the TRRP          emergency changes which are in line with DHS
         configuration management process in comprehensively            configuration       management        requirements.
         addressing FEMA and DHS change management                      Particular emphasis must be placed on initial
         policy. For example, we determined that:                       change approvals, testing and testing requirements,
                                                                        final approvals, and retention of required change
         �   Requirements for managing the change
                                                                        management artifacts to track all changes
             management program have not been adequately
                                                                        throughout their lifecycle. These phases should
             established and implemented to ensure that CCB
                                                                        also include an integrated process to address
             and/or TRC approvals are granted prior to
                                                                        system change requirements and stakeholder
             implementing changes into the TRRP production
                                                                        change requirements to ensure adequate testing
             environment, as required by FEMA and DHS
                                                                        and approvals are completed by the appropriate
             policy. Specifically:
                                                                        parties.
             �   While a CCB has been established by NFIP           �   Allocate qualified NFIP management and OCIO IT
                 management,     adequate   oversight      and          security resources to provide adequate oversight
                 involvement from FEMA management has not               for the configuration management process.
                 been integrated into the configuration                 Oversight      activities    should      encompass
                 management       requirements       including          requirements such as a NFIP Program
                 mandatory FEMA participation in the CCB                Configuration Management Board responsible for
                 and CCB approval of changes after testing has          managing and participating in the NFIP CCB
                 occurred.                                              and/or TRC to ensure that all required elements in
                                                                        the configuration management process are
             �   FEMA management, including IT security and             formally defined and implemented in accordance
                 financial personnel, are not involved in testing       with DHS and FEMA guidance.
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 108
                                                                                                                                   Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                                        New     Repeat Risk
                           Condition                                              Recommendation
#No                                                                                                                        Issue    Issue Rating
              and/or reviewing testing and approving             �   Dedicate the resources to fully review and finalize
              changes to TRRP prior to implementation.               approval of all NFIP contractor’s configuration
                                                                     management policies and procedures to ensure the
          �   CCB reviews are not conducted for approval
                                                                     revised procedures are compliant with DHS
              of final changes prior to implementation into
                                                                     requirements.
              production as required by FEMA and DHS
              guidance.
      �   Limited testing requirements exist to guide
          personnel in the development of test plans and
          guidance over the testing, including user
          acceptance testing, that should be performed and
          documented prior to approval and implementation
          into production. Additionally, roles and
          responsibilities over test plan procedures to ensure
          that plans are sufficient, document expected
          outcomes, and are reviewed and approved prior to
          development, are not documented.
      �   Requirements for TRRP emergency changes have
          not been formally defined in writing.

      Furthermore, we performed testwork over initial and
      final approvals for a selection of 25 TRRP changes
      made in FY 2010 and noted the following exceptions:
      �   Documentation for 3 of the 25 changes could not
          be provided
      �   17 of 22 changes tested did not have initial
          approvals documented prior to developing the
          change
      �   9 of 22 changes tested changes did not have all the
          required approvals prior to implementation
      �   1 of 22 changes tested was implemented prior to

                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 109
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
             change documentation being completed
FEMA-    Weaknesses identified in FY 2009 related to controls to   �   In accordance with policy, enforce requirements                  X      2
IT-10-   restrict access and control movement of Traverse              over individual user accounts by not allowing
  60     program libraries and data continue to exist in FY            vendors to a use a system administrator’s account
         2010. Specifically:                                           to access the system and deploy changes into
                                                                       production.
         �   Implementation procedures over Traverse changes       �   Document and implement policies and procedures
             have not been established, and current processes do       to limit Traverse developer and application support
             not incorporate segregation of duties requirements.       vendor access to the NFIP production environment
             Specifically, NFIP IT contractors use their               to “read only” through an assigned user account
             individually assigned system administrator                and segregate the responsibility for deploying
             accounts to logon and create sessions to allow a          application code changes into production from the
             third-party development vendor to install Traverse        development/support vendor to an independent
             system changes.                                           control group. Additionally, procedures should
                                                                       include implementation process requirements for
         �   NFIP does not have a formal process for                   controlling access to production directories. If
             monitoring changes that the vendor makes in               business needs require that the segregation of
             Traverse while logged in as an administrator.             duties cannot be immediately implemented, FEMA
                                                                       should document and implement policies and
                                                                       procedures to mitigate the risk associated with the
                                                                       segregation of duties weakness noted in
                                                                       accordance with DHS guidance, including a
                                                                       formalized     process     for    performing     and
                                                                       documenting reviews of activity performed by
                                                                       third-party vendors within the Traverse
                                                                       environment.
FEMA-    As noted during the FY 2009 audit, weaknesses over        �   Develop, document, and fully implement an IT                     X      2
IT-10-   contingency planning for both the Traverse and TRRP           Contingency Plan for NFIP components, including
  61     systems continue to exist in FY 2010. Specifically:           TRRP and Traverse. Additionally, ensure that
                                                                       contingency planning documentation includes
         �   While the NFIP Legacy System Services
                                                                       detailed instructions for restoring operating system
             (NFIP/LSS) Contingency Plan, which pertains to
                                                                       software and critical applications in the event of a
             the contingency planning around Traverse and the
                                                                       disaster, contingency, or disruption of service in
             NFIP LAN, has been updated for FY 2010, the
                                                                       accordance with DHS and NIST policy
             following elements are not in compliance with
                                                                       requirements for systems categorized at the high
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 110
                                                                                                                                    Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                                                         New     Repeat Risk
                            Condition                                              Recommendation
#No                                                                                                                         Issue    Issue Rating
          DHS and NIST requirements:                                  impact availability objective.
                                                                  �   Conduct and document annual tests of the TRRP
          �   The NFIP/LSS IT Contingency Plan does not
                                                                      and Traverse IT Contingency Plan(s) that address
              document detailed instructions for restoring
                                                                      all critical phases of the plan(s), and update
              operating systems and critical applications in
                                                                      contingency planning documentation with lessons
              the event of a disaster, contingency, or
                                                                      learned, as necessary and in accordance with DHS
              disruption of service.
                                                                      and NIST requirements.
          �   The NFIP/LSS IT Contingency Plan does not           �   Dedicate resources to establish and implement an
              designate the current alternate processing              alternate processing site for the NFIP systems in
              facility for the operating environment.                 accordance with DHS policy requirements.
                                                                  �   Until an alternate processing site is established,
          �   Testing of the NFIP/LSS IT Contingency Plan
                                                                      develop and submit an exception for approval in
              has not been performed in the 12 months, as             accordance with DHS policy, and ensure that
              required by DHS policy.                                 compensating controls over the lack of an alternate
      �   FEMA and NFIP management have not                           processing site have been implemented and are
          documented or approved a current IT Contingency             effective, and documentation of their effectiveness
          Plan for the mainframe environment supporting the           is maintained as auditable records.
          TRRP system in accordance with FEMA and DHS             �   Document, implement, and maintain the NFIP
          requirements.                                               COOP to ensure required elements for Traverse
                                                                      and TRRP are included in accordance with DHS
      �   Contingency testing over TRRP was not                       guidance for high impact systems.
          sufficiently conducted in accordance with DHS
          and NIST requirements. While a limited disaster
          recovery test of the NFIP mainframe environment,
          including TRRP, was performed in October 2009
          to test restoration of data, all elements required to
          be tested under the DHS requirements for an IT
          Contingency Plan were not sufficiently addressed
          and could not be used to validate the effectiveness
          of the organization’s contingency planning
          controls.
      �   The NFIP contractor’s Continuity of Operation
          Plan (COOP) for Traverse and TRRP could not be
          provided for auditor review.


                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 111
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

NFR                                                                                                                           New     Repeat Risk
                              Condition                                             Recommendation
#No                                                                                                                           Issue    Issue Rating
FEMA-    Conditions noted in FY 2009 related to weaknesses         �   Document and establish a centralized and                         X      3
IT-10-   over the NEMIS configuration management process               integrated change management process over
  62     continue to exist in FY 2010. Based on our testwork,          NEMIS to ensure that adequate controls are
         we concluded that NEMIS configuration management              implemented throughout the lifecycle of the
         is not adequately and centrally controlled, documented,       configuration management process, in accordance
         or managed throughout the lifecycle of the FEMA               with DHS and FEMA policy.
         configuration management process. Specifically, we        �   Formally      designate     FEMA       management
         identified the following weaknesses:                          responsibilities for oversight and implementation
         �   NEMIS configuration management policy and                 of controls for initiating, monitoring, testing, and
             procedures which outline FEMA’s responsibilities          approving all NEMIS non-emergency and
             and processes for initiating, monitoring, testing,        emergency changes;
             and approving NEMIS non-emergency and                 �   Establish a centralized, formal process to monitor,
             emergency changes that are developed under the            document, and track NEMIS software changes
             various development contracts have not been               throughout the configuration management
             documented and approved by FEMA management,               lifecycle, from initial approval through
             in accordance with DHS and FEMA policy.                   implementation into the production environment.

         �   FEMA does not have a centralized program
             management function or process to monitor and
             track NEMIS Software Change Requests (SCRs)
             throughout the configuration management
             lifecycle, from initial approval through
             implementation into the production environment.
FEMA-    During the FY 2010 integrated audit, we noted             �   Revise, document and fully implement a                  X               2
IT-10-   weaknesses over the IFMIS-Merger Configuration                comprehensive        configuration     management
  63     Management Plan.      Based on our testwork, we               program      that    includes    a    Configuration
         concluded that the IFMIS configuration management             Management Plan for IFMIS-Merger, which aligns
         process does not meet comprehensive change                    with all applicable DHS and FEMA requirements
         management process requirements and procedures as             and reflects the current IFMIS-Merger operating
         required by DHS and NIST guidance because it is not           environment and all applicable IT components.
         adequately documented. For example, we identified         �   Include in policies and procedures (a) clearly
         the following weaknesses:                                     defined and formalized responsibilities for change
         �   The IFMIS CMP provided in July 2010 is in draft           management oversight bodies including a
             and has not been updated to reflect the new IFMIS-        Configuration/Change Control Board and (b)
                                                                       sufficiently     detailed    responsibilities  and
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 112
                                                                                                                                Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                                     New     Repeat Risk
                           Condition                                          Recommendation
#No                                                                                                                     Issue    Issue Rating
          Merger operating environment. Specifically, the        requirements for security impact analyses, test plan
          plan includes Core IFMIS and G&T IFMIS, but            development, and approval for non-emergency and
          does not address the IFMIS-Merger instance that        emergency change procedures.
          began operations in February 2010.
      �   Infrastructure information for the in-scope
          applications does not include the server
          information for G&T IFMIS, which was
          operational when the plan was last revised in
          November 2009.
      �   The CCB has not been formally and fully
          integrated into the FEMA change management
          process. While we were informed that a CCB for
          IFMIS was established on March 22, 2010, we
          determined that the requirements over the roles and
          responsibilities as well as the membership of the
          CCB were not clearly defined, implemented, and
          documented to ensure that DHS requirements are
          met.
      �   Membership of the “SCR Review Team”
          responsible for initial approval for development of
          any changes to the application is not formally
          defined.
      �   Requirements that security impact analyses be
          performed prior to implementation of changes have
          not been documented.
      �   Limited testing requirements exist to guide FEMA
          personnel in the development of test plans and
          guidance over the testing that should be performed
          and documented. Additionally, roles and
          responsibilities over test plan procedures to ensure
          that plans are sufficient, document expected
          outcomes, and are reviewed and approved prior to

                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 113
                                                                                                             Appendix B
                                            Department of Homeland Security
                                        Information Technology Management Letter
                                                   September 30, 2010

NFR                                                                                                  New     Repeat Risk
                          Condition                                  Recommendation
#No                                                                                                  Issue    Issue Rating
          development, are not documented.
      �   Requirements over emergency changes have not
          been defined in writing.




                Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                   Page 114
                                                                             Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

          � Federal Law Enforcement Training Center




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 115
                                                                                                                                  Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

                                       Notice of Findings and Recommendations – Detail
                                        Federal Law Enforcement and Training Center

 NFR                                                                                                                      New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                      Issue    Issue    Rating
FLETC-     During our FY 2010 review of FLETC’s configuration      The FLETC management will update and enforce            X                   2
IT-10-01   management policies and procedures, we noted that       current procedures to ensure changes are fully
           FLETC does not conduct the following:                   documented throughout the change control process
           � Momentum and Glynco Area Network (GAN)                to include the results of testing the change, review
              changes are not being documented throughout the      of the change test results, and final approval to
              change control process from the testing of changes   proceed with the implementation.
              to the final approval of the changes prior to
              implementation, and;
           � Distribution and implementation of Momentum
              and GAN changes are not being controlled.

FLETC-     During the FY 2009 financial statement audit, we        Due to remediation of this finding within the fiscal             X          3
IT-10-02   noted several weaknesses with the logical access        year, no recommendation is required.
           controls for the Glynco Administrative Network
           (GAN).

           During our review in FY 2010, we reviewed the
           logical access controls over the GAN. Per our review,
           we noted that FLETC has remediated all of the logical
           access controls over the GAN; however, KPMG noted
           that the GAN was configured to reset the lockout
           counter after 20 minutes. This does not meet the DHS
           4300A requirement of 24 hours. Upon notification,
           FLETC immediately remediated the configuration
           issue. However, the configuration was inappropriately
           configured for the majority of the fiscal year.

FLETC-     In FY 2009, KPMG conducted After-Hours                  Finance Division, Building 66 Safeguarding of PII                X          3
IT-10-03   walkthrough testing to complement our IT audit          and Credit Card data: Modifications to Building
           testing efforts as part of the FY 2010 DHS Financial    66 have recently been completed which provide
           Statement Audit and Audit of Internal Control over      secure file storage rooms and entry controls for all
           Financial Reporting. We also performed after-hours      access points in the building. An SOP will be

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 116
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                        New     Repeat   Severity
                                Condition                                            Recommendation
 #No                                                                                                                        Issue    Issue    Rating
           physical security testing to identify risks related to     drafted to address Safeguarding of PII and Credit
           non-technical aspects of IT security. These non-           Card data in the Finance Division, implement use
           technical IT security aspects include physical access to   of the secure file storage rooms, and address entry
           equipment that houses financial data and information       controls for access points in the building. This
           residing on the desks of FLETC personnel, which            will be developed and implemented by November
           could be used by others to inappropriately access          15, 2010. Additionally, specific requirements for
           financial information.                                     Safeguarding of PII and Credit Card data will be
                                                                      added to each Finance Division employee’s FY
           For our review in FY 2010 follow up test work was          2011 (and future) Annual Performance Work Plan
           performed at various FLETC buildings in the Glynco,        to ensure there is no misunderstanding regarding
           Georgia complex. The designated FLETC Technical            each employee’s responsibilities in this area.
           Point of Contact and representatives from the DHS
           Office of Inspector General, the DHS Office of             Finance Office, Building 66 User Name and
           Information Security, and the FLETC Office of              Passwords: Remedial training will be conducted
           Physical Security accompanied KPMG to monitor              regarding safeguarding User Name and Passwords.
           testing and validate the results. After gaining access     Additionally,     specific    requirements     for
           to the facilities, we inspected a random selection of      safeguarding User Name and Passwords will be
           desks and offices, looking for items such as improper      added to each Finance Division employee’s FY
           protection of system passwords, unsecured                  2011 (and future) Annual Performance Work Plan
           information system hardware, documentation marked          to ensure there is no misunderstanding regarding
           FOUO, and unlocked network sessions. Our selection         each employee’s responsibilities in this area.
           of desks and offices was not statistically derived, and
           therefore we are unable to project results to the          For the CIO Operations and Support Division
           component or department as a whole. We reviewed            (OSD) in Bldg 681, remedial training will be
           over 90 desks and cubicles within the four locations.      conducted to ensure employees and contractors
                                                                      lock their doors and safeguard sensitive
                                                                      information. OSD will ensure the workstation
                                                                      screensaver feature is enabled on its workstations.

FLETC-     During the FY 2009 financial statement audit, KPMG         FLETC’s current SIM solution provides no                        X          2
IT-10-04   determined that logs of auditable events in the Gylnco     capability to correlate or aggregate audit logs
           Administrative Network (GAN) are not being                 which results in an arduous, un-trackable and
           reviewed to identify potential incidents.                  unmanageable audit log review process when
                                                                      handling millions of records each day. FLETC is
           During our FY 2010 review, KPMG determined that            currently in the process of procuring ArcSight
           FLETC has implemented the Security Information             ESM as a replacement SIM solution to address
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 117
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                        New     Repeat   Severity
                                Condition                                           Recommendation
 #No                                                                                                                        Issue    Issue    Rating
           Management System (SIM) with capabilities to              these and other shortcomings with the current
           manage and store logs of auditable events. However,       solution. ArcSight ESM allows for both simplified
           we determined that management does not have a             and exceptionally complex event correlation rule
           formal process for reviewing the audit logs on a          authorship.
           periodic basis.
                                                                     FLETC will deploy the ArcSight ESM solution
                                                                     during FY 2011. Users, such as ISSOs, will be
                                                                     provided focused dashboards with correlated
                                                                     information pertinent to their areas of
                                                                     responsibility. Audit logs will be reviewed as
                                                                     correlated and aggregated data and can be drilled
                                                                     down to in detail and reviewed when suspicious or
                                                                     anomalous records are found. Customized reports
                                                                     and automated alerts will be configured for each
                                                                     system and tailored for the audit log reviewer.
                                                                     Audit logs of access to the SIM itself will also be
                                                                     generated and reviewed to ensure users such as
                                                                     ISSO’s and the SOC are utilizing the system and
                                                                     reviewing audit records and responding to the
                                                                     configured automated alerts in a timely manner.

FLETC-     During the FY 2009 financial statement audit, KPMG        FLETC has implemented profile logging,                           X          3
IT-10-05   determined that access control weaknesses existed         however, due to the overwhelming volume of
           over Momentum access authorizations for user’s            events logged by the system, this has proven to be
           profiles created or modified during the fiscal year.      unusable in terms of identifying relevant activity.
                                                                     FLETC is working to better analyze and manage
           During the FY 2010 financial statement audit, KPMG        the profile logging reports. An SOP will be
           determined that access control weaknesses still existed   drafted to implement management oversight for
           over Momentum access authorizations for user’s            Momentum access authorizations for user’s
           profiles created or modified during the fiscal year.      profiles created or modified during the fiscal year.
           Specifically, we learned that new users and profile       This process will be developed and implemented
           changes are not being tracked by FLETC.                   by November 30, 2010.

FLETC-     During the FY 2009 financial statement audit, we          The FLETC will update the existing Risk                          X          2
IT-10-06   noted several weaknesses around access controls for       Acceptance to include the password exceptions
           the Student Information System (SIS) including:           noted in the condition above.
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 118
                                                                                                             Appendix B
                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2010

NFR                                                                                                  New     Repeat   Severity
                           Condition                                 Recommendation
#No                                                                                                  Issue    Issue    Rating
          �   SIS is configured to have a password history
              of two passwords stored.
          �   SIS is not configured to reset the account
              failed logon counter
          �   Users were not locked out after three invalid
              access attempts.
          �   SIS system administrators share a ‘root’
              username and password to perform
              administrative responsibilities.
          �   A sample of audit logs that track changes to
              system data could not be provided.
          �   User profile creation is not tracked and a
              listing of profile creation dates could not be
              provided.
          �   Evidence of periodic review of user accounts
              could not be provided.

      In FY 2010, we inquired with FLETC and noted that
      although some corrective actions have taken place, the
      following has not yet been implemented.
           � Users are not being locked out after 3 invalid
              attempts.
           � SIS password length minimum is configured a
              minimum of six.
           � SIS does not require a combination of
              alphabetic, numeric, and special characters.
           � Audit logs that track changes to system data
              are not being reviewed.
           � Profile creation and changes are not being
              tracked and a listing of profile updates could
              not be provided.
           � Periodic review of user accounts is not being
              conducted.


                Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                   Page 119
                                                                              Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

            � Immigration and Customs Enforcement




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 120
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

                                         Notice of Findings and Recommendations – Detail
                                              Immigration and Customs Enforcement

 NFR                                                                                                                        New     Repeat   Severity
                                Condition                                            Recommendation
 #No                                                                                                                        Issue    Issue    Rating
ICE-IT-   During the FY 2009 financial statement audit, KPMG          ICE should establish and implement a policy                     X          3
 10-01    performed an inspection of a sample of personnel that       governing the exit clearance process, identifying
          had terminated/transferred from their employment            the procedures separating employees and
          with ICE during the fiscal year. KPMG requested             contractors must take to ensure the return and\or
          evidence that exit clearance forms were completed for       safeguarding of government property, equipment,
          each employee to determine ICE management’s                 and systems; and the roles and responsibilities of
          compliance with exit clearance procedures. Of the 25        ICE offices involved in the exit clearance process.
          terminated/transferred ICE personnel sampled,
          evidence of compliance with exit clearance procedures
          could not be provided for 12 employees.

          During the FY 2010 financial statement audit, KPMG
          was informed that a policy and procedure has not been
          developed for the Personnel Exiting Process. ICE
          management stated that the Office of Human Capital
          (OHC) has implemented a multi-year mission action
          plan to address this and various other issues, but there
          has been no corrective action taken at this time.

ICE-IT-   During the FY 2009 audit, KPMG inquired of ICE              ICE should update the FFMS password                             X          3
 10-02    OCIO personnel about FFMS password settings. We             configuration settings to ensure that they are in
          determined that the FFMS password settings require          compliance with DHS 4300A policies.
          the use of an underscore and does not allow the use of
          any other special characters such as !, @, #, $, %, or *,
          which is not compliant with DHS policy. The DHS
          policy requires that passwords contain a combination
          of alphabetic, numeric, and special characters.

          During the FY 2010 audit, we performed follow-up
          inquiry to determine the status of this weakness and
          learned that the FFMS password setting control
          weakness has not been remediated. ICE management

                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 121
                                                                                                                                  Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                      New     Repeat   Severity
                               Condition                                           Recommendation
 #No                                                                                                                      Issue    Issue    Rating
          stated that a change to the system has been requested
          to include two additional characters in the password
          complexity. The special characters that will be added
          once the change is implemented are the #, $, and
          underscore. KPMG noted that Oracle uses the
          following characters (!, @, %, ^, &, *) as function
          key, therefore, they cannot be included in the
          password complexity. The remediation completion
          date is scheduled for November 2010.

ICE-IT-   During the FY 2009 audit, KPMG inquired of ICE            ICE management should establish and implement                   X
 10-03    OCIO personnel about the process for recertifying         policies and procedures to formally document the
          FFMS user access (review of access privileges) and        recertification of FFMS user privileges. This
          found that this process is not formally documented.       activity is the responsibility of OFM and the ISSO.
          Furthermore, KPMG found that the review for the           This process should include a method to document
          access privileges for each FFMS account is not            user recertification and a process to maintain
          adequately recorded and no audit trail is available to    evidence of the reviews.
          support that a recertification was completed.

          During the FY 2010 financial statement audit, we
          performed follow-up inquiry to determine the status of
          this weakness and learned that procedures have been
          documented and implemented for the FFMS
          recertification process, however, a formal policy has
          not been documented. KPMG found that users’
          logical access privileges were reviewed, recorded, and
          maintained, therefore this portion of the PY NFR as
          been remediated. However, per inquiry with ICE
          management, KPMG found that a formal policy still
          does not exist for the recertification of FFMS
          accounts.
ICE-IT-   During the FY 2009 financial statement audit, KPMG        ICE should enforce policies and procedures to                   X          3
 10-04    performed an inspection of a listing of FFMS users        ensure that assigned roles and responsibilities are
          and their assigned roles/responsibilities and             commensurate with personnel job functions.
          determined that six users had Originator, Funds
          Certification Official, and Approving Official profiles
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 122
                                                                                                                                   Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                               Condition                                           Recommendation
 #No                                                                                                                       Issue    Issue    Rating
          that were in violation of FFMS segregation of duties
          policies.

          During the FY 2010 financial statement audit, we
          performed follow-up inquiry to determine the status of
          this weakness and learned that draft FFMS segregation
          of duty policy is in place, but, is not being followed.
          In addition, KPMG inspected a listing of FFMS users
          and their assigned roles/responsibilities and
          determined that one user had Originator, Funds
          Certification Official, and a Approving Official
          profile, which is a violation of the FFMS segregation
          of duties policy.

ICE-IT-   During the FY 2010 financial statement audit, KPMG        ICE Office of Financial Management (OFM) will           X                   3
 10-05    determined that FFMS audit logs were not generated        finalize, seek approval, and formally implement
          or reviewed during the period October 2009 through        the draft policy and procedures. In the meantime,
          February 2010. As of March 2010, the logs were            the draft policy will be used to provide an accurate
          generated and reviewed, however, no supporting            audit log.
          evidence could be provided.        Additionally, we
          determined that audit log policy and procedures have
          been drafted, however, they have not been finalized,
          approved, and implemented.

ICE-IT-   During the FY 2009 financial statement audit, KPMG        Ensure implementation of the ICE Exit Clearance                  X          3
 10-06    determined that weaknesses exist over ADEX access.        Directive which will establish the process for
          Specifically, KPMG found that 14 users, which were        separating employees, both Federal and
          separated from ICE, still had active ADEX accounts        contractors, and formalize a process to ensure that
          that were not removed upon their termination/transfer.    separating employees have their access to all ICE
                                                                    information technology systems removed.
          During the FY 2010 financial statement audit, we
          performed follow-up inquiry to determine the status of
          this weakness and learned that ICE has implemented a
          compensating control that will disable users account
          after 45 days of inactivity to mitigate the control
          weakness. However, KPMG found that a separated
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 123
                                                                                                                               Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                   New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                   Issue    Issue    Rating
          employee’s account was not disabled in a timely
          manner as the account was accessed after the
          employee’s termination date. Therefore, the 45-day
          window was inappropriately delayed. In addition, we
          determined that DHS access controls policies are not
          being followed as users are not properly identified and
          authenticated. Based on ICE management’s response
          to this weakness “either another user logged on as the
          terminated user or Information Technology Field
          Officer (ITFO) logged in using the terminated
          employee’s credentials.”
ICE-IT-   During the FY 2010 financial statement audit, KPMG        As of July 2010 FFMS has been moved from the        X                   2
 10-07    determined that several physical and environmental        Department of Commerce OCS to Data Center 2
          controls exist within the OCS Datacenter. Specifically,   (DC2). DC2 will be reviewed and monitored to
          we noted the following:                                   ensure compliance with all physical and data
               � OCS Data Center Risk Assessment is not             security requirements.
                   documented.
               � Re-entry procedures for personnel after an
                   emergency evacuation are not documented.
               � Fire suppression testing documentation is not
                   maintained.
               � Water damage was visible on the data center
                   wall where FFMS servers are housed with no
                   incident report of the event.
               � UPS testing documentation is not maintained.
ICE-IT-   During the FY 2010 financial statement audit, we          Ensure that environmental systems (Heat             X                   2
 10-08    determined that the environmental controls in the PCN     Ventilation Air Conditioner, fire extinguishers,
          computer room need improvement. Specifically, we          and Universal Power Supply) are tested annually
          found that environmental test results are not             with test results made available for review.
          documented and maintained for the following devices:
          AC units, fire extinguishers, and back-up power
          supply.
ICE-IT-    Social engineering is defined as the act of attempting   Social Engineering is covered in the Annual                  X          3
 10-09     to manipulate or deceive people into taking action       Information Assurance Awareness Training
           that is inconsistent with DHS policies, such as          (IAAT) – which is a requirement for all ICE
           divulging sensitive information or allowing/enabling     employees. The IAAT should continue to stress
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 124
                                                                                                                             Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                 New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                 Issue    Issue    Rating
           computer system access. The term typically applies        social engineering risks and greater outreach
           to trickery or deception for the purpose of               should be achieved.
           information gathering, or computer system access.

           During the course of our social engineering test work,
           the objective was primarily focused on attempting to
           identify user IDs and passwords. Posing as DHS
           technical support employees, attempts were made to
           obtain this type of account information by contacting
           randomly selected employees by telephone. A script
           was used to ask for assistance from the ICE user in
           resolving a network issue in the component. For
           each person we attempted to call, we noted whether
           the individual was reached and whether we obtained
           any information from them that should not have been
           shared with us according to DHS policy. Our
           selection of desks and offices was not statistically
           derived, and therefore we are unable to project results
           to the component or department as a whole.

          During the FY 2010 financial statement audit, we
          learned that ICE continues to promote security
          awareness training by distributing a weekly newsletter
          to employees and contractors about security
          awareness. However, KPMG found that the prior year
          security weakness still exists.
ICE-IT-   We performed after-hours physical security testing to      Security Awareness is covered in the Annual      X                   3
 10-10    identify risks related to non-technical aspects of IT      IAAT – which is a requirement for all ICE
          security. These non-technical IT security aspects          employees. The IAAT should continue to stress
          include physical access to equipment that houses           security awareness risks and greater outreach
          financial data and information residing on an ICE          should be achieved.
          employee’s desk which could be used by others to
          inappropriately access financial information. The
          testing was performed at various ICE locations that
          process and/or maintain component financial data.
          After gaining access to the facilities via an ICE
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 125
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                                Condition                                           Recommendation
 #No                                                                                                                       Issue    Issue    Rating
          employee designated to assist with and monitor our
          testwork, we inspected a random selection of desks
          and offices looking for items such as improper
          protection of system user names and passwords,
          unsecured       information       system      hardware,
          documentation containing PII or marked FOUO, and
          unlocked network sessions. Our selection of desks
          and offices was not statistically derived, and therefore
          we are unable to project results to the component or
          department as a whole. For each location visited, we
          noted the type of unsecured information or property
          we identified and included the total exceptions noted
          by location, as well as by type of information or
          property identified.

          During the FY 2010 financial statement audit, we
          learned that ICE continues to promote security
          awareness training and distributes a weekly newsletter
          to employees and contractors about security
          awareness. However, KPMG found that security
          weaknesses still exist.
ICE-IT-   In FY 2009, we found that ICE lacked policies and           OCIO will provide management oversight and                     X          2
 10-11    procedures requiring completion of a training program       guidance for training personnel with significant
          by personnel in IT security positions.                      responsibilities for information security.
          During the FY 2010 financial statement audit, we
          learned that to correct the prior year NFR, ICE follows
          DHS 4300A policy for training personnel in IT
          security positions, therefore, this portion of the NFR is
          closed. However, during our testwork we determined
          that weaknesses still exist over training personnel in
          IT security positions. Specifically, we determined that
          27 out of 45 IT security personnel have not completed
          specialized training.

ICE-IT-   During the FY 2010 financial statement audit, KPMG          ICE should ensure that re-entry procedures are        X                   2
 10-12    determined that physical safeguard weaknesses exist at      properly documented at the Clarksville data center
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 126
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                     New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                     Issue    Issue    Rating
          the DC2 datacenter. Specifically, we determined the       and make certain that          servers   are   not
          following:                                                inappropriately identified.
               � Re-entry procedures after an emergency have
                  been implemented, however, the procedures
                  are not documented.
               � FFMS server is inappropriately marked with
                  a label that identifies the application/data on
                  the server.

ICE-IT-   During KPMG’s internal vulnerability assessment           ICE should take the necessary steps to begin          X                   3
 10-13    efforts of ICE’s FFMS network, servers and databases      examining the default configuration installations
          performed in August 2010, KPMG identified several         and system services installed on FFMS devices
          High/ Medium Risk vulnerabilities, related to             and determine if the default configurations can be
          configuration management such as:                         set to increase FFMS’s security or, in the case of
          � Hot Standby Router Protocol (HSRP) default              unnecessary system services, deleted to reduce
              installation on Cisco routers and switches            FFMS vulnerability to attack.
          � Default “Oracle Listener Program (tnslsnr)”
              service password on server installation
          � Outdated Microsoft Operating Systems
          � Bonjour (also known as ZeroConf or mDNS)
              listening protocol
          � Remote web server HTML form fields transmits
              data in clear text

ICE-IT-   During KPMG’s internal vulnerability assessment           ICE should take the necessary steps to begin          X                   3
 10-14    efforts of ICE’s FFMS network servers and databases       applying the appropriate FFMS database patches
          performed in August 2010, KPMG identified several         to ensure patch compliance.
          High/ Medium Risk vulnerabilities, related to several
          configuration and patch management weaknesses
          within the configuration of the FFMS ICE and CIS
          Oracle database instances such as:
          � Clear text passwords stored in database
          � Outdated patches
          � Table security configurations
          � User account privileges
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 127
                                                                                                                           Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2010

 NFR                                                                                                               New     Repeat   Severity
                               Condition                                       Recommendation
 #No                                                                                                               Issue    Issue    Rating
          �   Password settings for users and database

ICE-IT-   During KPMG’s internal vulnerability assessment         ICE should take the necessary steps to begin      X                   3
 10-15    efforts of ICE’s FFMS network servers and databases     applying the appropriate FFMS patches to the
          performed in August 2010, KPMG identified several       FFMS network servers and databases to ensure
          High/ Medium Risk vulnerabilities, related to missing   patch compliance.
          or inadequate patches such as:
          � Microsoft Patches
          � Adobe Reader
          � Apache Tomcat
          � Java Runtime Environment (JRE)
          � Oracle Database (server installation)
          � HP System Management
          � Internet Explorer
          � MySQL database

ICE-IT-   During KPMG’s internal vulnerability assessment         ICE should ensure that password configuration     X                   3
 10-16    efforts of ICE’s ADEX network servers and devices       settings are properly and effectively applied.
          performed in August 2010, KPMG identified a default
          installation and configurations for the HSRP on the
          Cisco routers.




                   Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                      Page 128
                                                                              Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

                � Office of Financial Management
               � Office of Chief Information Officer




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 129
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

                                         Notice of Findings and Recommendations – Detail
                                                  Office of Financial Management
                                                Office of Chief Information Officer

 NFR                                                                                                                       New     Repeat   Severity
                                Condition                                          Recommendation
 #No                                                                                                                       Issue    Issue    Rating
 CONS-     During our follow-up on this prior year issue, we        We recommend that DHSNET logical access                          X         1
IT-10-01   noted that the following password configurations for     configuration be aligned with DHS 4300A
           the DHS Internet domain, which controls access to the    requirements concerning account lockout and
           DHSTIER and CFO Vision, are not in compliance            workstation idle session termination.
           with DHS 4300A requirements:
           � The account lockout counter is configured to reset
               after 30 minutes rather than (24 hours as required
               by DHS policy; and
           � Workstation idle sessions termination is
               configured to lock workstations after 15 minutes
               of inactivity rather than 5 as required by DHS
               policy.
 OCIO-     DHS is in the process of becoming fully compliant        We recommend that the DHS OCIO:                                  X         2
IT-10-01   with the Federal Desktop Core Configuration (FDCC)       � Finalize the DHS Hardening Guides for
           security configurations. Each DHS component agency         Windows desktop operating systems and
           has begun testing or implementing the FDCC security        distribute them to all DHS component agencies.
           configurations; however, full compliance with FDCC       � Continue with the full implementation of
           security configurations for all DHS components is not      FDCC security configurations across all DHS
           planned to be completed until the end of FY 2011.          component agencies.

 OCIO-     During the FY 2010 financial statement, we noted two     DHS should revise the DHS Handbook for                  X                  1
IT-10-02   weaknesses within DHS policies that require further      Safeguarding Sensitive PII to clarify that access to
           evaluation and clarification. The following              PII be restricted to those with a need to know.
           observations     were    noted    for    management
           consideration over access to PII and Segregation of      DHS should revise DHS 4300A Policy and
           Duties principles:                                       Handbook, 7.1.1, Section 5.3 Auditing, to clarify
           � DHS Sensitive Systems Policy (DHS MD 4300A             that the review of logs should be independent
               Section 3.14.1) refers to the DHS Handbook for       adhering to segregation of duties principles.
               Safeguarding Sensitive PII. We found that section
               2.4.4 is too broad when assessing that when PII is

                      Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                         Page 130
                                                                                                           Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2010

NFR                                                                                               New     Repeat   Severity
                            Condition                                 Recommendation
#No                                                                                               Issue    Issue    Rating
          physically secure; all staff with access to the
          workspace have a “need to know” and can access
          the PII.
      �   A violation of segregation of duties exists within
          the DHS 4300A Section Version 7.1.1, Section
          5.3 Auditing. The policy allows the system
          administrator to review the audit records for
          financial systems or for systems hosting or
          processing PII on a monthly basis. The review of
          the audit logs should be independent (e.g., system
          administrator of a separate application, security
          administrator) since the system administrator
          typically has full access rights and the authority to
          make changes to the system that may go
          unnoticed.




                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 131
                                                                             Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




            Department of Homeland Security
 FY 2010 Information Technology - Notice of Findings and
               Recommendations – Detail

            � Transportation Security Administration




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 132
                                                                                                                                            Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

                                         Notice of Findings and Recommendations – Detail
                                              Transportation Security Administration

 NFR                                                                                                                                New      Repeat   Severity
                                   Condition                                               Recommendation
 #No                                                                                                                                Issue     Issue    Rating
TSA-IT-   To complement our IT audit testing efforts as part of the FY      We recommend TSA in the area of physical                           X         1
 10-01    2010 DHS Integrated Audit, we also performed social               Security to:
          engineering and after hours physical security testing During      � Continue to execute the IT Security
          our testing we identified the following                               Awareness Training program;
                                                                            � Conduct         internal     Physical      Security
          During our after-hours physical security testing, we identified       walkthrough on a bi-annual basis;
          one instance of an unsecured laptop computer;
                                                                            � Conduct one-on-one training with individuals
                                                                                failing physical security after-hours testing;
          During our social engineering testing, we were provided with
          three user’s passwords.                                           � Take administrative actions, if needed, on a
                                                                                case-by-case basis; and
                                                                            � TSA will conduct a communications campaign
                                                                                to address the effects of improper handling of
                                                                                Physical Security.

                                                                            We recommend TSA in the area of social
                                                                            engineering to:
                                                                            � Continue to execute the IT Security
                                                                                Awareness Training program;
                                                                            � Conduct internal Social Engineering testing on
                                                                                a quarterly basis;
                                                                            � Conduct one-on-one training with individuals
                                                                                failing social engineering attempts.
                                                                            � TSA will take administrative actions, if
                                                                                needed, on a case-by-case basis.
                                                                            � TSA will conduct a communications campaign
                                                                                via broadcast warning against social
                                                                                engineering.
TSA-IT-   Core Accounting System (CAS) & Financial Procurement              We recommend TSA to take the following                             X         2
 10-02    Desktop (FPD)                                                     corrective actions:
          During our FY 2010 IT test work, we determined that TSA           CAS/FPD:
          had created an Internal Standard Operating Procedure (ISOP)
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 133
                                                                                                                                    Appendix B
                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2010

NFR                                                                                                                         New      Repeat   Severity
                               Condition                                             Recommendation
#No                                                                                                                         Issue     Issue    Rating
      to detail how quarterly access reviews were to be performed.     �   Have FINCEN update its helpdesk procedures
      We compared a listing of TSA CAS and FPD users to the                to provide the correct guidelines so that its
      master listing of users who needed modifications or deletions        helpdesk staff will no longer grant additional
      for three quarters (Q1, Q2, and Q3). We did not identify any         Standard FPD roles that were not requested on
      exceptions for Q1 and Q2; however, for the 3rd quarter, one          Account Access Request (AAR). TSA should
      CAS user was not deleted or modified within 50 days after the        closely monitor the requests implemented by
      end of the completion of the 3rd quarter. In addition, we            FINCEN to ensure that the updated procedures
      noted 115 FPD users were not deleted or modified within 51           are being followed.
      days after the completion of the 3rd quarter.                    �   TSA should improve the timeline and process
                                                                           of its Quarterly Review. TSA should update
      Sunflower                                                            its procedures to monitor the timeliness,
      During our FY 2010 test work, we determined that the Office          accuracy and quality of the Quality Review
      of Property Management (OPM) performs monthly access                 process.
      reviews over Sunflower user accounts. OPM runs three                     a.      Update Quarterly Review ISOP to
      Sunflower reports each month, and the Deputy Property                            add the expected timeline to
      Management Officials (DPMOs) and OPM Access Manager                              complete the quarterly review.
      review the reports and provide dates and initials by each user           b.      Conduct timely follow-up and
      reviewed. However, for the three months sampled, we                              review of the actual FINCEN
      determined that three Sunflower users, who had update                            implementation of the AARs to
      privileges, had not had their access removed in a timely                         ensure that the AARs were
      manner. All users were reviewed in January, but two were                         implemented as requested.
      not removed until July, and the other user was not removed
                                                                       �   TSA should work with FINCEN to identify
      until August.
                                                                           and implement the best solution to remove the
                                                                           one Sunflower role from the user’s profile.
                                                                       �   TSA should work with FINCEN to research
                                                                           and identify options to enhance the automated
                                                                           AAR process.

                                                                       Sunflower:
                                                                       � TSA will provide more training and oversight
                                                                          for any new access manager to ensure the
                                                                          process is thoroughly followed.
                                                                       � TSA will closely monitor and follow-up with
                                                                          FINCEN to ensure requests are implemented
                                                                          timely and correctly.
                Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                   Page 134
                                                                                                                                         Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                             New      Repeat   Severity
                                   Condition                                              Recommendation
 #No                                                                                                                             Issue     Issue    Rating
                                                                           �    TSA will review and identify alternate
                                                                                reporting processes in cases of technical
                                                                                difficulties where supervisors cannot access
                                                                                the master files on SharePoint.
TSA-IT-   During our FY 2010 audit test work, we selected a sample of      We recommend that TSA take the following                         X         1
 10-03    the following forms required by the TSA directive and            corrective action:
          determined the following:                                        Supervisors and Contracting Officer’s Technical
          � Form 1403 Computer Access Agreement: Per the TSA               Representatives within each program office in
               IT Security Policy Handbook, all TSA personnel,             TSA should ensure, as required by the IT Security
               including contractors, are required to review and sign      Policy Handbook, that evidence be maintained on
               Form 1403: Computer Access Agreement upon                   file for each TSA employee and contractor the
               commencement of working for the agency. Our testing         Computer Access Agreement form, signed prior to
               noted that of the five forms sampled, one form was          any financial system access is granted.
               completed one month after the user was granted access to
               a TSA system.
TSA-IT-   During the FY 2010 IT audit, we determined that TSA has          We recommend that TSA work with the DHS                X                   2
 10-04    fully implemented the TSA ISOP: Process for Validation of        Chief Financial Officer and the DHS Chief
          Controls over the USCG Script Process to monitor scripts run     Information Officer to ensure that Coast Guard
          at FINCEN.                                                       Headquarters' completes, in a timely manner, the
                                                                           planned corrective actions to:
          Specifically, we noted that TSA has implemented an               � Update the scripting policies and procedures
          extensive review of the scripts that impact TSA on a weekly,         to include additional and more detailed test
          monthly, quarterly and ad hoc basis. Additionally, a baseline        documentation;
          review was performed to ensure that all scripts that were run    � Develop training that addresses all aspects of
          in production prior to 4/1/2010, this was approximately 160          script testing (including documentation of test
          scripts and that they were reviewed for their purpose and the        documents) and provide training to
          financial impact of the scripts were understood by the various       appropriate CM staff;
          stakeholders in the script review process, which included the
                                                                           � Develop an RP with associated supporting
          Script Technical Lead, Script Module Leads (SMLs), and
                                                                               business case(s) to address the database audit
          Subject Matter Experts (SMEs). Any script that was not
                                                                               logging requirements;
          included in the baseline review was considered new and was
          included in the weekly, monthly, quarterly and ad hoc review     �   Develop procedures and perform regular
          process. The reviews conducted by TSA included validation            account revalidation for Serena to ensure
          and verification steps to ensure that the Coast Guard is             privileges remain appropriate; and
          properly tracking the TSA scripts and that those scripts go      �   Conduct an assessment over the ICFOR
          through the proper configuration management processes.               process related to identifying and evaluating
                    Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                       Page 135
                                                                                                                                        Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                                             New      Repeat   Severity
                               Condition                                               Recommendation
#No                                                                                                                             Issue     Issue    Rating
                                                                            scripts that have a financial statement impact.
      We noted no exceptions during our testing of the TSA Script           This assessment can be included in the
      Configuration Management Oversight Process.                           Configuration Management Oversight Process
                                                                            as part of Coast Guard’s annual A-123 efforts
      Configuration Management Controls Over the Coast Guard                or performed independent of the A-123
      Scripting Process                                                     process. We recommend that this assessment
                                                                            (1) be performed early in the FY 2011, in time
      The analysis conducted over the Coast Guard script                    to remediate deficiencies before the end of the
      configuration management process reflects the assessment of           third quarter, and (2) involve process
      the control environment for the entire fiscal year.                   documentation and sufficient testing to fully
      Weaknesses identified over the process are risks that existed         assess both design and operating effectiveness
      in the environment from October 2009 to September 2010                of controls. The objective being to have a
      unless otherwise noted.                                               reliable process and internal controls in place
                                                                            that allow the auditor to test, and rely on those
      �   Based upon follow-up test work performed in FY 2010,              controls, during the fourth quarter of FY 2011.
          we determined that some previously noted weaknesses
          were remediated (particularly in the second half of FY        TSA Specific Recommendation:
          2010), while other control deficiencies continued to exist.
          The remaining control deficiencies that were present          Continue to conduct an assessment over the
          throughout FY 2010 vary in significance, however three        ICFOR process related to identifying and
          key areas that impact the Coast Guard Script control          evaluating scripts that have a financial statement
          environment are: 1) Script Testing Requirements, 2)           impact. Findings will be communicated and
          Script Testing Environment, and 3) Script Audit Logging       coordinated with USCG, as appropriate. This
          Process.                                                      assessment can be included in the testing of the
                                                                        TSA Script Configuration Management Oversight
          -   Script Testing Requirements:        Limited testing       Process as part of TSA’s annual A-123 efforts.
              requirements exist to guide FINCEN staff in the           Further, we recommend that this assessment (1) be
              development of test plans and guidance over the           performed early in the FY 2011, in time to
              functional testing that should be performed.              remediate deficiencies before the end of the third
              Additionally, we determined that there are no             quarter, and (2) involve process documentation
              detailed requirements over the review and testing of      and sufficient testing to fully assess both design
              functional changes to the data. FINCEN only tracks        and operating effectiveness of controls. The
              and documents the number of transactions updated          objective being to have a reliable process and
              on scripts that have a financial impact and not the       internal controls in place that allow the auditor to
              detailed dollar amounts associated with the financial     test, and rely on those controls, during the fourth
              impact transactions.                                      quarter of FY 2011.

                Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                   Page 136
                                                                                                             Appendix B
                                            Department of Homeland Security
                                        Information Technology Management Letter
                                                   September 30, 2010

NFR                                                                                                  New      Repeat   Severity
                              Condition                                  Recommendation
#No                                                                                                  Issue     Issue    Rating
          -   Script Testing Environment: Not all script changes
              were tested in the appropriate CAS Suite test
              environments as required. FINCEN management
              informed us that the testing environments, CAS4 and
              LUFSFQT3, were offline for these exceptions due to
              a refresh of the databases and that testers used CAS3
              and Alpha as alternate testing environments instead.
              However, FINCEN management informed KPMG
              that these environments are refreshed on an as
              needed basis and no further information could be
              provided over how frequently the CAS3 and Alpha
              databases were refreshed to verify that the scripts
              were adequately tested in the appropriate
              environment. Furthermore, we determined that
              guidance is not provided over the use of alternate
              testing environments for the testing of scripts to
              ensure they are adequately tested.
          -   Script Audit Logging Process: The CAS, FPD, and
              Sunflower databases are logging changes to tables as
              well as successful and unsuccessful logins.
              However, no reconciliation between the scripts run
              and the changes made to the database tables is being
              performed to monitor the script activities and ensure
              that all scripts run have been approved through
              change management script system (CMSS) or
              Serena. In addition, we noted that FINCEN has not
              established a formal process to monitor and review
              changes made to the Sunflower database including
              the tables and activities modified by the database
              administrators.
      Internal Control Over Financial Reporting – Financial
      Statement Impact.
      The USCG has established certain processes to identify and
      assess the validity of scripts that may have a financial

                Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                   Page 137
                                                                                                              Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2010

NFR                                                                                                   New      Repeat   Severity
                               Condition                                   Recommendation
#No                                                                                                   Issue     Issue    Rating
      statement impact [on both USCG and TSA financial
      statements]. This process is performed by one primary
      individual, and two identified backup personnel, who
      performs a review of the script for accuracy and propriety,
      provides feedback to the source, and ultimately approves the
      application. This process has certain control deficiencies that
      have been communicated to USCG (see NFR # CG-IT-10-
      05), which have lead, in part, to TSA’s adoption of certain
      redundant controls to review TSA scripts for propriety.
      Furthermore, the rationale documenting the impact of the
      script, whether deemed as having financial impact or not, is
      not documented and retained. In addition, within the CAS
      Suite environment, there are over 200 scripts run on a weekly
      basis. During FY 2010, through this review TSA has
      discovered various errors that USCG was required to correct.
      The exceptions noted by TSA are indicative of weaknesses in
      the USCG process.
      We also consider this control aspect to be principally
      important for TSA to monitor Coast Guard’s corrective
      actions taken. In addition, TSA should consider, as part of
      their annual A-123 efforts, adding their own A-123 testing
      procedures in identifying and evaluating the financial impact
      of TSA scripting at the Coast Guard.




                 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                    Page 138
                                                                             Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




              Department of Homeland Security
              FY 2010 Information Technology
   Notification of Findings and Recommendations – Detail


       �   United States Citizenship and Immigration Services




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 139
                                                                                                                                  Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

                                        Notice of Findings and Recommendations – Detail
                                       United States Citizenship and Immigration Services

 NFR                                                                                                                     New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                     Issue    Issue    Rating
CIS-IT-   During the FY 2010 financial statement audit, we         The USCIS Office of Information Technology will                 X         3
 10-01    performed inquiry follow-up to determine the status of   finalize the CLAIMS 3 LAN Account
          this weakness and learned that the access roles at the   Management Procedures that address account
          National Benefits Center (NBC) for CLAIMS3 LAN           identification,    set-up,    recertification, and
          have not be defined and documented. USCIS has            termination and access request form maintenance.
          begun some corrective action; however, these issues      These procedures reflect how all CLAIMS 3 LAN
          have not been fully remediated.                          accounts will be managed at each facility that
                                                                   utilizes the CLAIMS 3 LAN.
CIS-IT-   During the FY 2010 financial statement audit, we         The USCIS OIT will continue to review CLAIMS                    X         3
 10-02    performed inquiry follow-up to determine the status of   3 LAN accounts for those that have been inactive
          this weakness and learned that the weakness has not      for 45 days manually and to remove user’s that
          been remediated for CLAIMS3 LAN periodic user            appear on the Office of Human Capital and
          access reviews. USCIS has begun some corrective          Training (HCT) attrition bi-weekly list. OIT will
          action; however, these issues have not been fully        finalize the CLAIMS 3 LAN Account
          remediated.                                              Management Procedures that address account
                                                                   identification,    set-up,    recertification, and
                                                                   termination and access request form maintenance.
                                                                   OIT will continue to work with the OIT Account
                                                                   Management Group, the IT Project Manager and
                                                                   each installation site to recertify CLAIMS 3 LAN
                                                                   accounts and ensure a current and valid access
                                                                   request form is filed. OIT will continue to work
                                                                   with HCT to ensure their exit clearance process
                                                                   includes procedures to promptly notify OIT when
                                                                   employees leave or transfer. OIT will also finalize
                                                                   the USCIS Account Management, Management
                                                                   Directive (Agency Policy).
CIS-IT-   During the FY 2010 financial statement audit, we         The USCIS OIT will finalize the CLAIMS 3 LAN                    X         2
 10-03    performed inquiry follow-up to determine the status of   and CLAIMS 4 Account Management Procedures
          the prior year NFR and learned that the weakness still   that address account identification, set-up,
          exist for incomplete or inadequate access request        recertification, and termination and access request
          forms for CLAIMS 3 LAN and CLAIMS 4. USCIS               form maintenance. OIT will continue to work
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 140
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                               Condition                                           Recommendation
 #No                                                                                                                       Issue    Issue    Rating
          has begun some corrective action; however, these          with the OIT Account Management Group, the IT
          issues have not been fully remediated.                    Project Manager and each installation site to
                                                                    recertify CLAIMS 3 LAN and CLAIMS 4
                                                                    accounts and ensure a current and valid access
                                                                    request form is filed.
CIS-IT-   In FY 2009, KPMG performed an inspection of a             We recommend USCIS management issue and                          X         2
 10-04    sample of personnel that had terminated/transferred       adhere to exit clearance policies and procedures to
          from their employment with USCIS during the fiscal        be followed in the event of transfer, termination or
          year. KPMG requested evidence that exit clearance         separation of federal and contract personnel.
          forms were completed for each employee to determine       Resources should be made available to
          USCIS        management’s       compliance       with     communicate the updated procedures to personnel,
          termination/transfer procedures.        Of the 28         train mission support staff who have a critical role
          terminated/transferred USCIS personnel sampled,           in the updated process, and enforce and monitor
          evidence of compliance with exit clearance procedures     compliance with the exit procedures and policies.
          could not be provided for 19 employees.

          During the FY 2010 financial statement audit, we
          learned that USCIS Human Resource Division revised
          the existing terminated/transferred procedures for exit
          processing; however, the procedures have not been
          approved nor implemented.
CIS-IT-   During the FY 2010 financial statement audit, we          The USCIS OIT will finalize the USCIS Media                      X         1
 10-05    performed inquiry follow-up to determine the status of    Protection Management Directive and the USCIS
          this weakness and learned that equipment and media        Media Protection Procedures and ensure they are
          policies and procedures are not current. USCIS has        readily available to USCIS personnel. OIT will
          begun some corrective action; however, these issues       continue to work with the Office of Administration
          have not been fully remediated.                           to ensure there is a standardize process to label,
                                                                    track, sanitize, refurbish, and/or destroy USCIS
                                                                    media using approved equipment and software.

CIS-IT-   During KPMG’s internal vulnerability assessment of        USCIS will monitor the Mission Action Plans             X                  3
 10-06    FFMS performed in August 2010, KPMG identified            (MAP) of the associated ICE NFRs: IT-10-12, IT-
          several High/ Medium Risk vulnerabilities, related to     10-13, IT-10-14, IT-10-15 and request periodic
          the following:                                            status updates.
          � FFMS mainframe production databases were
               installed and configured without baseline security
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 141
                                                                                                                                    Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                               Condition                                            Recommendation
 #No                                                                                                                       Issue    Issue    Rating
              configurations, including the USCIS Oracle
              instance
          �   FFMS servers have missing or inadequate patches

          In addition, we found physical safeguard weaknesses
          at the DHS DC2 data center, which impact USCIS
          operations. Specifically, we determined the following:
          � Re-entry procedures after an emergency have
                been implemented; however, the procedures are
                not documented.
          � FFMS server is inappropriately marked with a
                label that identifies the application/data on the
                server.
CIS-IT-   During the FY 2009 financial statement audit, KPMG         The USCIS OIT will continue to evaluate the risk                X         2
 10-07    performed inspection of the CLAIMS 4 password              imposed on the CLAIMS 4 system by not
          configuration settings. Per our inspection, KPMG           changing the password history from 6 to 8. If it is
          determined that CLAIMS 4 has been configured to            deemed that the risk is low, OIT will submit a
          prohibit password reuse for 6 generations, which does      Waivers and Exceptions Request Form to the DHS
          not meet the DHS 4300A requirement of 8 password           CISO. If the risk is deemed medium or high, OIT
          generations. During the FY 2010 financial statement        will continue to implement the password changes
          audit, we performed inquiry follow-up to determine         as outlined in the FY 2009 USCIS OIT MAP.
          the status of this weakness and learned that the
          weakness has not been remediated for CLAIMS4
          password configuration. USCIS has begun some
          corrective action; however, these issues have not been
          fully remediated.
CIS-IT-   During the FY 2010 financial statement audit, we           The USCIS OIT will continue to finalize the                     X         1
 10-08    performed inquiry follow-up to determine the status of     Media Protection Procedures for the Vermont
          this weakness and learned that ineffective safeguards      Service Center. OIT will test VSC’s OIT Visitor
          still exist over physical access to sensitive facilities   Policy and Procedures to ensure they address the
          and resources. USCIS has begun some corrective             physical security concerns listed in the condition
          action; however, these issues have not been fully          statement.
          remediated.
CIS-IT-   In FY 2009, we determined that the USCIS lacks             OIT will continue to finalize the USCIS Audit and               X         2
 10-09    policies and procedures over audit logging of              Accountability Management Directive and
          application and server audit logs for CLAIMS 3 LAN         implement enterprise audit logging software. OIT
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 142
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                   New     Repeat   Severity
                               Condition                                         Recommendation
 #No                                                                                                                   Issue    Issue    Rating
          and CLAIMS 4 system. Specifically, we learned that       will ensure CLAIMS 3 LAN and CLAIMS 4 audit
          CLAIMS3 LAN generates audit logs; however, the           logs are provided to the enterprise audit logging
          USCIS does not require that the logs are reviewed or     software for analysis. Once the integration of
          maintained. In addition, we determined that the          CLAIMS 3 LAN and CLAIMS 4 and the
          USCIS does not have policies or procedures in place      enterprise audit logging software is complete,
          for maintaining and reviewing the audit logs. For        develop CLAIMS 3 LAN and CLAIMS 4 audit
          CLAIMS4, we noted that Computer Service                  and accountability procedures.
          Corporation (CSC) contractors capture and review the
          logs of user access to CLAIMS4; however, no reviews
          of significant changes in the application or to system
          files are conducted. Additionally, no policies or
          procedures have been established for conducting and
          monitoring the audit log reviews.

          During the FY 2010 financial statement audit, we
          learned that USCIS has begun some corrective action;
          however, these issues have not been fully remediated.
          Therefore, this finding is being reissued.
CIS-IT-   During the FY 2010 financial statement audit, we         The USCIS Office of Information Technology                    X         2
 10-10    performed inquiry follow-up to determine the status of   (OIT) will finalize the CLAIMS 4 Account
          this weakness and learned that weak logical access       Management Procedures that address account
          controls still exist over CLAIMS 4. USCIS has begun      identification,  set-up,   recertification,   and
          some corrective action; however, these issues have not   termination and access request form maintenance.
          been fully remediated.                                   OIT will continue to work with the OIT Account
                                                                   Management Group, the IT Project Manager and
                                                                   each installation site to recertify CLAIMS 4
                                                                   accounts and ensure a current and valid access
                                                                   request form is filed. OIT will also finalize the
                                                                   USCIS Account Management, Management
                                                                   Directive (Agency Policy).

                                                                   OIT will continue to review CLAIMS 4 accounts
                                                                   for those that have been inactive for 45 days
                                                                   manually and to remove users that appear on the
                                                                   Office of HCT attrition bi-weekly list. OIT will
                                                                   continue to work with HCT to ensure their exit
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 143
                                                                                                                                   Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2010

 NFR                                                                                                                      New     Repeat   Severity
                               Condition                                          Recommendation
 #No                                                                                                                      Issue    Issue    Rating
                                                                   clearance process includes procedures to promptly
                                                                   notify OIT when employees leave or transfer.

                                                                   The HCT must finalize Exit Clearance Process
                                                                   policies and procedures and ensure that these
                                                                   documents are disseminated agency-wide.
                                                                   Specifically, ensure that contracting officers,
                                                                   contacting officers’ technical representatives,
                                                                   managers and supervisors are informed about these
                                                                   documents and understand their importance.

CIS-IT-   During the FY 2010 financial statement audit, we         The USCIS OIT will continue to review CLAIMS                     X         2
 10-11    performed inquiry follow-up to determine the status of   3 LAN accounts for those that have been inactive
          this weakness and learned that CLAIMS3 LAN still         for 45 days manually and to remove user’s that
          lacks policy and procedures for separated employees.     appear on the Office of HCT attrition bi-weekly
          USCIS has begun some corrective action; however,         list. OIT will finalize the CLAIMS 3 LAN
          these issues have not been fully remediated.             Account Management Procedures that address
                                                                   account identification, set-up, recertification, and
                                                                   termination and access request form maintenance.
                                                                   OIT will continue to work with HCT to ensure
                                                                   their exit clearance process includes procedures to
                                                                   promptly notify OIT when employees leave or
                                                                   transfer.    OIT will also finalize the USCIS
                                                                   Account Management Directive (Agency Policy).

                                                                   The HCT must finalize Exit Clearance Process
                                                                   policies and procedures and ensure that these
                                                                   documents are disseminated agency-wide.
                                                                   Specifically, ensure that contracting officers,
                                                                   contacting officers’ technical representatives,
                                                                   managers and supervisors are informed about these
                                                                   documents and understand their importance.
CIS-IT-   During the FY 2010 financial statement audit, we         For initial information security awareness training,             X         2
 10-12    learned that the IT security awareness training          OIT will continue to update and provide training
          weakness has not been remediated, therefore, this        materials for the Office of HCT New Employee
          finding was reissued.                                    Orientation Program (NEOP). The HCT should
                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 144
                                                                                                                                 Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2010

 NFR                                                                                                                    New     Repeat   Severity
                               Condition                                           Recommendation
 #No                                                                                                                    Issue    Issue    Rating
                                                                     continue to implement the NEOP agency-wide.
                                                                     HCT must provide OIT a monthly report of all
                                                                     new hires and the date they completed initial
                                                                     information security awareness training during
                                                                     NEOP.
                                                                     For annual information security awareness
                                                                     refresher training, OIT will continue to use the
                                                                     Department of Status (DOS) Computer Security
                                                                     Awareness Training (CSAT) tool to provide
                                                                     information security awareness training to all
                                                                     USCIS employees with access to agency
                                                                     information systems.
CIS-IT-   During roll forward testing for the FY 2010 financial      The Office of Information Technology will           X                  2
 10-13    statement audit, KPMG performed inspection of              finalize and issue the USCIS MD on Information
          Active Directory and Exchange (ADEX) access                System Account Management. The MD stipulates
          request forms. Per our inspection, KPMG determined         polices on records management of access requests
          that one out of the forty-five access forms requested      and standardizes the USCIS Network Access
          was not provided. Additionally, three out of the forty-    Request Form.
          five access forms requested were created on the same
          day of the request.
CIS-IT-   ICE - During KPMG’s internal vulnerability                 USCIS will monitor the MAP of the associated                 X         3
 10-14    assessment efforts of ICE’s ADEX network servers           NFR# ICE-IT-10-16 and request periodic status
          and devices performed in August 2010, KPMG                 updates.
          identified a default installation and configurations for
          the HSRP on the Cisco routers.
          USCIS - Although USCIS does not have direct
          responsibility for the controls over ADEX and ICE
          financial applications, USCIS does have a
          responsibility to proactively manage its service
          provider relationship with ICE. USCIS should require
          ICE to provide a detailed Corrective Action Plan
          (CAP) containing the planned remediation of the
          security vulnerabilities affecting USCIS data integrity.




                     Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                                        Page 145
                                                                                     Appendix B
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 146
                                                                          Appendix C
                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2010




                                 APPENDIX C
Status of Prior Year Notices of Findings and Recommendations
                      and Comparison to
Current Year Notices of Findings and Recommendations at DHS




 Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                    Page 147
                                                                                          Appendix C
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2010


                    Current Year Notices of Findings and Recommendations

                                                                                     Disposition
  NFR No.                              Description                             Closed         Repeat

CBP-IT-09-03   Contractor Tracking Deficiencies                                  X
CBP-IT-09-12                    Install                                                        10-11
CBP-IT-09-13   Complete List of CBP Workstations                                               10-11
CBP-IT-09-21   Review of Changes to Security Profiles in ACS                                   10-14
CBP-IT-09-27                Administrator Access Authorization Weaknesses        X
CBP-IT-09-29   Completion of CF-241 Forms for Terminated Employees                             10-09
CBP-IT-09-34   Installation of Anti-Virus Protection                                           10-11
CBP-IT-09-41   Weaknesses in the Process of Separating CBP Contractors                         10-08
CBP-IT-09-44    Completion of Non Disclosure Agreements for US CBP                             10-10
               Contractors
CBP-IT-09-45   Log configuration weakness for                   System.          X
CBP-IT-09-48   Lack of Effective ACS Access Change Log Review Procedures                       10-19
CBP-IT-09-56   ACE Audit Log Reviews                                                           10-03
CBP-IT-09-57   NDC LAN Audit Logs                                                X
CBP-IT-09-58   Novell Password Settings                                          X
CBP-IT-09-59   Formal Procedures for Mainframe System Utility Logs               X
CBP-IT-09-60   Configuration for Mainframe Security Violation Control Option                   10-20
CBP-IT-09-61   Completion of Initial Background Investigations and Periodic                    10-21
               Background Reinvestigations for CBP Employees and Contractors
CBP-IT-09-62   Rules of Behavior Not Consistently Signed by CBP Employees        X
               and Contractors
CBP-IT-09-63   ACE does not disable accounts after 45 days                       X
CBP-IT-09-64   ACS PGA ISAs Not Completely Documented                                          10-16
CBP-IT-09-65   Documentation of ACE Access Change Requests                                     10-06
CBP-IT-09-66   Separated Employees on ACE Access Listing                                       10-01
CBP-IT-09-67   Inadequate Documentation of ACS Access Change Requests                          10-17
CBP-IT-09-68   Vulnerabilities in Configuration and Patch Management             X
CBP-IT-09-69   Inadequate SAP Profile Change Review                              X
CBP-IT-09-70   Overuse of ACS Emergency/Temporary Access Roles                   X
CBP-IT-09-71   Inadequate Documentation of SAP Emergency/Temporary               X
               Access Requests
CBP-IT-09-72   ACE Segregation of Duties Controls are Not In Place                             10-02
CBP-IT-09-73   Inadequate Documentation of ACE SCO Access Requests and           X
               Approvals
CBP-IT-09-74   Inadequate Protection of CBP Information and Property                           10-05
                                                                                               10-07

CG-IT-09-10    Contractor Background Investigation Weakness                                    10-02
               Weaknesses with Specialized Role-based Training for                             10-10
CG-IT-09-14    Individuals with Significant Security Responsibilities
CG-IT-09-23    Shore Asset Management (SAM) Audit Log Review Weakness                         10- 22
CG-IT-09-25    WINS Access Controls Need Strengthening                           X
CG-IT-09-31    Weaknesses Exist in the Configuration Management Controls                       10-05


        Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                           Page 148
                                                                                         Appendix C
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2010

               Over the Scripting Process
CG-IT-09-32    Lack of Documented Contractor Tracking System Reconciliation          X
               Procedures
CG-IT-09-33    Lack of a Consistent Contractor, Civilian, and Military Account              10-01
               Termination Process for Coast Guard Systems
CG-IT-09-34    WINS Change Control Weakness                                          X
CG-IT-09-40    Civilian Background Investigation Weakness                                   10-03
CG-IT-09-42    Non-Compliance with Federal Financial Management                             10-24
               Improvement Act (FFMIA) – Information Technology
CG-IT-09-43    Recertification Weakness within the User Management System            X
               (UMS)
CG-IT-09-45    FINCEN data center access is not restricted to appropriately          X
               authorized personnel
CG-IT-09-46    Configuration and Patch Management - Vulnerability                    X
               Assessment
CG-IT-09-49    JUMPS Audit Log Review Weakness                                       X
CG-IT-09-50    Audit Trail Weaknesses within the Direct Access Application                  10-28
CG-IT-09-51    Audit Trail Weaknesses within the Global Pay Application              X
CG-IT-09-52    Recertification Weakness within the Direct Access Application               10-12
CG-IT-09-53    Security Awareness Issues Associated with the Protection of                 10-06
               Sensitive Information

CIS-IT-09-01   Inefficient definition and documentation of access roles at the              10-01
               National Benefits Center for CLAIMS3 LAN
CIS-IT-09-02   Periodic user access reviews are not performed for CLAIMS3                   10-02
               LAN users.
CIS-IT-09-03   Incomplete or inadequate access request forms for CLAIMS3                    10-03
               LAN and CLAIMS4 system users.
CIS-IT-09-04   Periodic Active Directory (ADEX) system administrator access          X
               reviews are not performed at USCIS.
CIS-IT-09-06   Weak data center access controls exist                                X
CIS-IT-09-07   Equipment and media policies and procedures are not current.                 10-05
CIS-IT-09-08   Weak access controls for security software exist within the           X
               Password Issuance and Control System (PICS).
CIS-IT-09-09   Weak access controls exist in CLAIMS3 LAN.                            X
CIS-IT-09-10   Weak password configuration controls around CLAIMS4.                         10-07
CIS-IT-09-11   Background investigations are not conducted in a timely manner.       X
CIS-IT-09-12   Procedures for transferred/terminated personnel exit processing              10-04
               are not finalized
CIS-IT-09-13   Ineffective safeguards over physical access to sensitive facilities          10-08
               and resources
CIS-IT-09-14   Weak access controls exist within FFMS                                X
CIS-IT-09-15   Lack of policies and procedures for CLAIMS 3 LAN and                         10-09
               CLAIMS 4 audit logs
CIS-IT-09-16   Weak logical access controls exist over CLAIMS 4                             10-10
CIS-IT-09-17   Training for IT security personnel is not mandatory                   X
CIS-IT-09-18   Lack of policies and procedures for separated CLAIMS3 LAN                    10-11
               accounts
CIS-IT-09-19   IT Security Awareness Training compliance is not monitored                   10-12

CIS-IT-09-20   Default installation and configuration of Cisco routers on ICE               10-14


        Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                           Page 149
                                                                                   Appendix C
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2010

                Network Impact USCIS Operations.

CONS-IT-09-13   Evidence of Security Management Review of DHSTIER’s            X
                Oracle Activity Audit Reports is Not Retained
CONS-IT-09-14   CFO Vision Password Parameters are Not Configured in                  10-01
                Accordance with DHS Policy
CONS-IT-09-15   Operating System Patch Management Procedures for DHSTIER       X
                and CFO Vision Not Documented.
CONS-IT-09-16   Periodic Review of DHS Stennis Data Center Access Privileges   X
                is Not Performed

FEMA-IT-09-02   Configuration Management Weaknesses on IFMIS, NEMIS, and              10-41
                Key Support Servers (vulnerability assessment finding)
FEMA-IT-09-03   Weaknesses Exist over Recertification of Access to IFMIS             10-14
FEMA-IT-09-06   Documentation Supporting the IFMIS User Functions Does Not           10-49
                Exist
FEMA-IT-09-12   NEMIS Access Controls Need Improvement                                10-01
FEMA-IT-09-13   Employee Termination Process for Removing System Access               10-21
                Should be More Proactive
FEMA-IT-09-17   System Programmers Have the Ability to Migrate Code into the          10-39
                IFMIS Production Environment
FEMA-IT-09-19   Monitoring of NEMIS System Software Needs Improvement                 10-04
FEMA-IT-09-22   Alternate Processing Site for NEMIS Has Not Been Established          10-02
FEMA-IT-09-24   NEMIS Backups Are Not Tested in Accordance with Policy                10-36
FEMA-IT-09-25   The NEMIS Contingency Plan Is Not Tested                              10-20
FEMA-IT-09-28   NEMIS Configuration Management Process for Non-Emergency              10-62
                Changes Needs Improvement
FEMA-IT-09-29   NEMIS Emergency Change Process Needs Improvement                      10-62
FEMA-IT-09-38   Segregation of Duties Not Enforced for Traverse                X
FEMA-IT-09-39   Traverse Contingency Plan Not Tested and NFIP Disaster                10-61
                Recovery and COOP Needs Improvement
FEMA-IT-09-45   IFMIS User Access is not Managed in Accordance with Account           10-26
                Management Procedures
FEMA-IT-09-46   IFMIS System Interconnections Agreements Have Not Been         X
                Reauthorized
FEMA-IT-09-48   Corrective Action over NEMIS Vulnerabilities is Not Formally          10-33
                Documented
FEMA-IT-09-50   Weaknesses Exist over IFMIS Application and Database Audit            10-11
                Logging
FEMA-IT-09-51   NEMIS Oracle Audit Logging is Not Tracked                             10-09
FEMA-IT-09-52   Existing NEMIS Patch Management Guidance Needs to be                  10-35
                Implemented
FEMA-IT-09-38   Segregation of Duties Not Enforced for Traverse                X
FEMA-IT-09-39   Traverse Contingency Plan Not Tested and NFIP Disaster                10-61
                Recovery and COOP Needs Improvement
FEMA-IT-09-45   IFMIS User Access is not Managed in Accordance with Account           10-26
                Management Procedures
FEMA-IT-09-46   IFMIS System Interconnections Agreements Have Not Been         X
                Reauthorized
FEMA-IT-09-48   Corrective Action over NEMIS Vulnerabilities is Not Formally          10-33
                Documented


        Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                           Page 150
                                                                                    Appendix C
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2010

FEMA-IT-09-50    Weaknesses Exist over IFMIS Application and Database Audit            10-11
                 Logging
FEMA-IT-09-51    NEMIS Oracle Audit Logging is Not Tracked                             10-09
FEMA-IT-09-52    Existing NEMIS Patch Management Guidance Needs to be                  10-35
                 Implemented
FEMA-IT-09-77    FEMA and NFIP Planning, Management and Communication                  10-47
                 Related to Financial Systems Development and Acquisition
                 Projects Needs to be Improved
FEMA-IT-09-78    Weaknesses Exist in the NEMIS Configuration Management                10-62
                 Process under the EADIS contract
FEMA-IT-09-79    Weaknesses Exist over Management of FEMA LAN Accounts                 10-22
FEMA-IT-09-80    Vulnerability Assessments of the NFIP LAN is Inadequate               10-52
FEMA-IT-09-81    Improvements are Needed in Core and G&T IFMIS Internal                10-34
                 Scanning Procedures and Processes
FEMA-IT-09-82    Core and G&T IFMIS Patch Management Weaknesses                        10-32
FEMA-IT-09-83    EADIS NEMIS Access Restrictions to Program Directories
                                                                                       10-51
                 Needs Improvement
FEMA-IT-09-84    PARS Database Security Controls are Not Appropriately
                 Established                                                           10-05
FEMA-IT-09-85    TRRP Password Configurations have not been Configured in       X
                 Accordance with DHS Policy
FEMA-IT-09-86    Weaknesses Exist over the Implementation of Traverse System
                                                                                       10-60
                 Changes
FEMA-IT-09-87    Weaknesses Exist in FEMA’s Incident Response Program                  10-31
FEMA-IT-09-88    Weaknesses exist over access authorizations for TRRP                  10-53
FEMA-IT-09-89    Weaknesses exist over FEMA Background Investigations for
                                                                                       10-45
                 Federal Employees and Contractors
FEMA-IT-09-90    FEMA LAN Certification and Accreditation Package is not
                                                                                       10-28
                 Adequate
FEMA-IT-09-91    FEMA Contractor Tracking Program is Inadequate                        10-10

FLETC-IT-09-03   Momentum System Software is Not Logged or Reviewed             X
FLETC-IT-09-26   System Engineering Lifecycle (SELC) is not finalized           X
FLETC-IT-09-31   Configuration Management Weaknesses on the Procurement         X
                 Desktop, Momentum, and GSS.
FLETC-IT-09-33   Momentum Audit Logs are not Reviewed                                  10-04
FLETC-IT-09-34   GAN audit logs are not reviewed                                       10-05
FLECT-IT-09-35   Weak access controls around Momentum                                  10-02
FLETC-IT-09-36   Ineffective logical access controls over the Glynco                   10-03
                 Administrative Network
FLETC-IT-09-37   Physical Security and Security Awareness Issues Identified            10-06
                 during Enhanced Security Testing
FLETC-IT-09-38   Ineffective logical access controls over SIS                   X

 ICE-IT-09-11    Ineffective physical security controls at facility entrances   X
 ICE-IT-09-12    Ineffective/non-compliant account lockout counter settings     X
 ICE-IT-09-13    Ineffective password settings in FFMS                                 10-02
 ICE-IT-09-14    Ineffective ADEX user access recertification process           X
 ICE-IT-09-15    Ineffective FFMS access recertification process                       10-03
 ICE-IT-09-16    Terminated/transferred personnel are not removed from ADEX            10-06
                 in a timely manner


         Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                            Page 151
                                                                                        Appendix C
                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2010

ICE-IT-09-17    Segregation of duty policies are not enforced in FFMS                      10-04
ICE-IT-09-18    Background reinvestigations are not conducted in a timely           X
                manner for contractors.
ICE-IT-09-19    Procedures for transferred/terminated personnel exit processing     X      10-01
                are not allowed.
ICE-IT-09-20    Training for IT security personnel is not mandatory                        10-11
ICE-IT-09-21    Vulnerability Assessment - Network devices were installed with             10-13
                default configuration settings and protocols; inadequate patches;         through
                and weak/ generic passwords.                                               10-16
ICE-IT-09-22    Physical Security and Security Awareness Issues Identified                 10-09
                during Enhanced Security Testing
ICE-IT-09-23    IT Security Awareness Training requirements are not enforced        X

OCIO-IT-09-03   DHS has not fully implemented the FDCC security                           10-01
                configurations requirements.

TSA-IT-10-20    TSA Computer Access Agreement Process                                   TSA-IT-10-
                                                                                           03
TSA-IT-10-23    Configuration Management Controls Over the Coast Guard              X
                Scripting Process (Included a specific TSA condition)
TSA-IT-10-28    Physical Security and Security Awareness Issues Identified              TSA-IT-10-
                during Enhanced Security Testing                                           01
TSA-IT-10-29                                                                            TSA-IT-10-
                CAS, FPD, and Sunflower Access Recertification
                                                                                           02




        Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                           Page 152
                                                                                                                                            Appendix D
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2010


                                                                                                  1 ".I)'-Il;l.tllltni ·,fll,,""I"n.I .... llrlh
                                                                                                  \\ ,L'hill~l"n. 1)(   ~115:!X




                                                                                                            Homeland
                                                                                                            Security

            \lEMORAi\l>l'MI'OR:                      Fr,1Jlk DeJ"ll-1
                                                     Assistant !nspl.';.:tor (il'ncra!
                                                     InljlrllWlio!l I ~dlllnJogy :\udil"

        FROM:                                        I'C""' Slwrn
                                                     !\ciin" Chid
                                                             ~.
                                                                          f~
                                                                  I111t:llH.:mlr_                 .. r
                                                                                     . <-
                                                     Ricl1.ml     Spin.:~            ~
                                                    ('hier In rornVHion ()I lied

                                                     Robcrt \\'e,,1          \:~    .... _ '""-
                                                    Chicr' Illl: ml1.11inn Su;urity ()!Ti(Tl"

        Slll.JLCT:                                  lJrart i\udll I{,,'porl . IIJ(imll(/{iui1 1(chn%gvlfut/agl..'JIIl'iIl
                                                    I t'ller /fw f-T JIJf{) IJI/S Financiol ,\'Ialenwnl (Ilidif J'(J1"
                                                    Official { ',e ( JUI.1· (( lfe .. PmiL'u ,\"0. (ll( ;-11·03 :-11:. /.
                                                     \f(;,\.((;


         \\ l,,' 11;1\"e I\;\'i""\'cd thi,; OITi1.:e Drih...: 11lSPI.'(ltIf (j~ncri.ll·..; (O!O) dlJ.1L audil l'l'Jwn.
        h7/rJl"/iliI!wll lechno!of.!..\' A.Jullagen/c/'J! LCf{l'l' r/TAJI.)/(u'I''j" 20/fj /)//S Fimll/L'wf
        .)"I((h'1IiL'111 "/Ildit. d.lled fkt:.. : lllhcr t) .20}11. We I..'(JJlL'ur \\ ilh tho: '·irWllcilll ... ~ 'll:m ..
        S~nlnt~ fimlill).!,S \.'tll,t.. linl:d "iLlllll ~ \Illr ~Illdi( l"':pl In.


            1)11;'; ('hi~'f Illl'lrtl1<Hillll ()lliL:.:r \Cl(}) ,Int! ChIcI' Fin,llH;ial Of!icer (CH)1 uIlllinuc 10
        <I'h~
        work l\lil1il~ in "':lb\lrlng thl' lillld~ rcmedl;ll i,lll of financial ~) sh~lll Seellrll)" \\'~<1l..lle'sst:s
        i.md :iII'Chgtlll-,)ing tlh: I)t::parlll\t:lll' s in!()J'Jllal ion :;yslCtrl:=; ct)ntfC>l::' (I)'i/if()nmcni. i\lajl'W
        i1cti\'ilics illl:IIlJ~':

        •     ls";Ul.'t1I!l.,!'T ](}f(j 11/fc/"Ho{ COl/lmf I'II/\'hook ,lfwuw:('I11{'!1f                  A.\'.'/ll"tIi/u     flmn'.D
             (;/Ii",' \\1Jicb indud~:, IJII;,\' apprpudlill J\Il'llllh':lllillg ami h::-;tillg !.Ill' tksign
             L'J !.:c!ivl.:tll.'sS 01 iilWKi;11 !'.~ S!I.-'Ill 1111; If/ll,nion I...·chll"lllg~ (i..'II..:r:r! ('Illllro!., (/"f o('s).
        o    I ·l,d,lk'...! lh~' ( H I [)(',i~n,lll'd ~~'h..'lll' I.i:;t Il.l!" j. Y ~oln as a n:stl!t 1I1'lh... 1"1 t.tl A·
              I" ~ ,1 ... 't..""f11l,'nl' jlL'rli.llllh:d ill I, Y .2009 'I hl'ji",'pl..'L:ilics lhl.' lil1<.llh,:i:d s~ .,1l.:111"; lll:l!
             rL'ql1lr\' ;lddlliol1,1! l11;lll;I~l..'lI1l'lll :lI.:t:01l1llahilil) hi ellsure el"fcclive cOl1lrols I'xiSI over
              lil1,ll1L'tall\:P\l!1in~.
       ()    I k\ I,:h'pl,:d ;md illlplcllll.'llh.:d 1ll1ldifil".Hillll~ to thl,,' St:lllll' of A~ 123 ass\.'ssmClll:-; fur I· Y
             201111\1 pcrfnrlll \"l'rilrl.:.ltillll ,llld \alidathltl rrnl:l'ourcs III ensurc Plan" 01" I\diull and
             \ \ik,,!llllL';o;. t PC l. \8: \ I, I .lddn..:;..,.., n Illi C~llses or Jinancial system "l'l..'uril~ l.:lllllrll]
             ddit:iclH:iL'~ idl'lHilicd from thl." lill,1llci~d ,tatclllcni audils and Fcdl.:r~d Illlornmlil1!l
             Sl'curtty .\1unagl'll1tlll ;'\l:l (FISi\·lt\) Ulll111ai as:"~""smcnts. V<1lidatioll and n:rificntiol1
             (V&VI pru(:cdllrcs \\"cr..: p(,.~rfonllcd al till.: folliH"ing COlllpOnCtlts·---U,S, Cili/,(,:llship




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 153
                                                                                                                                               Appendix D
                                     Department of Homeland Security
                                 Information Technology Management Letter
                                            September 30, 2010




          .U1J   Immigr~lli,lll    Servi(l's, IlTlllllgnHiull and l'u~I(1rns I~llrorel'lncnt. Customs ,mel
          ~;"'d";:'l':',lt~-:tloll, h"x!l:r;ll   LI','. hHim::cm~nl 'I r;linillc Center. lh~ 01 IS \ (:m:lI2.I.'IllClU
          l-'trccWI';l!l..' ;11hl I ·.S. S(:l.:r~t Sc\"\'il:!.:. 'I h.... V & V dYolls I:Ol1si."ll.'d 1)1 ,1 tJm,,:c·ph:I."'I..'d
          a:'SCSSlllcnt apIll'tlac11:
                      I. Assess currl'lll :-,wt••: bascLllln IT \',,!iljl':ltipll~ of Finding::. ,Ull!
                         RI,,·l.'UllIlIll.'lll!alions I ~ I· Rs i ,11ld 0,\ IB ('irclIbr A- J 2':; aSst:Ss1l1cnt gi1PS~
                         Ciai 11 ulltll.'r<.;l:lnd i lit' t 1\' 1\.'fHl.:di,lti.. In ;1i..·1 i\ j I iL'S ;\Jll! , llot caus~ '1lll.l1~ .,;.,. <lDl;
                      .l,   TC,,1 ..k-<.;lgll ,1I11.l opl..'I"ll ill~ 1..·t"lI..'l.:li, I.:ll.:.. . " 01' 1\:Il1Cdlitkd COlli I \lh.
    •     IsslIcd 1111..' I Y ~OIO 1>1 I~ Inlimllalid!l Sl.'..:uril~ 1\:rlill'lll:IIlI.:C 1)I;ln \.-vhidl indudcs the-
          II..'qllil'i,,:l1ll.'nts III \."I1:.Ufl.· h'~ lin'Ill\.·i,,1 ..,~,..,L ... m sl.'ull'iL~ \"IlIlLroh ure h"..,h:d ;l1lrtuall~ and
          qu:dit.\ PI), \8.. ~ Is an,: tlI.:H:lop;,:d ;llld l:01l1pk'll'd limd~.
    •     l',llllillLh,,:d Ir;II..''';II;= oj' .\- f'::~ 11 (i{' \\I..'<'l"lh:S'l.'~ Ihl"llllgh lhl.· \\l'<1kl1l:ss l'cmcdi,lIi\)\l
          m~Ll'ic 011 tIKI' 1;-. \ 1;\ S..,:oree'lrd.
    •     l'rm idL'd 1'( ),\&i\·I training wllil.:h ilH:lul!l::, nlOt cause analysis 11"3illing to PI IS
          ('ompllllClll'i.
    •     IIlIPfl1\l.'d pr\lL:l"'\S li}r tr:lCkll1g 1·1 audil rn:olllillcnd,tlioll:-i ItH dil~~iji(,'d systems tl)
         I..'IlSurC Ir;Il.:~ahiliL~ to PI )"&~,ls in     Clu..,,,ifieu 1.\1'.

     Addill\Ill"III~ In I \- ~l)l J. I)ll~ kl'; L:Undlll.:lI."d individual rlS,", 8:'iSCSsmcnts nnd r~qLJircd
    dd,likd hri\.,tin!-,s Frolll fill dllll{Jl.llll.:nh 1.'l1/111ihuling ((I tIll.' Ill<llr.:ria! \\l,<tkncss condilillJ1 at
    ,hI..' Ikp,II'tl1h.'IH. 'J h":l'rinnry gnab II["lh....sl..' Ilh.::...' lillgS Wo..:ll.' 10 dl.'kl'll1inl.: "utili r..:adill';~".
    ...·vllltt~ll\.' thl.: d"h:l.:li\\:n...:s:-; \,)1' llll'l,;ol'rl.'l;li\·I.' ;lI.:llLHIS. and Ill..-lIlify <tp.:as wll ... I'\.· additillilal
    rclLl.H.:.... Gill h... r!;II..· ... d '111 .1IIh~ll1i1k\1 C\lI\lfllb

    TltL: 1)1·1~ {TO and ('II.> r\."J1):llll rllll~ Ctlllllllilll'd 10 wod'llIg Ingdl1cf 10 SlUll'\.' DI IS
    lin<lm.:iat ... ~ <.;tt:lllS alld l.:\llllillllC 10 rais~ 11K' sli.mdmds 11.11' II (;( "s I~ll' :->I.'l.:uring <Ill I)I!",
    fill<llH.:l,tl ,y<.;tl.'llI:- inlfXIlli.lllllll.

    [1 ~'llt h.I\\.' ~lll.\ lIU\"stions      \)1"   "'uuld like uddiliunal Infi)lmatil)ll. ph.'il:'>t' cont<\ct                        Ellll.'''~
    Csulai.., 1"0, Campli;IIKe Dir\.'l:IIJr at CW.2) 3S7-61 13 or Mkhael \\.·L:l1\I,)\\. OCTO.
    Dircc!llr ! \lLem"l (' o11I,d Progr<tlll i'v1<lna.~:;; mcnl () nicc ElL (~02) 44"-51 06.




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 154
                                                                         Appendix E
                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2010




                 Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 General Counsel
                 Chief of Staff
                 Deputy Chief of Staff
                 Executive Secretariat
                 Under Secretary, Management
                 Chief Information Officer
                 Chief Financial Officer
                 Chief Information Security Officer
                 Assistant Secretary for Office of Policy
                 Assistant Secretary for Office of Public Affairs
                 Assistant Secretary for Office of Legislative Affairs
                 DHS GAO OIG Audit Liaison
                 Chief Information Officer, Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as
                 appropriate




Information Technology Management Letter for the FY 2010 Financial Statement Audit
                                   Page 155
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
